<html>
<title> - NOMINATIONS TO THE EXECUTIVE OFFICE OF THE PRESIDENT, THE DEPARTMENT OF COMMERCE, THE NTSB, AND THE AMTRAK BOARD OF DIRECTORS</title>
<body><pre>[Senate Hearing 111-514]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-514

                           NOMINATIONS TO THE
                   EXECUTIVE OFFICE OF THE PRESIDENT,
                 THE DEPARTMENT OF COMMERCE, THE NTSB,
                   AND THE AMTRAK BOARD OF DIRECTORS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 18, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation






                  U.S. GOVERNMENT PRINTING OFFICE
55-983 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
             Ann Begeman, Acting Republican Staff Director
              Brian M. Hendricks, Republican Chief Counsel












                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 18, 2009................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Lautenberg..................................     2
Statement of Senator Hutchison...................................     4
    Prepared statement...........................................     4
Statement of Senator LeMieux.....................................    42
Statement of Senator Thune.......................................    44

                               Witnesses

Hon. Robert Menendez, U.S. Senator from New Jersey...............     5
Hon. Ted Kaufman, U.S. Senator from Delaware.....................     6
Hon. Philip E. Coyle III, Associate Director-Designate, Office of 
  Science and Technology Policy, Executive Office of the 
  President......................................................     7
    Prepared statement...........................................     8
    Biographical information.....................................     9
Scott Boyer Quehl, Chief Financial Officer-Designate and 
  Assistant Secretary-Designate for Administration, United States 
  Department of Commerce.........................................    15
    Prepared statement...........................................    17
    Biographical information.....................................    19
Suresh Kumar, Assistant Secretary-Designate for Trade Promotion 
  and Director General, U.S. and Foreign Commercial Service, U.S. 
  Department of Commerce.........................................    27
    Prepared statement...........................................    29
    Biographical information.....................................    30
Anthony R. Coscia, Director-Designate, Amtrak Board of Directors.    50
    Prepared statement...........................................    53
    Biographical information.....................................    54
Albert A. DiClemente, Director-Designate, Amtrak Board of 
  Directors......................................................    63
    Prepared statement...........................................    64
    Biographical information.....................................    64
Mark R. Rosekind, Member-Designate, National Transportation 
  Safety Board...................................................    68
    Prepared statement...........................................    70
    Biographical information.....................................    71

                                Appendix

Hon. Barbara Boxer, U.S. Senator from California on the 
  Nomination of Mark Rosekind, to be a Member and Reappointed to 
  the National Transportation Safety Board, prepared statement...    83
Hon. Barbara Boxer, U.S. Senator from California on the 
  Nomination of Philip Coyle III, to be the Associate Director at 
  the Office of Science and Technology Policy, Executive Office 
  of the President, prepared statement...........................    83
Response to written questions submitted to Hon. Philip Coyle III 
  by:
    Hon. Tom Udall...............................................    84
    Hon. Kay Bailey Hutchison....................................    84
    Hon. John Ensign.............................................    85
    Hon. John Thune..............................................    86
    Hon. David Vitter............................................    86
Response to written questions submitted by Hon. Mark Warner to 
  Scott B. Quehl.................................................    88
Response to written question submitted by Hon. Tom Udall to 
  Anthony R. Coscia..............................................    89
Response to written question submitted by Hon. Tom Udall to 
  Albert A. DiClemente...........................................    89
Response to written questions submitted by Hon. Amy Klobuchar to 
  Mark R. Rosekind...............................................    90

 
                  NOMINATIONS TO THE EXECUTIVE OFFICE
                  OF THE PRESIDENT, THE DEPARTMENT OF
         COMMERCE, THE NTSB, AND THE AMTRAK BOARD OF DIRECTORS

                              ----------                              


                      WEDNESDAY, NOVEMBER 18, 2009

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:35 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. Thank you, and good afternoon.
    I want to welcome and congratulate the nominees. I guess I 
can't congratulate all of them yet. They have to be confirmed, 
and we have some people here to do some introductions.
    But let me just make my opening statement, and then we will 
go to Senator Frank Lautenberg, who may have an opening 
statement, and we will go right to introductions.
    Senator Lautenberg. Yes.
    The Chairman. And obviously, I commend all of you for 
agreeing to serve the Nation. Sometimes it just takes about a 
year and a half to get confirmed, but that is part of public 
service, and you are doing good things for our country, and I 
appreciate that.
    I have to apologize in advance for leaving half way 
through. I am going to do three nominees and Frank, Senator 
Lautenberg, is going to do three of the nominees. I want to 
thank Senator Lautenberg for chairing the panel and for his 
total commitment--he is sort of the founder or keeper of 
Amtrak. I guess Joe Biden wouldn't have liked that, but he is 
not here.
    [Laughter.]
    Senator Lautenberg. No, he would agree.
    The Chairman. He would agree. OK.
    And culminating in the Amtrak reauthorization that passed 
in this last Congress.
    I want to welcome Mr. Scott Quehl, who I just met, the 
President's nominee to be Chief Financial Officer and Assistant 
Secretary of Administration for the Department of Commerce. It 
is a large job, with 38,000 people.
    If confirmed, you will be responsible for overseeing the 
Department's financial resources, human resources, and 
facilities. With the Department's $17 billion budget, I am 
confident that your financial management experience will serve 
you well in carrying out these responsibilities.
    I am also pleased to welcome Suresh Kumar, the President's 
nominee to be the Commerce Department's Assistant Secretary of 
Trade Promotion and Director General of the U.S. Foreign and 
Commercial Services.
    Isn't that the job that Sue Schwab had? I think so, in a 
previous Administration.
    Also, Mr. Philip Coyle has been nominated to be Associate 
Director for National Security and International Affairs in the 
Office of Science and Technology, OSTP, run by a very great 
man, indeed. This position is currently vacant and has sat 
unfilled for nearly a decade. I hope, Mr. Coyle, that your 
nomination will serve to highlight the importance of science in 
an inescapably globally connected world.
    I now will turn to Frank Lautenberg, Senator Lautenberg, 
for any comments he might have, and then we will have 
introductions.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman, and thanks for 
the opportunity to be frank with you----
    [Laughter.]
    Senator Lautenberg. The staff knows when to laugh. Did you 
hear what I said?
    The Chairman. No.
    Senator Lautenberg. No, I said thanks for the opportunity 
to be frank with you. And I had to wait until the staff got a 
cue to laugh and----
    The Chairman. It was good, but it was not a great joke.
    [Laughter.]
    Senator Lautenberg. I will take the man who owns one.
    In any event, first of all, let me say that when we see two 
distinguished Senators, as we have, at the witness table, we 
can be sure that the people that they are here to acknowledge 
and greet are well-trained and deserve the opportunity that 
they have been nominated for.
    First, I want to say that a good friend, Tony Coscia, is 
here. Though that is not reason enough to endorse him. He is 
really well-qualified, and I want to support his nomination to 
serve on the Board of Amtrak.
    The American people and our Nation's passenger rail system 
will be well served by having Tony on the board. He has had 
great experience. He is the Chairman of the New York/New Jersey 
Port Authority and has learned an awful lot about 
transportation and the needs for our region.
    When I think about families who are making travel plans for 
the holidays, I also think about the kind of problems that one 
could have getting through in their means of travel. There will 
be lines of airplanes on the tarmac and lines of cars on the 
highway. When America has a vibrant and truly national 
passenger rail system, there will be fewer lines, fewer hassles 
and delays because our travelers will have more options. That 
is the reason I wrote the law last year to reform and 
revitalize Amtrak.
    And Mr. Chairman, without your help, it never would have 
passed, and I am grateful to you for that. I know Tony can help 
make that law a success and help realize our vision of Amtrak 
becoming one of the premier passenger rail systems in the 
world, and I want it done in 5 years from now.
    [Laughter.]
    Senator Lautenberg. As Chairman of the Board for the Port 
Authority of New Jersey and New York, he has distinguished 
himself as one of the Nation's transportation experts. With 
experience achieving those goals in the most densely packed 
region in the country, Amtrak can be a better-run and smarter 
operation than it has now, saving more money, carrying more 
passengers, and expanding service into new areas of the 
country. And I know that our distinguished colleague Senator 
Hutchison is very much interested in rail service and promoting 
that.
    While at the Port Authority, Tony led the adoption of a $29 
billion capital plan that spans over 10 years. The plan is 
going to help develop a new rail tunnel under the Hudson River, 
expand aviation facilities for our busy region, and rebuild the 
World Trade Center site.
    And I was a Commissioner of the Port Authority before I 
came here, and I have got some sense of what it takes to manage 
this complex organization. I think it is being particularly 
well done.
    And with Tony Coscia on the Amtrak board, I think our 
confidence has been boosted that we can accomplish the goals 
that we would like.
    I am also pleased to introduce another New Jerseyian, 
Suresh Kumar, a New Jersey resident who is President Obama's 
nominee to head the United States and Foreign Commercial 
Service at the Department of Commerce.
    The Commerce Department and its Foreign Commercial Service 
play a critical role in getting America's goods and services 
overseas and creating new jobs here at home. Especially in 
these difficult times, that job takes someone who understands 
government, understands business, and understands how the two 
can effectively work together.
    Mr. Kumar is just the right man at the right time. As a 
management consultant based in Princeton, New Jersey, Mr. Kumar 
has devoted himself to helping businesses and nonprofits 
improve their efficiency and, at the same time, improve the 
lives of the people they serve. He worked for two of New 
Jersey's most distinguished companies--Johnson and Johnson and 
Warner-Lambert.
    But, Mr. Kumar is more than one of New Jersey's successful 
businessmen and entrepreneurs. He is also a global citizen who 
has used his skills to help those who need that kind of help. 
He was a special adviser to the Clinton Foundation and worked 
with governments in Sub-Saharan Africa to create private-public 
partnerships that would help the region grow and develop.
    I also came from the business world, as Mr. Kumar did, and 
I took what I learned starting a company and applied it to my 
work here in the Senate. For some reason or other, it seemed 
simpler then. But I know a business perspective is often what 
it takes to get Government to run smoother, leaner, faster and 
to help even more people.
    So I am pleased, Mr. Chairman, and I thank you for the 
opportunity to introduce these two outstanding candidates for 
the positions in Government.
    The Chairman. Thank you, Senator Lautenberg.
    And now our Ranking Member, Senator Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman.
    I will not read my opening statement. I will submit it for 
the record. But I would like to let these witnesses go forward.
    So thank you very much.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas
    Thank you, Mr. Chairman, for holding today's hearing. We will 
consider a number of nominees chosen to fill positions across a variety 
of agencies. I congratulate them on their nomination.
    I want to first welcome Mr. Scott Quehl, who has been nominated to 
serve as Assistant Secretary for Administration and Chief Financial 
Officer at the Department of Commerce.
    The Commerce Department's jurisdiction covers such far-reaching 
matters as domestic telecommunications infrastructure, the census, 
export promotion, and the National Oceanic and Atmospheric 
Administration (NOAA). With over $17 billion in budget authority for 
Fiscal Year 2009, the Chief Financial Officer of the Department of 
Commerce has an enormous responsibility to ensure that the taxpayers' 
money is being spent wisely.
    I look forward to hearing from Mr. Quehl and learning about his 
plans to ensure fiscal responsibility throughout the Department of 
Commerce.
    I am pleased the Administration has moved to fill the position of 
Associate Director for National Security and International Affairs at 
the Office of Science and Technology Policy and welcome the nominee, 
Mr. Philip Coyle. This is an important position at OSTP, and a key to 
ensuring that America not only remains competitive, but also safe from 
bioterrorism, cyber sabotage, and other threats.
    Mr. Coyle's background and experience make him well-equipped to 
undertake the challenges and responsibilities of this position, and I 
look forward to being able to support his confirmation.
    I am also pleased to welcome Mr. Suresh Kumar, who has been 
nominated to be Assistant Secretary of Commerce and Director General of 
the United States and Foreign Commercial Service. The U.S. and Foreign 
Commercial Service provides important services to U.S. businesses to 
help them compete in the global marketplace. It expands the markets 
available to U.S. exporters and provides assistance to small and medium 
sized businesses that want to promote their products overseas.
    Mr. Kumar has significant international business experience and I 
look forward to hearing his ideas for the U.S. Commercial Service.
    I would also like to recognize our transportation-related nominees, 
who will appear on the second panel today. Dr. Mark Rosekind has been 
nominated to be a member of the National Transportation Safety Board 
(NTSB), and Mr. Albert DiClemente and Mr. Anthony Coscia have been 
nominated to be members of the Amtrak Board of Directors.
    As a former NTSB Vice-Chair, I understand well the important role 
the Board plays in promoting our Nation's transportation safety. Mr. 
Rosekind is a recognized expert in the area of fatigue, which impacts 
safety across all transportation modes. I will be interested in 
learning how he hopes to help the Board, and in turn, the 
transportation industry, address fatigue management, as well as hearing 
his views on other safety improvements.
    And finally, I welcome the two Amtrak Board of Directors nominees, 
Mr. Coscia and Mr. DiClemente. I have long been a supporter of Amtrak 
and of a national system for passenger rail. It is important that we 
look beyond the Northeast Corridor to other parts of the country that 
can benefit from increased Amtrak service, including Texas. I will be 
very interested in hearing from Mr. Coscia and Mr. DiClemente today on 
how they believe passenger rail service can be improved and expanded to 
play a greater role in our Nation's transportation system.
    Thank you.

    The Chairman. Now this is a little bit convoluted, but it 
will make sense in the end. Senator Kaufman and Senator 
Menendez, starting with Senator Menendez, you have people that 
you want to introduce. They will not necessarily be on the 
first panel. But I don't want to hold you here, and you don't 
want to be held here.
    So please proceed with the introduction.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman. Let me thank you 
and the Ranking Member for the opportunity to join Senator 
Lautenberg in joining in introducing Anthony Coscia as one of 
President Obama's nominees for the Amtrak Board of Directors.
    And let me take the occasion to salute Senator Lautenberg's 
leadership on the Subcommittee on Surface Transportation. There 
isn't a better, stronger, most effective advocate for mass 
transit in this country, particularly rail transit, than 
Senator Lautenberg. And he has proven that over his time here 
in the U.S. Senate and has made the country better as a result 
of it.
    I think there is a growing recognition that investing in 
passenger rail can strengthen our country in numerous ways--
creating jobs, reducing dependence on foreign oil, cleaning the 
air that we breathe and the climate our children and 
grandchildren will inherit--and I believe passenger rail is an 
absolutely essential part of solving our transportation 
challenges.
    And I am glad that this Administration has taken numerous 
steps to signal its commitment to this issue, including 
spearheading a long-awaited high-speed rail network. In short, 
now is the time to strengthen Amtrak and also provide it with 
firm leadership as it expands into a central component of our 
transportation future.
    Tony Coscia is the right person at the right time to help 
lead Amtrak as a Member of its Board of Directors. As Senator 
Lautenberg said, he has, since 2003, been the Chairman of the 
Board of Commissioners of the Port Authority of New York and 
New Jersey, where he oversees a nearly $7 billion annual budget 
while managing some of the most critical infrastructure 
facilities in the region and in the country. Those include the 
PATH commuter railroad, five airports, four port facilities, 
six bridges and tunnels, and the World Trade Center.
    As Chairman, he has worked diligently to ensure the safety 
and security of the Port Authority's facilities, improve the 
transportation networks between New York and New Jersey, and 
spearheaded the agency's new mass transit rail initiatives.
    He, prior to this work, spent 11 years as Chairman of the 
New Jersey Economic Development Authority, where he worked to 
strengthen the Garden State's economic base and revitalize 
communities through job creation and retention.
    Now I have worked closely with many people, Mr. Chairman, 
over the 37 years of my public service. I have to be honest 
with you. I have never seen someone who has the scope of 
intellect, breadth of experience, as well as someone who can 
bring people together in common cause to achieve a goal as Tony 
Coscia has.
    And he has great management skills to add to that, as well 
as his commitment to improving the Nation's rail transportation 
center, as is evidenced by the latest, most significant project 
we are seeing in the country--a new mass transit tunnel leading 
between New York and New Jersey, about an $8 billion to $9 
billion program that will move literally thousands and 
thousands of people successfully each and every day.
    So given his proven leadership skills, I certainly am 
confident of what he can do for Amtrak. I urge you, Mr. 
Chairman and the Committee, to expeditiously support his 
nomination, send it to the Senate for full confirmation, where 
I look forward to being able to support him on the floor.
    The Chairman. Thank you, Senator Menendez.
    Senator Kaufman?

                STATEMENT OF HON. TED KAUFMAN, 
                   U.S. SENATOR FROM DELAWARE

    Senator Kaufman. Chairman Rockefeller, Ranking Member 
Hutchison, other members of the Committee, thank you for the 
opportunity to appear before you to introduce Bert DiClemente, 
one of the President's nominees for the Amtrak Board of 
Directors.
    I have known Bert DiClemente for over 30 years. He served 
as a State Director in Delaware for then-Senator Joe Biden for 
20 of those years. So he has been a colleague, a trusted 
adviser to Joe Biden and to me, and a dear friend for a long, 
long time. I know him very, very well.
    It is a privilege for me to introduce Bert because I think 
so very highly of him. I can recommend him to the Committee 
strongly, unequivocally, and completely without reservation. 
Bert is a man of great intelligence, character, integrity, and 
conviction. Bert was named for his father, who worked for 
railroads his entire career, including at Amtrak, from which he 
retired in 1976.
    As long as I have known Bert, he has been passionately 
interested in railroads and Amtrak. Equally as important, Bert 
has been intimately involved for almost every aspect of Amtrak 
for decades. He has been involved with many Amtrak projects, 
the Amtrak shops, Amtrak management, Amtrak labor issues, 
especially Amtrak labor issues. He knows Amtrak, and he knows 
its people--hundreds, if not thousands--its challenges, its 
strengths and weaknesses very, very well.
    Bert is truly honored to have this opportunity. I can 
assure this Committee that he will take on these 
responsibilities with sincere dedication and purpose. He will 
be an excellent leader and director on the Amtrak Board if the 
Senate chooses to confirm him, which I certainly hope it will.
    Bert is a great choice. I look forward to having him on the 
Amtrak Board, and I want to thank you.
    The Chairman. Thank you very much, Senators Kaufman and 
Menendez. Thank you for giving your time to the folks you 
introduced and to us.
    I want to call the first panel of nominees to the witness 
table. That would be Suresh Kumar, nominee to be Director of 
U.S. and Foreign Commercial Service; Philip Coyle, nominee to 
be Associate Director at the Office of Science and Technology 
Policy; and Mr. Scott Quehl, nominated to be Chief Financial 
Officer at the Department of Commerce.
    And I would welcome your opening statements, perhaps 
starting with you, Mr. Coyle. And if you have family members 
with you, we want to see them.

             STATEMENT OF HON. PHILIP E. COYLE III,

                 ASSOCIATE DIRECTOR-DESIGNATE,

            OFFICE OF SCIENCE AND TECHNOLOGY POLICY,

               EXECUTIVE OFFICE OF THE PRESIDENT

    Mr. Coyle. Thank you, Senator Rockefeller.
    My wife, Dr. Martha Krebs, was not able to be here today. 
She had wanted to, but wasn't able to. Martha had the great 
pleasure of working for Senator Nelson, then Representative 
Nelson on the House Science Committee. So our family has a 
kinship with this Committee through those connections.
    Martha and I share a lifetime of service to our country. 
Among other things, Martha is a former Assistant Secretary of 
Energy for Science.
    Chairman Rockefeller, Ranking Member Hutchison, members of 
the Committee, it is a pleasure and an honor to appear before 
you today as President Obama's nominee to be Associate Director 
for National Security and International Affairs in the Office 
of Science and Technology Policy.
    If confirmed, I will consider it an honor to serve the 
President, his science adviser, Dr. John Holdren, and to work 
with you and your colleagues to ensure that our national 
investments in science and technology serve the American people 
to develop science and technology programs that will increase 
America's productivity and drive economic growth, to improve 
the Nation's health, to provide new sources of energy, and to 
protect the environment, and in particular, to safeguard U.S. 
national security to protect our troops and to improve the 
verification of arms control and nonproliferation agreements.
    I was recently asked which aspects of my experience have 
prepared me for the position to which I have been nominated. 
Looking back over my career, I realized that every one of the 
jobs I have held since 1959 has helped to prepare me for the 
position for which I have been nominated.
    If confirmed, I will leverage my 33 years with the Lawrence 
Livermore National Laboratory, from which I retired as Deputy 
to the Director. Additionally, my background includes service 
as Assistant Secretary of Defense and Director of Operational 
Test and Evaluation at the DoD, as Deputy Assistant Secretary, 
Defense Programs at the U.S. Department of Energy, work with 
private industry, and most recently with a nongovernmental 
organization, the World Security Institute.
    If I am confirmed, this would be an opportunity to serve my 
country once again, to contribute to the national security of 
the United States, to help support science and technology for 
America's present needs and future development, and to help 
foster international science and technology collaboration to 
advance U.S. foreign policy objectives.
    We must make every effort to ensure we strengthen America's 
innovation in science and technology. Our Nation is dependent 
on these innovative forces. American military technology is the 
envy of the world, and American research and development 
enterprise is indispensable to our future.
    American private industry has played a key role in 
developing products and services that improve the quality of 
our lives, strengthen our economy, and protect us. Equally 
important are America's colleges and universities, which 
provide essential contributions to basic research and help 
young people understand the power of modern science.
    If confirmed, I will work with Government scientists, 
policymakers, private industry, and educators to help their 
skills and experience--to help apply their skills and 
experience to the many national security challenges our Nation 
faces.
    If confirmed by the Senate, I look forward to working with 
the exceptional national security and international affairs 
teams assembled by President Obama, with the Congress, and 
particularly with the members and staff of this Committee on 
national security challenges and opportunities facing our 
Nation.
    I am grateful for the courtesy shown by your staff over the 
past several weeks, and I look forward to working with you and 
them in the future.
    Mr. Chairman, I would be pleased to take any questions you 
may have.
    [The prepared statement and biographical information of Mr. 
Coyle follows:]

  Prepared Statement of Hon. Philip E. Coyle III, Associate Director-
Designate, Office of Science and Technology Policy, Executive Office of 
                             the President
    Chairman Rockefeller, Ranking Member Hutchinson, it is a pleasure 
and an honor to appear before you today as President Obama's nominee to 
be Associate Director for National Security and International Affairs 
in the Office of Science and Technology Policy.
    If confirmed, I will consider it an honor to serve the President, 
his Science Advisor, Dr. John P. Holdren, and to work with you and your 
colleagues to ensure that our national investments in science and 
technology serve the American people; to develop science and technology 
programs that will increase American productivity and drive economic 
growth; to improve the Nation's health; to provide new sources of 
energy and to protect the environment; and, in particular, to safeguard 
U.S. national security, to protect our troops, and to improve 
verification of arms control and nonproliferation agreements.
    Mr. Chairman, my wife, Dr. Martha Krebs, was not able to be here 
today. Martha had the great pleasure of working for Senator Nelson, 
then Representative Nelson, on the House Science Committee. My wife and 
I share a lifetime of service to our country. Among other things, 
Martha is a former Assistant Secretary of Energy for Science.
    I was recently asked which aspects of my experience have prepared 
me for the position to which I have been nominated. Looking back over 
my career, I realized that every one of the jobs I have held since 1959 
has helped to prepare me for the position for which I have been 
nominated. If confirmed, I will leverage my 33 years with the Lawrence 
Livermore National Laboratory, from which I retired as deputy to the 
Director. Additionally, my background includes service as Assistant 
Secretary and Director Operational Test and Evaluation in the U.S. 
Department of Defense; Deputy Assistant Secretary for Defense Programs, 
U.S. Department of Energy; work with private industry; and most 
recently with a non-governmental organization, the World Security 
Institute. If I am confirmed, this would be an opportunity to serve my 
country once again, to contribute to the national security of the 
United States, to help support science and technology for America's 
present needs and future development, and to help foster international 
science and technology collaboration to advance U.S. foreign-policy 
objectives.
    We must make every effort to ensure we strengthen America's 
innovations in science and technology. Our national security is 
dependent on these innovative forces. American military technology is 
the envy of the world, and America's research and development 
enterprise is indispensable to our future. American private industry 
has played a key role in developing products and services that improve 
the quality of our lives, strengthen our economy, and protect us. 
Equally important are America's colleges and universities, which 
provide essential contributions to basic research and help young people 
understand the power of modern science. If confirmed, I will work with 
government scientists, policymakers, private industry, and educators to 
apply their skills and experience to the many national security 
challenges our Nation faces.
    If confirmed by the Senate, I look forward to working with the 
exceptional national security and international affairs teams assembled 
by President Obama, with the Congress, and particularly with the 
members and staff of this committee on the national security challenges 
and opportunities facing our Nation. I am grateful for the courtesy 
shown by your staff over the past several weeks, and I look forward to 
working with you and them in the future.
    I am pleased to answer any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Philip E. 
Coyle III.
    2. Position to which nominated: Associate Director, National 
Security and International Affairs, Office of Science and Technology 
Policy.
    3. Date of Nomination: October 28, 2009.
    4. Address (List current place of residence and office addresses):

        23 Watercrest Court, Sacramento, CA, 95831. Residence and day-
        to-day office.

    5. Date and Place of Birth: August 30, 1934; Beverly, 
Massachusetts, USA.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Dr. Martha A. Krebs, Executive Director, Energy and 
        Environmental Research Development, Office of Research, 
        University of California at Davis; children: Laurie E. 
        Monserrat (daughter), age 51; Philip E. Coyle, IV (son), age 
        48, James Evans Coyle (son), age 46; Jonathan H. Leidecker 
        (step son), age 39.

    7. List all college and graduate degrees. Provide year and school 
attended.
    Dartmouth College, BA, 1956, MSME, 1957.
    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        2001-present, Senior Advisor, World Security Institute 
        (formerly the Center for Defense Information).

        1994-2001, Director Operational Test and Evaluation, U.S. 
        Department of Defense.

        Consultant, DynCorp Meridian, 1993-1994.

        1981-1993, Laboratory Associate Director, Lawrence Livermore 
        National Laboratory, retired in 1993 (the second time).

        1979-1981, Deputy Assistant Secretary for Defense Programs, 
        U.S. Department of Energy.

        1959-1979, various positions beginning as staff engineer in 
        1959, retired in 1979 (the first time) as Deputy Associate 
        Director for Lasers, Lawrence Livermore National Laboratory.

        1957 to 1959, Teacher, Chadwick School.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        State of California, Governor Schwarzenegger's Base Support and 
        Retention Council, 2004.

        Defense Base Realignment and Closure Commission, 2005, 
        appointed by President George W. Bush.

        The Standing Committee on Biodefense at the U.S. Department of 
        Defense, the National Research Council, 2007-present.

        The Committee on Advanced Spectroscopic Portals, sponsored by 
        DHS, the National Research Council, 2008-2009.

        The Committee on Improving Processes and Policies for the 
        Acquisition and Test of Information Technology in the DOD, the 
        National Research Council, 2008-present.

        The Committee on the Test and Evaluation of Biological Standoff 
        Detection Systems, for the U.S. Army, the National Research 
        Council, 2007-2008.

        The Committee on Criteria for the Management of Los Alamos and 
        Lawrence Livermore National Laboratories, ``Maintaining High 
        Scientific Quality at Los Alamos and Lawrence Livermore 
        National Laboratories,'' for DOE/NNSA, the National Research 
        Council, 2004.

        The Committee on the Review of Testing and Evaluation 
        Methodology for Biological Point Detectors, for the U.S. Army, 
        the National Research Council, 2003-2004.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Senior Advisor, World Security Institute (formerly the Center 
        for Defense Information), 2001-present.

        Consultant, Defense Group Inc. (DGI), 2006.

        Consultant, RAND Corporation, 2005, 2007, and 2008.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap: None.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No, none.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.


------------------------------------------------------------------------

------------------------------------------------------------------------
8/20/09                       Mark Desaulnier                      $400
4/25/09                       DCCC                               $2,000
8/7/08                        Obama for America                    $500
2/14/08                       Tauscher for Congress              $2,000
8/12/07                       Hillary for President              $2,300
6/26/07                       Steve Filson for Assembly          $1,000
10/26/06                      Tauscher for Congress              $2,000
5/15/06                       Steve Filson for Congress          $1,000
4/08/06                       Steve Filson for Congress          $1,000
3/5/06                        Tauscher for Congress                $500
12/3/05                       Friends of Hillary                   $500
10/31/05                      Ellen Tauscher                       $250
9/19/05                       DCCC                               $1,000
10/26/04                      Committee to Reelect Linda           $500
                               Sanchez
9/20/04                       DCCC                               $1,000
8/12/04                       Committee to Reelect Linda           $500
                               Sanchez
5/23/04                       DCCC                               $1,000
3/10/04                       John Kerry for President           $2,000
1/9/04                        Howard Dean                          $250
1/7/04                        Linda Sanchez                        $250
1/3/04                        Tauscher for Congress                $500
12/4/03                       Friends of Hillary                 $1,000
9/30/03                       Howard Dean                          $250
9/26/03                       Linda Sanchez                        $250
9/24/03                       Loretta Sanchez                      $250
6/1/03                        Loretta Sanchez for Congress         $500
4/15/03                       Tauscher for Congress                $500
9/30/02                       Committee to Reelect Loretta         $500
                               Sanchez
9/30/02                       Rush Holt for Congress               $500
5/28/02                       Friends of Carl Levin              $1,000
3/1/02                        Tauscher for Congress                $500
3/1/02                        Rush Holt for Congress
2/4/02                        Committee to Reelect Loretta         $500
                               Sanchez
2/24/02                       Kucinich for Congress                $500
6/24/02                       Loretta Sanchez                      $400
3/8/02                        Ellen Tauscher                       $500
8/20/01                       Friends of Hillary                   $500
3/14/01                       Carl Levin                           $500
5/12/00                       Ellen Tauscher                     $1,000
12/7/99                       Ellen Tauscher                       $500
10/21/99                      Al Gore                            $1,000
10/18/99                      Al Gore                              $500
7/27/99                       Hillary Clinton                      $500
5/5/99                        Al Gore                              $250
------------------------------------------------------------------------


    No offices held nor services rendered to a state or national 
political party or election committee.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.
    In 1997, awarded the Defense Distinguished Service Medal by 
Secretary of Defense William Perry, and in 2001 the Bronze Palm of the 
Defense Distinguished Service Medal by Secretary of Defense William 
Cohen.
    In September 2000, awarded the Allan R. Matthews Award of the 
International Test and Evaluation Association, its highest award, for 
contributions to the management and technology of test and evaluation.
    In March 2001, received the Hollis Award from the National Defense 
Industrial Association for lifelong achievement in defense test and 
evaluation.
    By Aviation Week Magazine, named as one of its Laurels honorees for 
the year 2000, a select group of people recognized for outstanding 
contributions in aerospace.
    In recognition of my years of service to the Laboratory and to the 
University of California, the University named me Laboratory Associate 
Director Emeritus.
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        Contributor to ``Global Biosecurity,'' edited by Peter Katona, 
        Michael D. Intriligator and John P. Sullivan, Routledge, 
        London, expected publication date 2010.

        ``The Proliferation Security Initiative, Background, history, 
        and prospects,'' a commissioned paper for the International 
        Commission on Nuclear Non-proliferation and Disarmament, 
        January 2009.

        ``Missile Defense Malfunction,'' Ethics and International 
        Affairs Journal, Volume 22.1 Spring, 2008, a commissioned paper 
        for the Carnegie Council on Ethics in International Affairs.

        ``Missile Defense and Arms Control, 25 Years Later,'' The 
        Defense Monitor, the Center for Defense Information, March 21, 
        2008, with Victoria Samson; also see various electronic 
        postings on the Center for Defense Information website, 2001 to 
        the present.

        ``The Limits and Liabilities of Missile Defense,'' Current 
        History, November 2006.

        ``Is Missile Defense on Target?'', Arms Control Today, October 
        2003; Viewpoint.

        ``The Truth About Missile Defense: Will Science Make a 
        Difference?'', a review of the American Physical Society report 
        on the scientific feasibility of boost-phase missile defense, 
        for the APS News, a journal of the American Physical Society, 
        October 2003.

        ``Missile Defense in the Bush Administration,'' Arms Control 
        Today, May 2002.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        March 17, 2009, House Committee on Appropriations, Subcommittee 
        on Energy and Water: The Future of the DOE Complex 
        Transformation Program.

        February 25, 2009, House Committee on Armed Services, 
        Subcommittee on Strategic Forces: The Future of Missile Defense 
        Testing.

        April 30, 2008, House Committee on Oversight and Government 
        Reform, Subcommittee on National Security and Foreign Affairs: 
        Oversight of Ballistic Missile Defense, (Part 3).

        April 30, 2008, House Committee on Oversight and Government 
        Reform, Subcommittee on National Security and Foreign Affairs: 
        Oversight of Ballistic Missile Defense, (Part 2).

        December 7, 2007, Senate Democratic Policy Committee: 
        Department of Defense Spending in Iraq.

        June 6, 2007, House Armed Services Committee, Subcommittee on 
        Air and Land Forces: Army Force Protection Programs and 
        Operation Iraqi Freedom and Operation Enduring Freedom, Body 
        Armor.

        January 18, 2007, House Armed Services Committee, Subcommittee 
        on Air and Land Forces: Army Force Protection Programs and 
        Operation Iraqi Freedom and Operation Enduring Freedom, Active 
        Protection Systems.

        August 22, 2002, Commission on the Future of the United States 
        Aerospace Industry.

        June 11, 2002, House Committee on Government Reform and 
        Oversight: Missile Defense Testing.

        July 19, 2001, Senate Committee on Armed Services, Full 
        Committee: Ballistic missile defense policies and programs.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    Among the qualifications I would bring to the position is thirty-
three years experience with the Lawrence Livermore National Laboratory 
in a variety of scientific and leadership positions, and from which I 
retired as Deputy to the Director. I also bring experience as Deputy 
Assistant Secretary for Defense Programs in the Department of Energy, 
and my service from 1994 to 2001 as Assistant Secretary for Test and 
Evaluation (Director, Operational Test and Evaluation) in the 
Department of Defense. It would be an honor to serve in the Office of 
Science and Technology Policy. If I am confirmed, this would be an 
opportunity to serve my country once again, to contribute to the 
national security of the United States, to help support science and 
technology for America's present needs and future development, and to 
help foster international science and technology collaboration to 
advance U.S. foreign-policy objectives.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    With respect to sustaining proper management and accounting 
controls, my responsibilities, if confirmed, would be to assure that 
all activities under my purview at OSTP were managed in accordance with 
applicable laws, regulations, and Congressional guidelines, in 
accordance with the highest professional standards for scientific 
research and technology development, and in accordance with scientific 
and technological standards and practices for careful peer review. My 
experience in managing large organizations includes serving as the 
Deputy Director of the Lawrence Livermore National Laboratory, at the 
time a 10,000 person Laboratory, serving as Assistant Secretary for 
Test and Evaluation (i.e., Director Operational Test and Evaluation) in 
the Department of Defense, and serving as Deputy Assistant Secretary 
for Defense Programs in the Department of Energy.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        1. Developing science and technology programs that will 
        increase American productivity and drive economic growth.

        2. Developing science and technology programs that will improve 
        health, provide new sources of energy, and safeguard the 
        environment.

        3. Developing science and technology programs that will 
        safeguard U.S. national security, protect our troops, and 
        support improved verification of arms control and verification 
        agreements.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    Pension, California State Public Employees Retirement System; 
Pension, University of California Retirement System.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No, none.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Any potential conflicts of interest will be resolved in accordance 
with the terms of an ethics agreement that I have entered into with the 
designated agency ethics official for OSTP and that has been provided 
to this Committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    I have been named as a defendant in several civil suits, but solely 
in my capacity as a member of the 2005 Base Realignment and Closure 
Commission. None of these cases alleged any personal wrong doing, and I 
have played no role in their litigation.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                   resume of hon. philip e. coyle iii
Work Experience Summary
    Philip Coyle is a Senior Advisor to the President of the World 
Security Institute, and to its Center for Defense Information, a 
Washington D.C.-based national security study center. He is a 
recognized expert on U.S. and worldwide military research, development 
and testing, on operational military matters, and on national security 
policy and defense spending.
    As an independent expert, Mr. Coyle has been called upon to testify 
before Congress and to brief Congressional staff on the status of major 
defense acquisition programs and related policy matters.
    In 2005 and 2006, Philip Coyle served on the nine-member Defense 
Base Realignment and Closure Commission (BRAC), appointed by President 
George W. Bush and nominated by House Democratic Leader, Nancy Pelosi. 
The Commission was responsible to determine those U.S. military bases 
and facilities to be closed or realigned beginning in late 2005.
    Mr. Coyle also served on Governor Arnold Schwarzenegger's Base 
Support and Retention Council, from which he resigned to serve on the 
President's BRAC Commission.
    From September 29, 1994, through January 20, 2001, Mr. Coyle was 
Assistant Secretary of Defense and Director, Operational Test and 
Evaluation, in the Department of Defense, and is the longest serving 
Director in the 25 year history of the Office. In this capacity, he was 
the principal advisor to the Secretary of Defense on test and 
evaluation in the DOD.
    At the DOD, Mr. Coyle's responsibilities included stewardship of 
the Major Range and Test Facility Bases of the DOD, including the large 
test ranges and test centers which the DOD operates from Maryland and 
Florida to California and Hawaii.
    As Director, Operational Test and Evaluation, Mr. Coyle had 
responsibility for overseeing the test and evaluation of over 200 major 
defense acquisition systems. This included reporting to the Secretary 
of Defense, and to Congress, on the adequacy of the DOD testing 
programs, and on the results from those testing programs.
    Mr. Coyle has 40 years experience in national security research, 
development, and testing matters. From 1959 to 1979, and again from 
1981 to 1993, Mr. Coyle worked at the Lawrence Livermore National 
Laboratory (LLNL) in Livermore, California. Over those 33 years Mr. 
Coyle worked on a variety of nuclear weapons programs and other high 
technology programs. His experience with nuclear weapons includes 
original engineering design, manufacturing and production, testing, and 
stockpile surveillance and stewardship. Mr. Coyle also served as Deputy 
Associate Director of the Laser Program at LLNL. Mr. Coyle retired from 
the Laboratory in 1993 as Laboratory Associate Director and deputy to 
the Director.
    In recognition of his years of service to the Laboratory and to the 
University of California, the University named Mr. Coyle Laboratory 
Associate Director Emeritus.
    During the Carter Administration, Mr. Coyle served as Principal 
Deputy Assistant Secretary for Defense Programs in the Department of 
Energy (DOE). In this capacity he had oversight responsibility for the 
nuclear weapons research, development, production and testing programs 
of the Department, as well as the DOE programs in arms control, non-
proliferation, and nuclear safeguards and security.
Recent Activities and Memberships
    Currently Mr. Coyle serves on three National Academy of Sciences 
Committees:

  <bullet> The Standing Committee on Biodefense at the U.S. Department 
        of Defense, the National Research Council, 2007 to present.

  <bullet> The Committee on Advanced Spectroscopic Portals, sponsored 
        by DHS, the National Research Council, 2008 to present, and

  <bullet> The Committee on Improving Processes and Policies for the 
        Acquisition and Test of Information Technology in the DOD, the 
        National Research Council, 2008 to present.

    In recent years Mr. Coyle has served on a number of committees and 
studies including:

        Member, the Committee on the Test and Evaluation of Biological 
        Standoff Detection Systems, for the U.S. Army, the National 
        Research Council, 2007-2008.

        Member, ``Nuclear Forensics: Role, State of the Art, Program 
        Needs,'' Joint Working Group of the American Physical Society 
        Panel on Public Affairs and the American Association for the 
        Advancement of Science, 2007-2008.

        Member, the AAAS Nuclear Weapons Complex Assessment Committee, 
        ``United States Nuclear Weapons Program: The Role of the 
        Reliable Replacement Warhead,'' the American Association for 
        the Advancement of Science, 2007.

        Senior Advisor, Wind Tunnel and Propulsion Test Facilities, An 
        Assessment of NASA's Capabilities to Serve National Needs,'' An 
        Update. RAND, 2008.

        Senior Advisor, Wind Tunnel and Propulsion Test Facilities, An 
        Assessment of NASA's Capabilities to Serve National Needs,'' 
        RAND, 2004.

        Senior Advisor, ``Wind Tunnel and Propulsion Test Facilities, 
        Supporting Analyses to an Assessment of NASA's Capabilities to 
        Serve National Needs'' RAND, 2004.

        Member, The Committee on Criteria for the Management of Los 
        Alamos and Lawrence Livermore National Laboratories, 
        ``Maintaining High Scientific Quality at Los Alamos and 
        Lawrence Livermore National Laboratories,'' for DOE/NNSA, the 
        National Research Council, 2004.

        Member, the Committee on the Review of Testing and Evaluation 
        Methodology for Biological Point Detectors, for the U.S. Army, 
        the National Research Council, 2003-2004.
Honors

        Mr. Coyle was awarded the Defense Distinguished Service Medal 
        by Secretary of Defense William Perry, and the Bronze Palm of 
        the Defense Distinguished Service Medal by Secretary of Defense 
        William Cohen.

        In September, 2000, the International Test and Evaluation 
        Association awarded Mr. Coyle the Allan R. Matthews Award, its 
        highest award, for his contributions to the management and 
        technology of test and evaluation.

        In March, 2001, Mr. Coyle received the Hollis Award from the 
        National Defense Industrial Association for his lifelong 
        achievement in defense test and evaluation.

        Aviation Week Magazine named Mr. Coyle as one of its Laurels 
        honorees for the year 2000, a select group of people recognized 
        for outstanding contributions in aerospace.
Education

        Mr. Coyle graduated from Dartmouth College with an MS in 
        Mechanical Engineering (1957) and a BA (1956).
Family

        His wife, Dr. Martha Krebs, was Assistant Secretary of Energy 
        and Director of the Office of Science from 1993 to 2000, and 
        served as deputy director for R&D at the California Energy 
        Commission. They have four grown children, five grandchildren, 
        and one great grandchild, and live in Sacramento, CA.

        June 2009

    The Chairman. Thank you, Mr. Coyle.
    We will have questions, but I would like to turn to Mr. 
Quehl now, and we welcome you, sir.

                STATEMENT OF SCOTT BOYER QUEHL,

             CHIEF FINANCIAL OFFICER-DESIGNATE AND

       ASSISTANT SECRETARY-DESIGNATE FOR ADMINISTRATION,

              UNITED STATES DEPARTMENT OF COMMERCE

    Mr. Quehl. Thank you, Chairman. Chairman Rockefeller----
    The Chairman. Do you have family to introduce?
    Mr. Quehl. I do. Thank you.
    I would like to introduce Valerie Piper, my spouse, and my 
son, Mark Quehl. Valerie is my guiding light with respect to a 
reminder of the importance of public service. She is the 
Executive Director for the Center for Redevelopment Excellence 
at the University of Pennsylvania. She is dedicating her 
energies to the expansion of publicly assisted housing in New 
Orleans. She is an adviser to the Annie E. Casey Foundation and 
to the Chicago Housing Authority.
    My son, Mark, is the center of our collective hearts, 
Valerie and mine, born in raised in Philadelphia, Pennsylvania, 
proudly attending first grade at St. Peter's School. He is 
quite active in the ballet and martial arts and exposes me to 
beatings on a regular basis.
    My mother, Janeen Joy Babler, and stepfather, David Alvin 
Babler, are here. My mother is a professional artist who was 
recognized by Governor Doyle of Wisconsin for her contributions 
to the Wisconsin State quarter design. David has been a father 
figure to me and great friend ever since I have known him.
    Also here today from my family are Frank and Susan Carr. 
Frank has dedicated his career to the Federal Aviation 
Administration.
    The Chairman. Can you imagine what would have happened had 
you not introduced them?
    [Laughter.]
    The Chairman. Please proceed with your statement.
    Mr. Quehl. Thank you, Mr. Chairman.
    Chairman Rockefeller, Ranking Member Hutchison, and 
distinguished members of this Committee, I am honored and I am 
humbled to be with you today as President Obama's nominee to 
serve the United States Department of Commerce as the Chief 
Financial Officer and Assistant Secretary for Administration.
    I would like to thank the members of this Committee and the 
staff for very fine and thought-provoking discussions over the 
last several weeks leading up to this hearing on the 
Department's financial and management priorities. We all share 
a common commitment, it is very clear, to a department that is 
efficient and effective in helping to stimulate economic 
recovery and sustain that recovery over the long term. If 
confirmed, I look forward to open communications with you and 
your staffs in the years ahead.
    I would also wish to thank President Obama and Secretary 
Locke for the confidence they have shown in me for putting 
forward my nomination. I am grateful to the support of Senator 
Kohl of Wisconsin, where I principally grew up, and from 
Senator Casey of Pennsylvania, where I attended graduate 
school, where Valerie and I have raised Mark, and where I have 
lived for the last 11 years.
    Finally, I wish to thank two public servants who have been 
essential to my professional formation. At a very personal 
level, both have shown me that a Chief Financial Officer's 
vision of energy and of rigor and of courage can extend the 
reach beyond general ledgers and budget object classes to make 
Government simply better, better able to help people make the 
most of their own lives.
    First would be former Chief Financial Officer and former 
Mayor of the District of Columbia Anthony Williams. The other 
would be former Finance Director of the City of Philadelphia, 
former Controller of the United States, and presently Senior 
Adviser to the President, Vice President, and the OMB Director, 
G. Edward DeSeve.
    My job, if confirmed, will be to ensure that the 
Department's mission, its goals, and its budgets are connected 
to measurable results that matter; to ensure that the 
Department makes best use of its human capital and to manage 
its risks prudently; to procure goods and services cost-
effectively and fairly, particularly large mission-critical 
capital assets whose success will be critical not only 
programmatic outcomes, but the department's budget stability; 
to facilitate an integrated department, which applies taxpayer 
resources to achieve the public policy aims for which they were 
intended while respecting appropriately distinctions in program 
goals and even bureau cultures; to build upon the department's 
well-deserved reputation for clean audit opinions, for solid 
internal controls, and for faithful financial reporting; to 
effectively plan, budget, and manage the department's 860-plus 
facilities and other assets and secure them from those who 
would do our country harm; to invest soundly and efficiently 
the resources entrusted to the department for the 
implementation of the American Recovery and Reinvestment Act.
    I know the positive impact a well-executed Government 
administration in such areas--the impact that these could have, 
from my service as a Peace Corps volunteer, from my service at 
the World Bank, from my service in the Metropolitan Police 
Department of the District of Columbia as Chief Financial 
Officer, from my service in the Office of Federal Financial 
Management for the United States Office of Management and 
Budget, and to the advice and support I have given to 
governments in 16 states and 4 countries in helping them meet 
their financial and operational challenges.
    If confirmed, I will work in a spirit of partnership and 
client service that has been articulated by Secretary Gary 
Locke with the department's policy, program, and operations 
leadership, seeking the counsel and implementation support from 
the department's strong corps of career service employees.
    If confirmed, I will view the Inspector General and the 
Government Accountability Office as sources of expertise to be 
consulted frequently. I will draw from and contribute to the 
formulation of best management practices within the Federal 
Government through interagency councils, and in close 
consultation with the Office of Management and Budget.
    Mr. Chairman, I thank you for your consideration of my 
nomination and for the opportunity to address this Committee 
today and would welcome further questions.
    [The prepared statement and biographical information of Mr. 
Quehl follows:]

   Prepared Statement of Scott Boyer Quehl, Chief Financial Officer-
Designate and Assistant Secretary-Designate for Administration, United 
                     States Department of Commerce
    Chairman Rockefeller, Ranking Member Hutchison, distinguished 
members of the Committee, I am honored and humbled to come before you 
today as President Obama's nominee to be Chief Financial Officer and 
Assistant Secretary for Administration of the United States Department 
of Commerce. I want to thank the Members of this Committee and their 
staff for our productive discussions on the Department's finances and 
operations in the weeks leading up to this hearing. We all share a 
commitment to a Department that is efficient and effective, as it 
promotes accelerated economic recovery and sustainable growth through 
trade promotion and commercial diplomacy, innovation and intellectual 
property, and the science and infrastructure that businesses will rely 
upon to develop a vibrant clean energy industry. If confirmed, I look 
forward to open communications with all of you as we work together to 
translate this commitment into results.
    I also thank President Obama and Secretary Locke for the confidence 
they have shown in me by putting forward my nomination to serve our 
country at such a critical time. I am grateful for the support from 
Senator Kohl of Wisconsin. Monroe and Green Bay, Wisconsin provided 
loving communities for the families which raised me: the Quehls, the 
Sheltons, the Boyers, and the Bablers. It was the faculty of Monroe's 
public schools who made a student out of me, and the professors of 
Lawrence University who instilled a habit of mind for challenging 
assumptions and critical thinking.
    I appreciate the statement of support from Senator Casey of 
Pennsylvania. Pennsylvania has been the birthplace of my son; the place 
where I received my advanced education at the University of 
Pennsylvania's Fels Institute of Government; and a place where, for a 
decade, my partners and I helped governments in 16 states pull 
themselves back from the brink of financial collapse, head off pending 
financial and operational problems before they resulted in crisis, or 
improve very good management practices into great ones. Finally, I 
thank two public servants who have been essential in my professional 
formation--who have shown me how a chief financial officer of vision, 
of energy, and of courage can extend beyond ledgers and budget object 
classes to make government better able to help people make the most of 
their own lives: CFO, then Mayor, of the District of Columbia Anthony 
Williams; and former Finance Director of Philadelphia, Controller of 
the United States, and present Senior Advisor to the President, Vice 
President, and OMB Director, G. Edward DeSeve.
    I would like to introduce my wife, Valerie Gregory Piper, and son, 
Mark Gregory Babler Quehl. Valerie, Executive Director for the 
University of Pennsylvania's Center for Urban Redevelopment Excellence, 
devotes herself to the expansion of publicly-assisted housing in New 
Orleans and serves as advisor to the Annie E. Casey Foundation and the 
Chicago Housing Authority. Mark, the center of Valerie and my 
collective heart, attends the first grade at St. Peter's School in 
Philadelphia, and helps us operate our farm in Delaware County, New 
York. Also here today are my mother, Janeen Joy Babler--an artist 
recognized by the Governor of Wisconsin for her contributions to the 
design of the state's quarter--and my step-father and great friend, 
David Alvin Babler.
    My job, if confirmed, will be to carry out such responsibilities as 
the following:

  <bullet> Ensuring the Department's mission, goals, and budgets are 
        connected to measurable results that matter.

  <bullet> Ensuring the Department makes best use of its human capital, 
        providing the management and tools to improve productivity and 
        results.

  <bullet> Procuring goods and services cost-effectively and fairly--
        particularly large, mission-critical capital assets whose 
        success or failure have material bearing on programmatic 
        success and Department budget stability.

  <bullet> Managing risk prudently.

  <bullet> Facilitating an integrated Department which applies taxpayer 
        resources to achieve the policy results intended while 
        respecting appropriately distinct goals, even cultures, of 
        bureaus and programs.

  <bullet> Building upon the Department's well-deserved reputation for 
        clean audit opinions, internal controls, and faithful financial 
        reporting.

  <bullet> Effectively planning, budgeting, and managing the 
        Department's 860 facilities and other assets, and secure them 
        from those who would do our country harm.

  <bullet> Investing--soundly and effectively--the resources entrusted 
        to the Department for implementation of the America Recovery 
        and Reinvestment Act.

    I know the positive impact well-executed government administration 
in such areas can have, through my experiences as a Peace Corps 
Volunteer, at the World Bank, with the Metropolitan Police Department 
of the District of Columbia, with the Office of Federal Financial 
Management of the U.S. Office of Management and Budget, and while 
helping governments throughout the country meet their challenges.
    If confirmed, I will work in a spirit of partnership and client 
service that has been articulated by Secretary Gary Locke with the 
Department's policy, program, and operations leadership, seeking 
counsel and implementation support from the Department's strong corps 
of career service employees. I will view the Inspector General and the 
Government Accountability Office as sources of expertise to be 
consulted frequently. If confirmed, I will draw from, and contribute 
to, the formulation of best practices through the Federal CFO Council 
and other inter-agency councils, and through working closely with the 
Office of Management and Budget. And I will seek open dialogue with 
this Committee and other Members of Congress. Mr. Chairman, I thank you 
for your consideration of my nomination and for the opportunity to 
address any questions that you and your colleagues might have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Scott Boyer 
Quehl.
    2. Position to which nominated: Chief Financial Officer/Assistant 
Secretary for Administration, Department of Commerce.
    3. Date of Nomination: October 16, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: Public Resources Advisory Group, 117 Gayley Street, 
        Suite 200, Media, PA 19063.

    5. Date and Place of Birth: February 9, 1966; Springfield, Ohio.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

    Wife: Valerie Gregory Piper, Executive Director, Center for Urban 
Development Excellence, University of Pennsylvania and President, Piper 
Advisory Services; son: Mark Gregory Babler Quehl, age 7.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Lawrence University, Appleton, WI. Bachelor of Arts in 
        Political Science and History, 1984-1988.

        University of Pennsylvania, Fels Institute of Government, 
        Philadelphia, PA. Master's of Government Administration, 1991-
        1993.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Public Resources Advisory Group, Philadelphia, PA, 2009 to 
        Present. Senior Managing Director. Leading Strategic Advisory 
        Group, offering operating and capital budget, management, 
        infrastructure finance, and debt advisory services to state and 
        local governments.

        Quehl Advisors/Parnassus Advisors, LLC, Philadelphia, PA, 2008-
        2009. President. Provided management and financial advice to 
        the City of Camden, New Jersey to analyze and recommend 
        improvements to the City's employee benefits, insurance, and 
        related procurement, information technology, and human resource 
        management practices. Project sponsored by the Brookings 
        Institution and supervised by the State of New Jersey's 
        Treasury Department. On pro bono basis, provided advice to the 
        City of Philadelphia on strategy to contain growth of Police 
        Department overtime costs, and to the Fels Institute of 
        Government at the University of Pennsylvania on expanding its 
        consulting services to local and state governments.

        Mark's Good Apples, Bloomville, NY, 2008 to 9/30/09, President. 
        Developing locally grown produce to promote quality of 
        nutrition and life in Western Catskills.

        JPMorgan Securities, Inc., New York, NY, 2007-2008. Managing 
        Director, Head of Tax-Exempt Capital Markets Mid-Atlantic 
        Group/CoHead Infrastructure Advisory Group. Mobilized JPMorgan 
        business units to expand government investment banking services 
        in Mid-Atlantic, including the District of Columbia's 2008 
        conversion and remarketing of $185 million Variable Rate Demand 
        Bonds. Co-Head of Infrastructure Advisory Group, with focus on 
        public-private partnerships and knowledge management system 
        development. Member of JPMorgan's Tax Exempt Capital Markets 
        Operating Committee.

        Public Financial Management, Inc. (``PFM''), Philadelphia, PA, 
        1997-2007. Managing Director. Led in emergence of PFM's 
        Strategic Consulting Group, connecting city and county policy 
        priorities to financial strategy and improved budgeting, labor 
        relations/personnel management, privatization, procurement, 
        technology, revenue enhancement, cost containment, 
        organizational restructuring, service delivery, performance 
        metrics, credit ratings, and/or debt management in 14 states. 
        Advisor to Metro Louisville-Jefferson County, KY; Minneapolis, 
        MN; Fulton County and Atlanta, GA; Austin, TX; Oakland and Long 
        Beach, CA; Shelby County, Memphis, and Chattanooga, TN; Memphis 
        Light, Gas & Water, Providence, RI; the District of Columbia; 
        Jackson, MS; Springfield, MA; Nassau and Erie Counties, NY; New 
        Orleans, LA; Newark, East Orange, and Camden, NJ; South Jersey 
        Port Corporation, Philadelphia Gas Works, and New Haven and 
        Bridgeport, CT.

        Metropolitan Police Department, Washington, D.C., 1997-1998. 
        Chief Financial Officer. Took a half-year leave of absence from 
        PFM to serve as acting, then full-time, Chief Financial Officer 
        of the District of Columbia's Metropolitan Police Department 
        during a period of crisis, launching initiatives to cut 
        overtime, improve technology, privatize the fleet, tighten 
        internal controls, realign staff, and produce a $250 million 
        operating and capital budget deemed to be a model for other 
        agencies to follow.

        Executive Office of the President of the United States, Office 
        of Management and Budget, Washington, D.C., 1995-1997. Special 
        Assistant to Controller, Office of Federal Financial 
        Management. Co-authored OMB Circular A-11, Part 3: Capital 
        Programming Guide, establishing parameters for Federal capital 
        project planning and budgeting. Focused on the District of 
        Columbia's financial recovery, including the Federal/District 
        agreement to realign financial and service responsibilities and 
        the District's access to capital markets. Also supported: 
        integrated Federal financial information systems and uniform 
        accounting standards, collaborating with department chief 
        financial officers, per the Federal Financial Management 
        Improvement Act, the CFO's Act, and Joint Financial Management 
        Improvement Program; the integration of performance metrics and 
        strategic planning with budgeting and accounting per the 
        Government Performance and Results Act; and development of 
        consolidated Federal financial statements under the Government 
        Management Reform Act.

        The World Bank, Washington, D.C., 1992-1995. Country Officer, 
        Dominican Republic and Consultant. Following engagement as 
        intern and then short-term consultant in 1992, engaged as long-
        term consultant to serve as Country Officer for the Dominican 
        Republic to support the Country Assistance Strategy, co-lead 
        the development of the Second Basic Education Development 
        Project. Also advised Colombia and Bolivia on state and local 
        government financial management.

        Peace Corps, Sabanagrande, Honduras, 1989-1991. Volunteer. Led 
        health initiatives with Social Welfare Department and worked 
        with community leaders to develop the library Biblioteca Juan 
        Angel Nunez Aguilar.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.
    Described Above.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Public Resources Advisory Group, Philadelphia, PA, 2009 to 9/
        30/09, Senior Managing Director.

        Quehl Advisors/Parnassus Advisors, LLC, Philadelphia, PA, 2008-
        present, President.

                Advisor to City of Camden, New Jersey, under 
                supervision of New Jersey Treasury Department and 
                sponsorship of the Brookings Institution.

                Advisor for the Executive Director of the Fels 
                Institute of Government, University of Pennsylvania.

                Advisor to the Deputy Mayor for Public Safety and 
                Managing Director, working in collaboration with the 
                Office of the Commissioner, on Police Department 
                overtime cost containment.

        Mark's Good Apples, Bloomville, NY, 2008 to Present, Owner.

        JPMorgan Securities, Inc., New York, NY, 2007-2008. Managing 
        Director, Head of Tax-Exempt Capital Markets Mid-Atlantic 
        Group/Co-Head Infrastructure Advisory Group.

        Public Financial Management, Inc. (``PFM''), Philadelphia, PA, 
        1997-2008, Managing Director.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Philadelphia Racquet Club, 2008-present.

        St. Peter's Episcopal Church, 2006-present.

        Old First Reform Church, 2004-2005.

        National Court Tennis Association, 2008-present.

        Philadelphia Sports Club, 2002-2007.

    To the best of my knowledge, none of these organizations restricts 
membership on the basis of sex, race, color, religion, national origin, 
age, or handicap.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period: None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        In 1998, the Acting Chief of Police of the Metropolitan Police 
        Department of the District of Columbia, Sonya Proctor, 
        commemorated the quality and rigor of my leadership in the 
        Department, during its transformation through a period of 
        crisis.

        In 1991, upon completion of my service as a United States Peace 
        Corps Volunteer, the members of the community of Sabanagrande, 
        Honduras who worked with me to develop the Bibloteca (Library) 
        Juan Angel Nunez Aguilar awarded a certificate of merit for my 
        service.

        In 1991, the Fels Institute of Government of the University of 
        Pennsylvania awarded to me a scholarship to pursue a Master's 
        in Government Administration.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
Books, Articles, Columns, Publications

        Co-authored OMB Circular A-11, Part 3. Capital Programming 
        Guide, Executive Office of the President of the United States, 
        Office of Management and Budget, 1997.

        Co-authored ``Capital Programming for Results: A Framework for 
        Federal Government Agencies,'' Government Finance Review, 
        February 1998.

        Co-authored ``The Federal Budget: Connecting Resources to 
        Results,'' Government Finance Review, August 1996.

        Co-Authored ``Colombia: Toward Increased Efficiency and Equity 
        in the Health Sector--Can Decentralization Help?'' 
        International Bank for Reconstruction and Development (``World 
        Bank''), Report No. 11933-CO, March 1994.

        Authored ``The Bottom Line. . .and Beyond: Financial Plans 
        Guided Philadelphia and New Haven Recovery", Brookings Review, 
        Summer 2000.
Speeches

        Metropolitan Governance Series, Credit Ratings of Cities. New 
        Haven, CT: An Approach to Sustained Recovery, International 
        Bank for Reconstruction and Development (``World Bank''), May 
        21, 2002.

        Infrastructure and Capital Budgeting, Fels Institute of 
        Government, University of Pennsylvania, Fall 2007.

        Address on Lessons Learned to American Road and Transportation 
        Builders Association, 20th Annual Public Private Ventures 
        Transportation Conference, September 15, 2008.

        Beyond the Bottom Line: Financial Planning and Local Government 
        Financial Recovery, Government Finance Officers Association 
        Annual Conference, June 2001.

        Tools for Financial Managers in Promoting Public Safety, 
        International City and County Manager's Association 92'' Annual 
        Conference in San Antonio, June 2006.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony: Not Applicable.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have worked with and for some of the country's most talented 
Federal and local government financial managers--financial managers who 
not only balance budgets, establish strong systems, produce transparent 
reporting, and strengthen internal controls, but also take a ``broad 
shouldered'' view of the role of chief financial officer in applying 
the levers of financial management and internal administrative 
efficiency to drive better program results. I have served Anthony 
Williams, as Chief Financial Officer, later Mayor, of the District of 
Columbia, and G. Edward DeSeve, Controller of the Office of Federal 
Financial Management and one-time Finance Director of the City of 
Philadelphia--two exceptional financial managers cut from this stamp, 
whose approach has shaped mine.
    As Governor of the State of Washington, Secretary Locke led a 
successful results-based budget process to eliminate a projected $2 
billion projected deficit--about 10 percent of the State's biennial 
budget--by identifying efficiencies in program design and 
administration, and defining desired program results and prioritizing 
these programs within available resources. As performance expectations 
continue to rise, budgets tighten, and difficult decisions have to be 
made, I anticipate bringing to the Secretary's service both my 
experience at the U.S. Office of Management and Budget and expertise 
working with elected and appointed government officials in 14 states to 
meet their financial and management challenges, while a Managing 
Director at Public Financial Management, JPMorgan, and Public Resources 
Advisory Group. This experience includes tying operating and capital 
budgets to multi-year plans for management transformation and financial 
stability, the use of competitive contracting/privatization/public-
private and public-public partnerships to contain costs, control risk, 
and improve service delivery, overtime and employee benefits cost 
containment, labor negotiations strategy, government revenue 
enhancement, use of information technology and procurement reform to 
improve productivity and/or enhance savings, credit rating enhancement 
strategy, and public safety efficiency improvements.
    At the request of then-Chief Financial Officer, later Mayor, 
Anthony Williams, and in coordination with the District of Columbia's 
Financial Control Board, I served as Chief Financial Officer of the 
4,500+ FTE District of Columbia's Metropolitan Police Department during 
a period of crisis, launching initiatives to cut overtime, tie 
technology improvements to operational improvement priorities and sound 
capital programming principals developed during my service with the 
Federal Government, privatize the fleet, tighten internal controls, 
realigning procurement and performance evaluation staff, strengthen 
recruiting for the Department's budget and financial management 
leadership functions, and produce a budget of about $240 million, tied 
to the Department's mission and performance objectives, deemed by the 
District Government's Budget Director to be a model for other agencies 
to follow.
    For nearly 10 years, 7 as a partner, at Public Financial 
Management, I led in the development of the Strategic Advisory practice 
from a team of 3 to 25 operating in 14 states, integrating this 
practice with over 50 partners in 26 offices in undertaking the Firm's 
recruiting, training, retention, performance evaluation, technology 
development, strategic and annual business planning, and 
competitiveness functions.
    As a Managing Director and Co-Head of the Infrastructure Advisory 
Group at JPMorgan Securities, Inc. I served on the Tax-Exempt Capital 
Markets Operating Committee, led in development of knowledge management 
tools to strengthen global infrastructure advisory and finance 
operations.
    At the World Bank, my first work out of graduate school, my role as 
Country Officer of the Dominican Republic included coordination with 
sector and Division managers and specialists on the formulation of the 
Country Assistance strategy, monitoring program implementation, and co-
managing formulation of nation-wide education reform initiative, the 
Second Basic Education Project, working with the Country's Central Bank 
and Secretary of Education.
    In each of these organizations, my management approach has been 
rooted in combing individual initiative, commitment to implementing 
best practices, open communication with leadership, colleagues, and 
staff, skill at building consensus and reaching within organizations 
and to outside partners to achieve results, and insistence at 
performance--beginning with my own. I intend to continue this approach 
at the Department of Commerce.
    Should I be confirmed, to serve in this position would be, for me, 
an honor of a lifetime--an opportunity to serve my country at a time of 
need, to apply all of my energy, my commitment, and my experience at 
government financial and management transformation to a Department with 
a pivotal mission and many strengths, of which more is, and will 
continue to be, asked and expected, whatever the budget climate. My 
family and I are thrilled that President Obama, Secretary Locke, and--
if confirmed--the Congress would provide me with this remarkable chance 
to serve, to challenge myself, and catalyze others to join in doing the 
country's work through the Department of Commerce, with ever-greater 
effectiveness and efficiency.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    My responsibilities, if confirmed, are to ensure that the 
Department of Commerce has proper management and accounting controls to 
achieve these programmatic goals while also serving as advisor and 
problem solver for Secretary Locke, Deputy Secretary Hightower, and 
program Assistant Secretaries and Administrators--to overcome obstacles 
and achieve better programmatic outcomes, while ensuring the prudent 
and efficient use of taxpayer resources. Together, we will work to make 
the Department of Commerce a model department for effectiveness and 
innovation.
    Every organization committed to excellence continuously reviews and 
seeks to improve how it manages its financial and human resources, the 
integrity of its controls, the transparency of its reporting--and the 
application of all of these to improve program performance. Should I be 
confirmed, I will serve as a catalyst for action in these areas, 
mobilizing resources within the Department and with partners across the 
Federal Government. I will bring respect for the Department's career 
staff, and constructively challenge them to provide their best ideas 
and energy for improvement. I will collaborate with colleagues on the 
Federal Chief Financial Officer's Council, other inter-departmental 
organizations, and work closely with the Office of Management and 
Budget, and the information technology procurement, human resource 
management, and performance management resources it provides.
    If confirmed, I will closely review Auditor management letters and 
coordinate their recommended improvements. My experience in the Office 
of Federal Financial Management at OMB leads me to see the Office of 
the Inspector General and the GAO as sources of expertise to be 
consulted up-front, as financial control and administrative efficiency 
initiatives are being formulated--even as they maintain their arms-
length objectivity. I will regularly communicate with the Inspector 
General and Government Accountability Office for their expertise and 
views, as well as Members and staff of this Committee.
    As described in greater detail in response to Question A.18 above, 
I have served in management roles a several organizations throughout my 
career including as a Senior Managing Director at the Public Resources 
Advisory Group, Managing Director at JPMorgan Securities, Managing 
Director at PMF, Inc, and CFO of the Metropolitan Police Department in 
Washington, DC.
    20.What do you believe to be the top three challenges facing the 
department/agency, and why?
    The President's management agenda, as set forth the President's 
FY2010 Budget, is consistent with my understanding of the top financial 
and operational challenges facing the Department of Commerce. Three 
such challenges are:

  <bullet> Integrating strategic planning, budgeting, and accounting to 
        connect the Department's resources to clear results, and 
        aligning the Department's resources accordingly--applying 
        performance metrics, analysis, and program prioritization to 
        identify which programs can be sustained, which merit increased 
        investment, and which should be reduced, consolidated, 
        reinvented, or eliminated.

    The objectives of the Department's 14 Agencies are wide-ranging. As 
        demands grow and the Administration's commitment to moving 
        toward a balanced budget makes resources increasingly dear, we 
        can expect redoubled emphasis upon defining what success looks 
        like, how results can be achieved most efficiently, and which 
        programs take greatest priority--within the vision of the 
        President and the Secretary for results to be achieved and 
        resources to be allocated.

  <bullet> Breaking down programmatic/management silos, such that 
        Federal programs among various Departments with similar 
        programmatic goals and intended impacts in the same 
        geographical area can be efficiently coordinated, in 
        Washington, among Federal regional offices, and with state and 
        local government, industry association, and other partners. For 
        example, the Economic Development Administration of the 
        Department of Commerce, the Department of Housing and Urban 
        Development, and the Department of Education may each have 
        programs intended to promote economic opportunity and well-
        being in a certain geographic area--planning, implementation, 
        monitoring, and accounting of these programs between Federal 
        Departments and with government, business, and non-profit 
        partners should take best advantage of the respective strengths 
        of each organization, not present barriers that absorb scarce 
        resources, muddy transparency, and diminish impact on the 
        ground. The inter-departmental CFO's Council will provide an 
        excellent platform for developing such coordination efforts, as 
        will close coordination with the Office of Management & Budget, 
        while constructive interaction with the Inspector General and 
        others will maintain, and strengthen, financial integrity.

  <bullet> Workforce projections show that over half of the Federal 
        workforce will be eligible to retire over the next 8 years. 
        This presents a remarkable management challenge, as well as an 
        opportunity. The Department will have to reconsider how it 
        recruits, trains, motivates, and promotes the productivity of 
        its most important resource--its people. With budgets 
        constrained and performance expectations high, Human Capital 
        management will have to reach beyond simply seeking more 
        efficient ways of doing the same things as before--instead 
        seeing the challenge as an opportunity for transformation--
        tying human resource goals to fundamental improvements in how 
        it applies information technology, how it procures services and 
        goods, and how it configures its organization, in light of 
        program goals.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    The Federal Government's TSP continues to manage my 401K mutual 
fund associated with my service from 1995 through 1997, as well as, I 
believe, those of my spouse from her Federal service. My 2008 
contributions to my 401K account continue to be managed by JPMorgan. In 
2008, I transferred 401K mutual fund accounts accumulated from 1997 
through 2007 during service with Public Financial Management, Inc. to 
management within a consolidated Vanguard tax-deferred account, 
allocating among a set of equity and bond mutual funds to meet 
diversity objectives.
    Vested in my name are JPMorgan shares; I will be eligible to 
liquidate up to approximately $[xxx] of these shares on January 25, 
2010, and approximately $[xxx] on January 25, 2011. These shares were 
determined as part of my Employment Agreement with JPMorgan upon 
joining the firm in 2007, and were vested as part of my separation 
agreement with the firm in 2008.
    My spouse and I jointly own and manage a farm doing business as 
Mark's Good Apples. The business is not an independent legal entity and 
I do not hold a formal position. In accordance with the terms of the 
ethics agreement that I have entered into with the Department of 
Commerce's designated agency ethics official, I will continue to have a 
financial interest in the business, but, upon appointment, I will not 
manage it or provide services to it that are a material factor in the 
production of earned income. My spouse will manage the business with 
assistance, if necessary, by hiring local farmers, other contractors 
and/or employees. I will receive only passive investment income from 
the business.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department of Commerce's designated agency ethics 
official and that has been provided to this Committee. I am not aware 
of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department of Commerce's designated agency ethics 
official and that has been provided to this Committee. I am not aware 
of any other potential conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    I have taken no actions to influence legislation. As described in 
response to questions A.8 and A.19 above, I have consulted on behalf of 
various state and local government entities on matters related to 
financial management.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Any potential conflicts of interest will be resolved in accordance 
with the terms of an ethics agreement that I have entered into with the 
Department of Commerce's designated agency ethics official and that has 
been provided to this Committee.
                            c. legal matters
    1 . Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    Yes. On September 8, 2004, I brought a small claims suit in the 
Delhi Village Court of Delhi, NY against a contractor to reimburse me 
for advance payments I made associated with the contractor's work on my 
farmhouse windows, which I considered to be shoddy and incomplete. On 
September 21, 2004, the Judge ordered the contractor to repay to me 
approximately $1,600, and the matter was closed.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    I am aware of no such information.
                     d. relationship with committee
    I. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                         resume of scott quehl
Professional Experience
    2009--Public Resources Advisory Group, Philadelphia, PA. Senior 
Managing Director. Leading Strategic Advisory Group, with budget, 
management, infrastructure, and debt advisory services to governments.

    2007-2008--JPMorgan Securities, Inc., New York, NY. Managing 
Director, Head of Tax-Exempt Capital Markets Mid-Atlantic Group/Co-Head 
Infrastructure Advisory Group. Mobilized JPMorgan business units to 
expand government investment banking services in Mid-Atlantic, 
including the District of Columbia's 2008 conversion and remarketing of 
$185 million Variable Rate Demand Bonds. Co-Head of Infrastructure 
Advisory Group, with focus on public-private partnerships and knowledge 
management system development. Member of JPMorgan's Tax Exempt Capital 
Markets Operating Committee.

    1997-2007--Public Financial Management, Inc. (``PFM''), 
Philadelphia, PA. Managing Director. Led in emergence of PFM's 
Strategic Consulting Group, connecting city and county policy 
priorities to financial strategy and improved budgeting, labor 
relations/personnel management, privatization, procurement, technology, 
revenue enhancement, cost containment, organizational restructuring, 
service delivery, performance metrics, credit ratings, and/or debt 
management in 14 states. Advisor to the District of Columbia; Metro 
Louisville, KY; Minneapolis, MN; Fulton County, GA; Austin, TX; Oakland 
and Long Beach, CA; Memphis and Shelby County, TN; Providence, RI; 
Jackson, MS; Nassau County, NY; New Orleans, LA; Newark, East Orange, 
and Camden, NJ; and New Haven, CT.

    1997-1998--Metropolitan Police Department, Washington, DC. Chief 
Financial Officer. Took a half-year leave of absence from PFM to serve 
as acting, then full-time, Chief Financial Officer of the District of 
Columbia's Metropolitan Police Department during a period of crisis, 
launching initiatives to cut overtime, improve technology, privatize 
the fleet, tighten internal controls, realign staff, and produce a $250 
million operating and capital budget deemed to be a model for other 
agencies to follow.

    1995-1997--Executive Office of the President of the United States, 
Office of Management and Budget, Washington, D.C. Special Assistant to 
Controller, Office of Federal Financial Management. Co-authored OMB 
Circular A-11, Part 3: Capital Programming Guide, establishing 
parameters for Federal capital project planning and budgeting. Focused 
on the District of Columbia's financial recovery, including the 
Federal/District agreement to realign financial and service 
responsibilities and the District's access to capital markets. Also 
supported: integrated Federal financial information systems and uniform 
accounting standards, collaborating with department chief financial 
officers, per the Federal Financial Management Improvement Act, the 
CFO's Act, and Joint Financial Management Improvement Program; the 
integration of performance metrics and strategic planning with 
budgeting and accounting per the Government Performance and Results 
Act; and development of consolidated Federal financial statements under 
the Government Management Reform Act.

    1993-1995--The World Bank, Washington, D.C. Country Officer, 
Dominican Republic and Consultant. Executed Country Assistance 
Strategy; advisor to Colombia and Bolivia on government financial 
management.

    1989-1991--Peace Corps, Sabanagrande, Honduras. Volunteer. Led 
health initiatives. Developed a library.
Education and Licenses
    1993--University of Pennsylvania, Philadelphia, PA. Master of 
Government Administration.

    1988--Lawrence University, Appleton, WI. Bachelor of Arts in 
Political Science and History.

    2008--FINRA NASD Series 24, 63, 7.
References
    Dan Tangherlini, Assistant Secretary for Management, Chief 
Financial Officer and Chief Performance Officer, U.S. Department of the 
Treasury, Obama Administration, Former Chief Administrative Officer of 
the District of Columbia.

    G. Edward DeSeve, Senior Advisor to the President for Recovery and 
Reinvestment, Obama Administration, Former Controller and Acting Deputy 
Director for Management, Office of Management and Budget.

    Michael Fitzpatrick, Associate Administrator, Office of Information 
and Regulatory Police, Office of Management and Budget, Executive 
Office of the President, Obama Administration.

    John A. Koskinen, Chairman of the Board/Director, Freddie Mac, 
Former Deputy Director for Management, Office of Management & Budget, 
Executive Office of the President.

    Jane Garvey, Former Administrator, Federal Aviation Administration 
and Deputy Administrator, Federal Highway Administration, U.S. 
Department of Transportation, Executive Director, JPMorgan Securities, 
Inc.

    Anthony Williams, Former Mayor and Chief Financial Officer of the 
District of Columbia, Former Chief Financial Officer, U.S. Department 
of Agriculture.

    Jerry Abramson, Mayor, Metropolitan Government of Louisville-
Jefferson County, Kentucky.

    John DeStefano, Mayor, City of New Haven, Connecticut.

    David Cicilini, Mayor, City of Providence, Rhode Island.

    Dr. Camille Cates-Barnett, Managing Director of the City of 
Philadelphia, Pennsylvania, Former City Manager of Austin, Texas and 
Chief Financial Officer of Houston, Texas.

    Dr. Carol O'Cleireacain, Former Finance Director and Budget 
Commissioner, City of New York, Deputy Treasurer of New Jersey under 
Governor Jon Corzine, Visiting Senior Fellow, Brookings Institution.

    Maria Cino, President and CEO, Republican National Convention, 
2008.

    Gene Saffold, Chief Financial Officer, City of Chicago, Illinois, 
Former Managing Director and Head of Public Finance Investment Banking, 
JPMorgan Securities, Inc.

    Larry Hayes, Secretary of the Cabinet, Office of the Governor of 
Kentucky, Former Managing Director/Chief Financial Officer, 
Metropolitan Louisville-Jefferson County, Kentucky.

    Ned Regan, Former Comptroller, State of New York.

    Jim Huntzicker, Chief Administrative Officer and Chief Financial 
Officer, Shelby County, Tennessee.

    Charles Ramsey, Police Commissioner, City of Philadelphia, Former 
Chief of Police, District of Columbia.

    Robert O'Neill, Executive Director, International City/County 
Management Association, Washington, D.C.

    Laura Doud, City Auditor, City of Long Beach, California.

    Rudy Garza, Assistant Director of Finance, City of Austin, Texas.

    Art Gianelli, Chief Financial Officer, Nassau County Healthcare 
Corporation, Former Deputy County Executive and Director of Finance for 
County Executive Thomas Suozzi, Nassau County, New York.

    Michelle O'Brien, Senior Director, Fitch Ratings, Chicago, 
Illinois.

    Eric Rockhold, Managing Director, JPMorgan Securities, Inc., 
Chicago, Illinois.

    Janice Mazyck, Managing Director, The PFM Group, Los Angeles, 
California.

    The Chairman. Thank you, Mr. Quehl.
    Actually, my mind wandered just for a moment as you were 
giving your opening statement because I was thinking what Mark 
would have done to you had you not introduced him. I mean, you 
would have been in quarters on the Senate Commerce Committee 
floor.
    Mr. Quehl. Senator, for the rest of my life, I will remain 
grateful.
    [Laughter.]
    The Chairman. All right. And whole.
    Mr. Kumar, we welcome your statement, sir.

        STATEMENT OF SURESH KUMAR, ASSISTANT SECRETARY-
          DESIGNATE FOR TRADE PROMOTION AND DIRECTOR 
 GENERAL, U.S. AND FOREIGN COMMERCIAL SERVICE, U.S. DEPARTMENT 
                          OF COMMERCE

    Mr. Kumar. Thank you, Chairman.
    Thank you, Chairman Rockefeller, Ranking Member Hutchison, 
and distinguished members of the Committee.
    I am honored and humbled to come before you today as 
President Obama's nominee to be the Assistant Secretary of 
Commerce for Trade Promotion and Director General of the United 
States Foreign Commercial Service. I want to thank President 
Obama for the enormous trust he has placed in me with this 
nomination and Secretary Locke for his support.
    Last week, I had the pleasure of meeting members of this 
committee and your staff. Thank you for your hospitality. If I 
am confirmed by this Committee and your colleagues in the 
Senate, I look forward to continuing this dialogue and working 
closely with you. I am also grateful to Senator Lautenberg from 
my home State of New Jersey for his gracious introduction.
    Let me take this opportunity to introduce to you members of 
my family who have joined me today--my wife, Sheila; my 
daughter, Pooja; and my son, Aditya.
    Sheila, my college sweetheart, has provided me her 
unshrinking support through a global journey that has spanned 
three decades and five countries. She is amazing. Not only is 
she a distinguished business executive in her own right, but 
she also managed the time to raise our two wonderful children.
    Our daughter, Pooja, is a physician who is pursuing her 
passion for public health. She has served the underprivileged 
in the remote corners of the world, from working with displaced 
people from Azerbaijan to East Timor and vulnerable children 
from the streets of Calcutta to the Congo.
    Our son, Aditya, has been a management consultant who has 
also worked with the homeless in America, as well as victims of 
child labor in Asia. He now has the distinct privilege of 
serving in the White House.
    I would also be remiss if I did not mention my parents, 
Colonel Sundaram and Vasantha, who instilled in our family the 
importance of public service. Although they cannot be present 
here today, they are watching these proceedings from their home 
in Delhi.
    As I prepared these remarks, I could not help but reflect 
on the incredible journey from Mumbai, India, that brought me 
to the U.S. 16 years ago. I appear before you as a first-
generation immigrant and a testimony to our great country. If 
confirmed, you will have given me the opportunity to pay back a 
small measure of the debt to a country that has already given 
me and my family so much.
    In my 30 years in the international business community, I 
have seen firsthand the immense possibilities, potential, and 
prosperity that follow global trade. In the last several years, 
as an international development consultant, I have worked with 
civil society and nonprofit organizations to improve lives and 
livelihoods and support small and medium enterprises in 
establishing sustainable and scalable businesses.
    I have worked for multinationals and local companies across 
six countries, culminating in my position as the head of 
Worldwide Consumer Pharmaceuticals for Johnson and Johnson. 
Through my work, I have seen the tremendous opportunities for 
U.S. businesses to more fully engage in Asia, Africa, and Latin 
America.
    The value and values of free and fair trade are embedded in 
my DNA. I pledge to help the American enterprises enhance their 
competitiveness and grow their global footprint, to increase 
U.S. exports and help create jobs, and to protect our 
interests, patents, and intellectual property that are so 
critical to encourage innovation and support technological 
advancement, specifically in emerging technologies like the 
environment, energy, and healthcare sectors. These are the 
priorities that have been articulated by Secretary Locke for 
the Department of Commerce, and I am humbled by the opportunity 
to work daily to advance them.
    International trade has always been a proven path to global 
prosperity. The current economic climate makes it even more 
compelling to prioritize and pursue this course. With 95 
percent of the world's consumers living beyond our borders, we 
must encourage, nurture, and support U.S. companies, especially 
small and medium businesses, to export goods and services into 
foreign markets to supplement the decline in domestic 
consumption.
    These are challenges, but they also present tremendous 
opportunities. That is why I am so excited by the prospect of 
leading the U.S. Commercial Service at this pivotal point in 
time.
    If confirmed, I will work closely with this Committee and 
your colleagues in Congress to expand U.S. exports and advance 
commercial interests abroad, to forge new economic ties for 
America overseas, and to ensure that America maintains its 
leadership in the global economy while advancing U.S. national 
security interests through a renewed focus on commercial 
diplomacy.
    Mr. Chairman, I thank you for your consideration of my 
nomination and for the opportunity to address any questions 
that you and your colleagues may have.
    Thank you.
    [The prepared statement and biographical information of Mr. 
Kumar follows:]

 Prepared Statement of Suresh Kumar, Assistant Secretary-Designate for 
   Trade Promotion and Director General, U.S. and Foreign Commercial 
                  Service, U.S. Department of Commerce
    Chairman Rockefeller, Ranking Member Hutchison, and distinguished 
members of the Committee, I am honored and humbled to come before you 
today as President Obama's nominee to be Assistant Secretary of 
Commerce for Trade Promotion and Director General of the U.S. and 
Foreign Commercial Service. I want to thank President Obama for the 
enormous trust he has placed in me with this nomination and Secretary 
Locke for his support.
    Over the last week, I had the pleasure of meeting members of this 
committee and your staff. Thank you for your hospitality and generosity 
in taking the time to share your insights and perspectives on the 
economic landscapes of your home states. If I am confirmed by this 
committee and your colleagues in the Senate, I look forward to 
continuing this dialogue and working closely with you and your staffs.
    I am particularly grateful to Senator Lautenberg from my home state 
of New Jersey for his gracious introduction here today.
    Let me also take this opportunity to introduce you to the members 
of my family that have joined me here today--my wife Sheila, my 
daughter Pooja, and my son Aditya.
    Sheila, my college sweetheart, has provided me her unshrinking 
support through a global journey that has spanned three decades and 
five countries. Sheila is amazing--not only is she a distinguished 
business executive in her own right, but she also managed to raise our 
two wonderful children.
    Our daughter, Pooja, is a physician who is pursuing her passion for 
public health. She has served the underprivileged in the remote corners 
of the world--from working with displaced people from Azerbaijan to 
East Timor, and vulnerable children from the streets of Kolkata to the 
Congo.
    Our son, Aditya, has been a management consultant who has also 
worked with the homeless in America, as well as victims of child labor 
in Asia. He now has the distinct privilege of serving in the White 
House.
    I would also be remiss if I did not mention my parents--Colonel 
Sundaram and Vasantha--who instilled in our entire family the 
importance of public service. Although they cannot be present here 
today, thanks to technological advancement that makes the world a 
global village, broadband and bandwidth permitting, they are watching 
these proceedings via webcast from their home in Delhi.
    As I prepared these remarks, I could not help but reflect on the 
incredible journey from Mumbai India, via Indonesia, Singapore and 
Canada that brought me to the USA 16 years ago. I appear before you as 
a first generation immigrant and a testimony to our great country. It 
has provided me and my family the opportunities most could have only 
dreamed about. If I am confirmed for this position, you will have given 
me the opportunity to repay a small measure of the debt to a country 
that has already given me and my family so much.
    In the thirty years that I have been actively engaged in the 
international business community, I have seen firsthand the immense 
possibilities, potential, and prosperity that follow global trade. I 
know that ``borders frequented by free and fair trade seldom need 
soldiers.'' In the last several years as an international development 
consultant, I have worked with civil society and nonprofit 
organizations to improve lives and livelihoods and support small and 
medium enterprises in establishing sustainable and scalable businesses. 
I have worked for multinational and local companies across six 
countries, culminating in my position as the head of Worldwide Consumer 
Pharmaceuticals for Johnson and Johnson. Through my work in emerging 
economies, both as a businessman and as a development consultant, I 
have seen the tremendous opportunities for U.S. businesses to more 
fully engage in Asia, Africa, and Latin America.
    The value and values of free and fair trade are embedded in my DNA. 
I have a deep appreciation for the unique challenges that face U.S. 
businesses seeking to expand overseas. If I am confirmed, I pledge to 
help American enterprise enhance its competitiveness and grow its 
global footprint; to increase U.S. exports and help create jobs; and to 
protect our interests, patents and intellectual property that are so 
critical to encourage innovation and support technological advancements 
particularly in emerging technologies in the environment, energy and 
healthcare sectors. These are the priorities that have been articulated 
by Secretary Locke for the Department of Commerce, and I am humbled by 
the opportunity to work daily to advance them.
    I will leverage my experience and passion in international business 
to maximize the efforts of the U.S. Commercial Service in increasing 
the global competitiveness of the American business community, with a 
particular focus on small and medium enterprises. I will work 
tirelessly with the wonderful trade professionals throughout the 
extensive global network of U.S. Export Assistance Centers in over 100 
U.S. cities and in U.S. embassies and consulates across 77 countries to 
increase U.S. exports, and by doing so, to create good American jobs.
    International trade has always been a proven path to global 
prosperity. The current economic climate makes it even more compelling 
to prioritize and pursue this course. With 95 percent of the world's 
consumers living beyond our borders, we must encourage, nurture and 
support U.S. companies, particularly small and medium businesses, to 
export goods and services into foreign markets to supplement the 
decline in domestic consumption. We must grow our exports to stimulate 
the economy, create and maintain American jobs and to help reduce our 
trade deficit. These are challenges, but they also present tremendous 
opportunities--that is why I am so excited by the prospect of leading 
the U.S. Commercial Service at this pivotal moment in time.
    If I am confirmed, I will work closely with this Committee and your 
colleagues in Congress to expand U.S. exports and advance U.S. 
commercial interests abroad, to forge new economic ties for America 
overseas, and to ensure that America maintains its leadership in the 
global economy while advancing U.S. national security interests through 
a renewed focus on commercial diplomacy.
    Mr. Chairman, I thank you for your consideration of my nomination 
and for the opportunity to address any questions that you and your 
colleagues might have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Suresh Kumar.
    2. Position to which nominated: Assistant Secretary for Trade 
Promotion and Director General of the U.S. and Foreign Commercial 
Service.
    3. Date of Nomination: October 29, 2009.
    4. Address (List current place of residence and office addresses):
    Residence: Information not released to the public.
    5. Date and Place of Birth: February 18, 1955; Secunderabad, India.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Sheila Kumar (spouse), Vice President--Market Research, Johnson 
        & Johnson; children: Pooja Kumar, daughter, 29 years; Aditya 
        Kumar, son, 27 years.
    7. List all college and graduate degrees. Provide year and school 
attended.
------------------------------------------------------------------------
                                                 Degree        Date of
     Institution          Dates Attended        Received       Degree
------------------------------------------------------------------------
University of                8/1974-5/1976   Master of           3/1976
 Bombay, JB IMS                               Management
                                              Studies
                                              (MBA)
University of Delhi          8/1971-3/1974   B.A. (Honors)       3/1975
                                              Economics
St. Columba's High          1/1960-12/1970   Indian School       4/1971
 School, New Delhi                            Certificate
                                              (ISC)
------------------------------------------------------------------------

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.
------------------------------------------------------------------------
                                          Location of        Dates of
       Title              Employer            Work          Employment
------------------------------------------------------------------------
President and CEO    KaiZen Innovation  250 Bouvant      Oct 2007-
                      LLC                Drive            Present
                     250 Bouvant Drive  Princeton, NJ    Jan 2005-Feb
                     Princeton, NJ       08540            2006
                      08540                              Nov 2003-Sep
                                                          2004Special Advisor      Clinton            250 Bouvant      Mar 2006-Sep
                      Foundation         Drive            2007
                     55 West 125th      Princeton, NJ
                      Street             08540
                     New York, NY
                      10027Distinguished        Thunderbird        15249 North      Oct 2004-Dec
 Executive in         School of Global   59th Avenue      2004
 Residence            Management        Glendale, AZ
                     15249 North 59th    85306-6000
                      Avenue
                     Glendale, AZ
                      85306-6000International Vice   Johnson & Johnson  7050 Camp Hill   Mar 1999-July
 President            Ltd.               Rd.              2003
                     One J&J Plaza      Fort
                     New Brunswick, NJ   Washington, PA
                      08933              19034Vice President       Warner Lambert     201 Tabor Rd     Aug 1993-Mar
                     201 Tabor Rd       Morris Plains,    1999
                     Morris Plains, NJ   NJ 07950        Sep 1989-July
                      07950             Scarborough,      1993
                                         ONT M1L
                                        2N3, CanadaMarketing Director   Bata Shoes         Jakarta,         Feb 1987-Aug
                                         Indonesia        1989Divisional Manager   Levis Strauss      Jakarta,         Sept 1985-Dec
                      International      Indonesia        1986Sales and Marketing  Unilever/Lipton    Calcutta and     June 1984-Sept
 Manager                                 Madras, India    1985General Sales        Balsara Hygiene    Bombay, India    Apr 1982-Feb
 Manager              Products                            1984Senior Product       Johnson &          Bombay, India    Apr 1978-Apr
 Manager              Johnson, India                      1982Product Executive    Colgate            Bombay, India    Mar 1977-Mar
                      Palmolive, India                    1978
------------------------------------------------------------------------

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None; N/A.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.
------------------------------------------------------------------------
        Organization                Office Held              Dates
------------------------------------------------------------------------
Thunderbird, School of        Member of the Global    Nov 2001-Present
 Global Management             Council
Dalberg Global Development    Member Expert Advisory  Jan 2009-Present
 Advisors                      Council
American Management           Member of the Global    April 1999-July
 Association                   Council                 2003
Consumer Health Products      Member                  April 1999-July
 Association                                           2003
Association of National       Member of the Global    April 2000-July
 Advertisers                   Council                 2003
World Self Medication         Member of the Board     Jan 2000-July 2003
 Industry
African Development Bank      Consultant              Jul 2008-Mar 2009
Alliance for a Green          Consultant              Jul 2008-Oct 2008
 Revolution in Africa
  (AGRA)
Bill and Melinda Gates        Consultant              Feb 2008-Jun 2008
 Foundation
Aerogrow International        Director                Jul 2008-July2009
Biosign Technologies          Director                July 2006-May 2007
Sirit Technologies            Director                Apr 2005-Apr 2007
------------------------------------------------------------------------

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
------------------------------------------------------------------------
        Organization                Office Held              Dates
------------------------------------------------------------------------
Thunderbird, School of        Member of the Global    Nov 2001-Present
 Global Management             Council
Bombay Gymkhana Club          Absentee Member         1978-Present
------------------------------------------------------------------------


    Neither organization restricts membership on any of the above 
basis.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No; N/A.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period: None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Named Distinguished Executive in Residence by Thunderbird 
        School of Global Management, 2004.

        Recipient of Rotary International Educational Award for 
        International Understanding, 1982-83.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        ``Right Pricing'' for Growth: How to leverage consumer insights 
        to make the economy work for you (Kaizen Innovation website, 
        May 2009).

        New Development Approaches from International Foundations 
        (Presentations at Africa Green Revolution Summit in Oslo, 
        September 2006 and Donor Platform Meeting in Washington D.C., 
        December 2006).

        Wellness in the OTC World: Where are the Googles and Yahoos 
        Lurking? (OTC Insights, February 2006).

        Rx for Changing Healthcare (OTC Insights, July 2005).

        Foreword: Strategic Roadmap for the Emerging Markets (Nicholas 
        Hall Publication, December 2003).

        The Intrigues and Challenges of Global Advertising (The 
        Advertiser, June 2003).

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony: None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have committed almost my entire professional career to building 
global businesses and promoting international trade. I did this as an 
executive for global corporations and as consultant for leading 
nonprofit organizations in their economic development efforts to help 
build small and medium-sized enterprises. I have lived and worked in 
multiple countries and led business initiatives across all continents. 
I have taught global management and marketing at leading business 
schools--including Thunderbird School of Global Management, Schulich 
School of Business at York University, and Mumbai University.
    My global business building efforts and accomplishments were 
recognized by the leading graduate school for international business, 
Thunderbird School of Global Management, which named me a Distinguished 
Executive in Residence.
    I have built diverse, high-performance teams in decentralized 
organizations and developed and communicated compelling vision and 
strategy to inspire collaboration. My background as a global executive, 
consultant and management professor allows me to influence business and 
institutional leaders and counsel and coach businesses and teams. It 
allows me to be a catalyst to drive export promotion, commerce and 
prosperity.
    If confirmed, I wish to leverage my skills to build global 
collaboration and partnerships that help U.S. businesses increase their 
international presence, improve competitiveness, revenues, profit and 
market share, and create employment opportunities. This has always been 
important; the current economic environment makes it even more 
critical.
    I believe I have the education, experience, passion and commitment 
to drive international trade initiatives and the ability to listen to, 
influence and inspire diverse stakeholders across nationalities and 
cultures.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    To ensure smooth functioning of the agency and to make the impact 
we all desire, I believe my responsibilities, if confirmed, will be to:

        1. Institute an inclusive process that is efficient and 
        effective and leads to achievement of goals that are 
        quantifiable, measurable and achievable. This will require 
        instituting regular metric based reporting of progress.

        2. Train people in the organization to equip them with 
        requisite skills and understanding.

        3. Empower, motivate and hold the team responsible for results.

    I have managed large global organizations for some of the largest 
U.S. corporations. I have provided leadership, articulated inspiring 
vision and strategy, motivated a large and dispersed group of 
employees, established process and controls and instituted ongoing 
metric-based reporting to track performance and trends. I have also 
managed multi-functional organizations which included financial staff 
reporting to me.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    I believe the top three challenges are:

        1. Opening up more markets for American exports and creating 
        employment opportunities.

        2. Influencing inter agency collaboration to shape trade 
        policy.

        3. Deliver consistent, high-quality support and customer-driven 
        service to American businesses.

    These are important challenges to address in normal times. They are 
critical in the current economic climate. I believe we need to do 
everything to support American companies to access more markets, create 
employment and improve our global competitiveness.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I have no financial arrangement or continued dealings with business 
associates, clients and customers. I have the following retirement 
accounts:

  <bullet> 401(k) at Johnson & Johnson.

  <bullet> Pension/ retirement plans at Johnson & Johnson and Warner 
        Lambert Company which has since been acquired by Pfizer Inc.

  <bullet> Retirement Savings Plan in Canada which were opened when I 
        was employed at Warner Lambert Canada.

    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    I am the President and CEO of KaiZen Innovation LLC. In accordance 
with the ethics agreement I entered with the Department of Commerce's 
designated ethics official, if confirmed, I will resign from my 
position and I will become a nonmanaging member. During my appointment, 
I will not manage this entity or provide any other services to it, and 
I receive only passive income from KaiZen.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department's designated agency ethics official and that 
has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department's designated agency ethics official and that 
has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department's designated agency ethics official and that 
has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    Yes--Johnson and Johnson and Warner-Lambert were parties to 
litigation while I was an officer in those organizations. However, I 
was not a party to any litigation and none of them involved any 
allegations of wrongdoing on my part.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                         resume of suresh kumar
    Proven leader with expertise in developing new business models, 
establishing collaborations, extending business footprint and leading 
turnarounds to develop robust, profitable businesses. Delivered 
superior results to build brands, multi location businesses and 
organizations by inspiring teamwork and deploying insights gained 
through consumer engagement. Hands-on change agent, tailored regional 
solutions, global products and programs to increase consumer access. 
Successfully conveyed global business practices to create sustainable 
social development platforms and programs. Achievements include:

  <bullet> Developing team and talent to take on leadership roles--
        entrepreneurs, general managers, and VPs of Marketing and 
        Sales.

  <bullet> Turning around emerging markets into a rapidly growing, 
        profitable business at J&J.

  <bullet> Building and commercializing pipeline to deliver global 
        market leadership for Warner Lambert's Oral Health business.

  <bullet> Creating award winning global marketing and customer centric 
        programs, and leveraging knowledge sharing practices.

  <bullet> Establishing unique public-private partnerships, supply 
        chains and private enterprise to deliver affordable 
        fertilizers, reduce food insecurity and improve lives and 
        livelihoods in Africa.
Experience and Accomplishments
    KaiZen Innovation LLC, Jan 2004 onwards--President and Managing 
Partner--Global management consulting

    Select Consulting Assignments, 2008; 2004-2005

        Advised The Bill and Melinda Gates Foundation, the Alliance for 
        a Green Revolution in Africa (AGRA) and the African Development 
        Bank in developing multi country collaborations, public private 
        partnerships and new business models to make affordable 
        fertilizers available and accessible to small holder farmers in 
        Africa.

        As Distinguished Executive in Residence at Thunderbird, School 
        of Global Management, surfaced best practices, influenced 
        creating Center of Excellence and developing new programs to 
        drive Global Thought Leadership.

        Helped European consumer healthcare client enhance business 
        valuation to ten times EBITDA. Influenced product and program 
        development, built team to launch new products and extend 
        leadership positions in competitive categories.

        Assisted Discovery Communication to develop service offering 
        and business model for Discovery Health.

    Special Advisor Clinton Foundation, 2006 and 2007.

    Spearhead initiatives to promote economic development and improve 
lives and livelihoods. Embedded commercial orientation to and best 
practices into economic and social development initiatives. Developed 
comprehensive programs to secure commercial and development financing, 
procure affordable inputs and establish market linkages. Inspired 
collaboration and execution: led McKinsey, Bain, governments and 
private sector teams to develop business models, strategy and programs 
that resulted in:

        Improved food security: over 90 percent of population consumed 
        more than the threshold 2300 calories per day.

        First large scale use of fertilizer in Rwanda: stewarded 
        procurement program to secure fertilizer 28 percent below 
        prevailing market price in 2006 and 30 percent below in 2007 
        resulting in 390 percent small holder farmer return on input 
        investment. Maize output increased 61 percent by intensifying 
        production on 5 percent of cultivated area; cash crop-tea and 
        coffee-outputs increased more. National agriculture output 
        increased 19 percent in 2008.

        Repayment of soft loan before term, embedding funding program 
        in Rwanda's agriculture strategy and initiating targeted coupon 
        based smart subsidy with sunset plan. Transitioned distribution 
        from government to private sector.

      Established sustainable practices: developed people, protocols, 
            partnerships and infrastructure to lower inputs costs, 
            influenced bridge financing mechanism to create a 
            sustainable revolving fund, secured co-operation between 
            Rwanda and Tanzanian governments, and local governments and 
            private enterprises.

        Results of Rwanda interventions led to invitation from Kenya 
        and Tanzania governments to establish procurement approaches 
        and collaborations to improve farmer well being through viable 
        commercial practices.

    Johnson & Johnson Ltd, 1999 to 2003--Head of Worldwide Consumer 
Pharmaceuticals, International Vice President.

    Served on the Group Operating Committee with responsibility for 
$580 million consumer medicines business P&L in Asia, Latin America and 
Europe, and the Global Franchise Organization; additionally influenced 
$500MM global business. Main brands included Tylenol, Motrin, and 
Imodium. Reported to the Worldwide Chairman; affiliate Presidents and 
Global Marketing Leaders reported to me. Led multi-functional 
organization of 1100 employees. Created worldwide presence and turned 
around business experiencing declining sales and profit.

        Financial Results: Delivered double digit revenue growth and 
        $70MM profit; turned around loss making businesses in Japan and 
        China, crafted business model in Central and Eastern Europe to 
        deliver seven fold growth and robust profit.

        Operating Efficiency: Improved ROAM and margin by 7 percent 
        through sourcing and contract manufacturing initiatives.

      Developed sustainable sourcing strategy, reduced currency risk 
            and improved profits in Latin America.

      Secured business license for expanded portfolio and inspired 
            cross business regional collaboration.

        Restructure and Process Redesign: Restructured JV arrangements, 
        redesigned and developed e-enabled global franchise processes 
        to deliver superior market support, reduce SG&A by 35 percent, 
        and HQ headcount by 65 percent.

        Voice of Customer: Built trust and affinity among consumers, 
        customers, and healthcare professionals that resulted in

      Customers rating Tylenol best launch in Japan; Consumers rated 
            brand best in class on trust and safety.

      Emerging Markets Dominance: 83 percent share in Brazil; #1 in 
            pediatric and ``doctor recommended'' in China.

        Product Innovation: Developed and executed innovation pipeline. 
        Established pediatric business with full range of products, 
        launched the first non-acetaminophen Tylenol product, and 
        extended franchise into Cough drops. Actions led to balanced 
        portfolio, reduced seasonal vulnerability, and enhanced 
        manufacturing efficiencies.

        Pipeline Development: Set up partnership with Hong Kong 
        University to develop clinical protocol for Traditional Chinese 
        Medicine (TCM) projected to yield 25 percent of future revenue 
        stream in China.

        Globalization: Rolled out ``ready to treat'' Imodium program 
        resulting in 20 percent revenue growth.

        People and Talent: Pioneered annual ``OTC University'' and web 
        based training to develop and deploy efficient and energized 
        global organization. Realized measurable improvement in skill 
        level and talent development, high potential employee 
        retention, internal staffing of critical positions, and reduced 
        ``regrettable losses'' in high attrition markets.

        External Collaborations: Successfully established and leveraged 
        win-win government collaborations.

      China: trained healthcare professionals- doctors, hospital and 
            purchase managers to build category protocols and affinity 
            for the company's products and programs. Result 20 percent+ 
            annual revenue growth.

      Brazil and Venezuela: partnered with governments to combat dengue 
            epidemic. Changed prescribing protocol from dipyrone 
            (competition) to acetaminophen and ibuprofen. Result: 
            double digit profit growth.

      Japan: Secured Ministry of Health approval for the first 
            differentiated OTC label claim in Japan.

    Warner Lambert Company, 1989 to 1999--Vice President, Consumer 
Products, Latin America/Asia: June 1995-March 1999.

    Led $800 million Adams Confectionery, Schick Grooming and Consumer 
Healthcare businesses across Latin America and Asia. Brands included 
Halls, Chiclets, Trident, Schick, Listerine, Lubriderm and Benadryl. 
The business had 7 manufacturing plants, and multiple distribution 
centers. Coalesced a multi country business to a regional one, 
rationalized brands and facilities, and installed a shared service 
organization to free resources that were invested into building the 
business.
    Business Results

        Confectionery Business: Grew sales 70 percent to $440MM; 75 
        percent+ market share in Latin America, 20 percent+ in Asia.

        Healthcare Business: Increased revenues 54 percent to $215MM: 
        achieved 85 percent markets share for core oral care category.

        Shaving and Grooming Business: Improved sales 32 percent to 
        $145MM; enhanced presence in core markets.

    Initiatives

        Established confectionery business in China and India; 
        commenced local manufacturing.

        Initiated regional advertising to strengthen brand equities and 
        orchestrate multi country product launches.

        Deployed regional manufacturing and pricing strategies to 
        eliminate arbitrage loss, allowing capital investment.

        Established knowledge transfer protocols to free up funds for 
        investment and spur rapid commercialization.

        Forged alliances with Colgate Palmolive and Eveready resulting 
        in major distribution gains across Latin America:

      80 percent ACV distribution for confectionery, 93 percent for 
            OTC, and 65 percent for shaving products.

        Created shared service regional organization to reduce SG&A 
        from 24 percent to 18 percent.

        Reduced SKUs by a third to improve confectionery margins from 
        46 percent to 51 percent, divested non-strategic assets to 
        drive healthcare margin from 68 percent to 71 percent, and 
        revamped shaving portfolio to improve margin to 65 percent.

    Marketing Director, Consumer Healthcare, North America/Europe/
Japan/Australia: Sept 1993-June 1995.

    Led strategic market development for $1.8 Billion consumer 
healthcare business. Leveraged line management credibility to influence 
global collaboration, lead regional business teams, and accelerate 
geographic expansion. Supported operating companies, established best 
practice, developed category strategies, cluster market plans, and core 
brand programs.

        Championed launch of Listerine in Germany and France, switched 
        Oraldene in Spain, introduced alcohol free Listermint in North 
        America, and globally rolled out flavor line to deliver 60 
        percent+ global share and 35 percent revenue growth.

        Initiated technology licensing and preliminary marketing work 
        on Listerine Pocket Packs-voted most innovative product of the 
        year, with launch year sales of $200MM+.

        Assisted rapid integration and rollout of Glaxo and Burroughs 
        Wellcome alliances. Revamped respiratory portfolio (Benadryl, 
        Sudafed, Actifed), and launched OTC Beconase in UK. Realized 
        global category leadership.

    Category Manager, Oral Care Products, Warner Lambert Canada: 
October 1989-August 1993.

    Achieved record sales, share and profit results while being 
responsible for the Oral Care business unit P&L.

        Inherited business 6 percent share behind Procter & Gamble and 
        left it 4 share points ahead; increased gross margin by 9 
        percent.

        Reinvigorated Oral Care: Launched Listerine Cool Mint, 
        introduced ``consumer winning'' packaging, Effie award winning 
        campaign. Unique Quebec thrust increased market share from 6 
        percent to 15 percent within 18 months. Secured Canadian Dental 
        Association (CDA) approval for brand.

        Launched Alcohol Free Listermint: Idea to shelf in 9 months; 
        Neutralized store brands and regulatory challenges.

        Co-branded Efferdent with Arm & Hammer; differentiated brand 
        through proprietary Listerine ingredient extensions.
    Bata Shoes, Indonesia/Singapore, 1987-September 1989: Marketing 
Director.

        Responsible for marketing, merchandising, dealer and retail 
        operations P&L. Expanded retail presence to 1,600 stores.

    Levi-Strauss International, Indonesia, 1985-1986: Divisional 
Manager (Country Manager).

        Managed $15 million business. Established contract 
        manufacturing operation.

    Unilever, India: 1984-1985, Sales and Marketing Manager, Lipton.

        Led $90million, 575 employees South India operations and bulk 
        teas profit center. Differentiated Lipton in a commodity 
        market.

    Balsara Hygiene Products, India, 1982-1984: General Sales Manager.

        Head of Sales and Marketing. Contributed to successful launch 
        of Promise, the second ranked toothpaste brand.

    Johnson & Johnson, India, 1978-1982: Senior Product Manager.

        Led the baby business. Enhanced market footprint and launched 
        No More Tears Baby Shampoo and Johnson's Swabs.

    Colgate Palmolive, India, 1977-1978: Product Executive.

        Launched Colgate Trigard Toothbrush, and School Dental Health 
        and ``Young India'' programs.
Professional Development
Education

        Master of Management Studies (MMS): 1976, Bombay University, 
        India. This is the University's MBA program.

        BA (Honors) Economics: 1974, Delhi University, India.
Professional Programs and Skills

        Global Management Program, Thunderbird, Graduate School of 
        Global Management, Phoenix: 1995.

        Leadership and Influence, Babson School of Executive Education, 
        Boston: 1994.

        Examiner for J&J's Process Excellence initiative; speaker at 
        Leadership Development Programs.
Scholarship

        Rotary Foundation Fellow: Received educational award for 
        promoting international understanding, 1982.
Teaching Appointments

        Distinguished Executive-In-Residence, Thunderbird School of 
        Global Management, 2004.

        Adjunct Faculty, MBA Programs: Schulich School of Business, 
        York University, Toronto, Canada (1991 to 1993); Bombay 
        University, India (1976 to 1984).
Select Publication and Presentation

        New Development Approaches from International Foundations--
        Africa Green Revolution Summit, Oslo-September 2006 and Donor 
        Platform Meeting, Washington, D.C.--Dec 2006.

        Wellness in the OTC World: Where are the Googles and Yahoos 
        Lurking?--OTC Insights, February 2006.

        Rx for Changing Healthcare--OTC Insights, July 2005.

        2Foreword: Strategic Roadmap for the Emerging Markets- Nicholas 
        Hall Publication, December 2003.

        The Intrigues and Challenges of Global Advertising-The 
        Advertiser June 2003.
Broadcasting

        News and Sports anchor on national television and radio 
        networks in India, 1969-1984.
Languages

        Lived in six countries, speak six languages
Board and Council Affiliations
    Member of the Global International Councils/ Boards/ Expert 
Advisory Panels of:

        Thunderbird, School of Global Management since 2001.

        American Management Association's (AMA) 1999-2003.

        Consumer Health Products Association (CHPA) 1999-2003.

        Association of National Advertisers (ANA) since 2000.

        Dalberg Global Development Advisors since 2009.

    Member of the Board of

        AeroGrow International, Inc. an early stage company since 2008.

        SIRIT, an RFID company listed on the Toronto Stock Exchange 
        2005-2007.

        World Self-Medication Industry (WSMI) 1999-2003.

    The Chairman. Thank you very much, Mr. Kumar.
    I have to say that the three of you have a public service 
commitment and background which is really quite awesome. I am 
not saying it doesn't happen, but it doesn't happen as often as 
one would wish. And you three, at least lift my spirits a great 
deal.
    Mr. Kumar, if I might start with you, sir. The U.S. and 
Foreign Commercial Service is something I have dealt with a lot 
in my life because I come from a little state called ``West 
Virginia,'' which almost nobody has heard of, and yet those of 
us who represent it obviously feel very strongly about it.
    And one of the problems that--I mean, most states or large 
sections of most states are, in fact, rural and do not 
automatically think about overseas opportunities. My close 
colleague, Senator Hutchison, there are many large cities in 
her State of Texas, but there are also large parts of eastern 
Texas and other parts which are not at all metropolitan and 
which don't necessarily have, like parts of West Virginia, the 
instinct to do business overseas.
    One of the things I have found, and I am very interested in 
overseas business and doing it two ways, and that is one of the 
things I tried to do in West Virginia is to get it. I went to 
school in Japan. So I spent a lot of time getting Japanese 
business here and trying to get our businesses to export 
overseas.
    It is not--the second is not necessarily as easy as the 
first, even in a small state like West Virginia. And it is 
because of something called a ``mind set,'' which says that 
because we are small, because we are rural, because we are 
producing crafts or because we are producing, on the other 
hand, aerospace parts, which is true in our state, it is not 
likely that we are going to get on a list, that we are going to 
make it in some foreign country.
    I would like you just for a minute to address the 
psychology of how you deal with that in American communities, 
how you would deal with it if confirmed?
    Mr. Kumar. Thank you, Chairman, for giving me the 
opportunity to address a complex issue such as psychology 
related to trade.
    I would preface by saying my entire experience in the 
business world had been dealing with big corporations exporting 
to different countries. Over the last 5 years, I have spent my 
time and my entire last 5 years of my life in building trade 
conduits from rural markets, working in such rural areas as 
small towns and small farms in Africa.
    I know the immense potential which exists in rural markets 
if tapped right, and I also know from personal experience the 
tremendous potential which is there can only be trapped by 
training, by making people aware of the services such as the 
U.S. Commercial Service, which you have referenced. If 
confirmed, it will be my duty and my honor to serve the rural 
part of not only your state, but other states, too, and 
encourage small and medium enterprises, whether they are on the 
farm or in industrialized sectors, to actually engage with the 
U.S. Commercial Service and find international markets of what 
they could do.
    There are markets out. We just need to tap into people and 
make them aware of the services which is available to them.
    The Chairman. But that is my question. How do you--how do 
you tap them? How do you give them the confidence to do what 
you and I know they could do were they to take the 
psychological or whatever you want to call it risk of doing 
something which is in their benefit, but they don't know it and 
they can't prove it. So they hesitate to do it. How do you 
address that?
    Mr. Kumar. A couple of thoughts. I am not an expert in the 
area as yet, but as a businessman having seen this, if 
confirmed, I will reach out to your office, as also offices of 
other Congressional members, to learn better how to service and 
tap into that, number one. But number two is I believe the U.S. 
Commercial Service need not be the best-kept secret in rural 
America. They need to become the least-kept secret, and it will 
be my goal to do precisely that.
    The Chairman. Good.
    I have so little time left that I am going to yield it to 
my distinguished Ranking Member, Senator Hutchison.
    Senator Hutchison. Well, thank you, Mr. Chairman, and thank 
all of you for being willing to make the sacrifices to serve.
    Let me start with Mr. Coyle. With respect to dual-use 
technologies, which is going to be a major part of your 
portfolio, that obviously can be used in military as well as 
commercial products and for purposes. How can we promote 
American innovation without jeopardizing national security, 
when we are working with countries where there may be a 
security threat in the future?
    Mr. Coyle. Senator Hutchison, thank you. It is good to see 
you again. We had some interactions when I was on the 
President's Base Realignment and Closure Commission, and it is 
good to see you again.
    Senator Hutchison. Oh, that is right. Thank you.
    Mr. Coyle. The question of foreign access to our best 
technology, I think none of us want our adversaries to have 
access to U.S. technology, especially the most important and 
best of U.S. technology that can be used against us. However, 
in my experience, American companies need to be able to sell 
overseas. When they are able to do that, it brings down the 
price for American consumers and for--in the case of the 
Defense Department, it brings down the price for them.
    And also sometimes, we are not allowing technology to be 
sold overseas which is already well known, which companies from 
other countries are selling overseas. So why shouldn't U.S. 
companies be able to sell that same technology if it is well 
known?
    Also there are ways to protect the most important ideas. 
Sometimes those ideas are embedded in software or in special 
sensors where you can sell a good part of the product, but 
maybe not those most key items.
    So if I were confirmed for this position, one of the things 
that I would want to do is to strike a balance here between 
making it more possible for American companies to export their 
technology, but of course without giving away important 
secrets.
    Senator Hutchison. Thank you. We will look forward to 
hearing more as you are in the job about the measures that you 
are taking.
    Mr. Quehl, the life-cycle cost of the 2010 decennial census 
is expected to be around $15 billion, and a major cost of that 
is the nonresponse follow up operation, which is expected to 
cost almost $3 billion. This estimate is based on 64 percent of 
the American public returning completed forms to the Census 
Bureau. The Census has stated that a single percentage point 
decrease in response rate will incur an additional $80 million 
to $90 million in costs.
    So here is my question to you. As you know, before this 
Committee, Secretary Locke committed to not having estimates 
but having one-on-one counts for our census purposes. What will 
you do to assure that efficiencies are in place and to perhaps 
get a better than 64 percent public return and try to save 
those dollars that can be done while assuring that we have a 
census that is an individual count?
    Mr. Quehl. Thank you for the question, Ranking Member 
Hutchison.
    I think you are speaking straight to the heart of the 
importance of integrating operational management and financial 
management. That in tracking performance on the ground with 
respect to these operations, we should have a clear sense of 
the impacts on the estimates on the department's budget and in 
terms of estimates, in terms of reporting, and doing this all 
on a practical enough basis to be able to take corrective 
actions to improve that performance.
    That is certainly something I would commit to if confirmed, 
and I would look forward to working with you and other members 
of this Committee in ensuring that that takes place.
    Senator Hutchison. Thank you.
    Mr. Kumar, the U.S. and Foreign Commercial Service works 
closely, of course, with government organizations like the 
Eximbank and the Trade Promotion Coordinating Committee to 
provide assistance to U.S. businesses exporting overseas. 
Interagency cooperation is a key factor here. How would you 
approach interagency cooperation to provide the best unified 
framework for U.S. businesses to export and also small 
businesses, which often don't have the information and 
capability to access the help that they might be able to get 
from the Federal Government to do more in that area?
    Mr. Kumar. Thank you, Senator Hutchison.
    Those are incredibly important issues very close to my 
heart as a person from the business world. How do you 
coordinate the efforts of different agencies serving to 
increase exports for the country and do that in a manner which 
you have a unified voice which makes a much greater impact?
    I understand that the Trade Promotion Coordinating 
Committees have been established. If confirmed, I will work 
very closely with my colleagues in the Government and other 
agencies within the Government within the Department of 
Commerce, as also with Members of Congress, to make sure that 
all views are put in and we can have a coordinated approach.
    The second portion of the question which you raised is how 
do we serve the interests of small and medium enterprises, 
which is at the heart of what American business is? I see that 
as a major effort which the U.S. Commercial Service must put. I 
think they have taken several initiatives toward that end, and 
if confirmed, it would be my--my goal would be to meet up with 
small and medium enterprises to make sure that their voices are 
in any policy framework which we initiate.
    But what I am thrilled is my job potentially begins on day 
one really moving exports and working with these small and 
medium enterprises to create jobs here at home. And I go back 
to the previous reference which I have made. We must make the 
U.S. Commercial Service to the small and medium enterprises the 
least-kept secret, and I will hold my feet to the fire to do 
precisely that.
    Senator Hutchison. Well, that is so important, and I 
appreciate what you said because exporting does create jobs in 
America, and that is what we all want right now, of course.
    Thank you very much.
    Mr. Kumar. Thank you.
    The Chairman. Thank you, Senator Hutchison.
    Senator Lautenberg is not here. Senator LeMieux?

             STATEMENT OF HON. GEORGE S. LeMIEUX, 
                   U.S. SENATOR FROM FLORIDA

    Senator LeMieux. Thank you, Mr. Chairman.
    Thank you all for agreeing to public service. I know that 
there are other things that you could be doing and have done 
where you could make a lot more money, and I appreciate your 
sacrifice, especially Mr. Quehl with a young family. And to 
assure you, my first grade son beats up on me, too. So you are 
not alone.
    [Laughter.]
    Senator LeMieux. He is joined by the other two sons, who 
also beat up on me.
    Let me start with you, Mr. Kumar, if I may? I appreciate 
your passion for trade. It is a big deal for my home State of 
Florida. We have about $53 billion worth of trade a year, and 
we are very interested in Florida in getting these free trade 
agreements pursued by this Congress and the Administration, 
hopefully, pursuing them.
    So I want to speak to you specifically about what role you 
will play, and will you be an advocate for the consideration of 
the Colombia, the Panama, and the Korea free trade agreements? 
It would mean a lot to Florida in our trade and creating jobs 
for our state.
    Mr. Kumar. Thank you, Senator LeMieux.
    For anyone who has been involved in business, open markets 
and access to markets is what we dream about and live every 
day, and that is precisely why I am so excited with the 
possibility, if confirmed by you and the Senate, to take over 
the job of DG of U.S. Commercial Services.
    Also, as a businessman, I have learned it is very important 
not only to support those trade agreements and have open access 
to markets, but it is equally important to make sure that 
American business interests are protected by way of free and 
fair trade, and that is something I will work across different 
Government agencies, work with Members of Congress, and work 
with my colleagues in Commerce to make sure happens.
    Senator LeMieux. Thank you very much. Thanks for your 
advocacy on that.
    Also just one more comment to you before I move to Mr. 
Quehl. Your Commercial Service does a great job, and I have 
encountered them overseas in the embassies and how they are 
bringing in businesses. But one thing that we have learned, Mr. 
Chairman, from previous hearings that we have had, is that not 
enough of our small business people know about the good work 
that you do in connecting them with foreign businesses.
    So anything that you can do to be an educational conduit to 
small businesses--we have 1.9 million small businesses in 
Florida--we would really appreciate that. They need to get the 
good word out that you can hook them up with customers 
overseas. So I appreciate your work on that as well.
    Mr. Quehl, I liked your comments about the role of a CFO 
being beyond the ledger and to make Government better. As you 
know, the American Recovery and Reinvestment Act put a lot of 
money in your agency, $8 billion, to be spent to stimulate this 
economy. But not much of that has been spent--from what I am 
told, 5.46 percent, $432,000 at the Department of Commerce.
    So could you speak to what role you will play to try to 
advance those funds as quickly as possible so that we can help 
Americans who are struggling in this difficult recession?
    Mr. Quehl. Thank you, Senator.
    Having been raised in Wisconsin, a State that relies on its 
manufacturing base, and understanding the pain that the 
manufacturing sector is taking right now, having friends from 
high school who lost jobs, we are concerned about losing jobs. 
I fully understand the imperative at a very visceral level of 
moving those funds through quickly--quickly and prudently and 
transparently.
    I am not familiar, having with these specific numbers at 
present, but will get on top of that, should I be confirmed, 
the first day I take the post. What I would say is there is a 
commitment to moving those monies out. There is a commitment to 
doing so in the spirit and fact and systems of transparency and 
prudence, and it would be my commitment to not only undertake 
that and manage that, but to work closely with you and members 
of this Committee for a full understanding of how and how well 
those ARRA resources are being invested.
    Senator LeMieux. OK. Thank you very much.
    Mr. Coyle, you have been a critic, an outspoken critic of 
the ground-based missile defense system in the past. You said 
in April of 2008 that the GMD system had no demonstrated 
effectiveness to defend U.S. or Europe under realistic 
operational conditions.
    My question to you is do you believe that in this new role 
that you fulfill that you will have, as part of that role, 
advising the President or the Administration on ground-based 
missile defense? It could be that this is out of the scope of 
this job. And if it is, then I won't have any other questions. 
But if it is not, then I may have one more.
    Mr. Coyle. I might be asked--Senator LeMieux, I might be 
asked scientific or technical questions about missile defense, 
including the ground-based system. I wouldn't have a role in 
determining operationally when, if, or how it would be 
deployed. That would be up to the Pentagon, of course, to the 
Missile Defense Agency. Nor would I have a role in terms of the 
policy, of whether we should do it this way or that way, if it 
was not a scientific or technical matter.
    As for my comments in the past, President Obama has said 
that as long as we face a threat from ballistic missiles, we 
should have ballistic missile defenses and work to improve 
them, and I support that position. And myself, publicly on a 
number of occasions, I have said that even if there were no 
threat from North Korea or Iran, I would support research and 
development in missile defense if for no other than to avoid 
technological surprise.
    If the day comes that we have to depend on missile 
defenses, we hope that never comes, that never happens. But if 
such a day should come, we want them to be effective. We want 
them to work. And the military environment would be very 
hostile. Nuclear weapons, we are talking about. And so, part of 
the reason why I have encouraged a better testing program and 
other measures for missile defense is because I recognize that 
the military environment in actual use would be so stressing.
    Senator LeMieux. Mr. Chairman, my time has expired. Thank 
you very much.
    The Chairman. Thank you, Senator.
    Senator Thune?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman.
    I, too, want to thank our nominees for their public service 
in the past and willingness to do it in the future and the 
contributions that your families make, too. I know that any 
time you enter into the realm of public service, it is a family 
commitment. So we appreciate those who are here today and those 
who support you back in your homes.
    I want to welcome Commissioner Coyle. Harking back, I have 
got BRAC tattooed on my brain, like Senator Hutchison perhaps 
does, too, and I want to compliment you on the good judgment 
you exercised during the BRAC process, by the way.
    [Laughter.]
    Senator Thune. I do want to piggyback on Senator LeMieux's 
question, though, and get a little more into this issue. Maybe 
we would have a difference of opinion, but you have said, and I 
guess this is from testimony earlier this year in front of the 
House Armed Services Committee that--or that you wrote that, 
``it is clear that the ground-based missile defense system and 
the U.S. missile defense system proposed for Europe require 
challenging and realistic testing before Congress and the 
Administration can determine if those systems can be 
operationally effective.''
    Now what Admiral Mullen, Chairman of the Joint Staff, has 
said that--and this was in testimony before the Armed Services 
Committee--that ``I believe United States has a viable initial 
operational capability, that we are maturing the system toward 
a full operational capability.'' And then earlier this year, at 
a hearing before the Senate Armed Services Committee, Admiral 
Keating, who is the PACOM combatant commander, testified that 
he believed the United States had a high probability of 
intercepting an intercontinental ballistic missile aimed at the 
United States by North Korea.
    And I guess the question I have is how do you reconcile 
sort of your view, assessment of the operational effectiveness 
of the ground-based missile defense system with the statements 
that are being made by some of our military leadership 
combatant commanders?
    Mr. Coyle. Senator Thune, nice to see you again also.
    With respect to my testimony, for example, before the House 
Armed Services Committee, one of the things I was trying to 
bring out there was that, in some cases, our missile defenses 
have not been tested under rather benign military 
environments--forget about the most stressing military 
environments--that those systems might face.
    For example, you would like to see the ground-based system 
tested at night. Hasn't been done yet. Why is that important? 
Because at night, when the sun is not shining on the enemy's 
missile that is coming toward you, it is colder and it is 
harder for the infrared sensors to see it.
    So I brought out in that testimony a number of different 
examples--bad weather, different examples, I won't try to go 
through them all here--but of things that I thought still 
needed to be done that could be really crucial in a time of 
war. With respect to nuclear environments, the Pentagon has 
pointed out that some of these systems are not hardened as yet. 
And so, those were the kinds of things that I was trying to 
bring out.
    Senator Thune. And in that testimony before the House Armed 
Services Committee, and this was earlier again this year, you 
wrote of the need to increase testing, which you just 
mentioned, for ballistic missile defense systems, including the 
ground-based mid-course defense system. And yet the Missile 
Defense Agency Director, General O'Reilly, testified this year 
before Congress that the Missile Defense Agency was moving away 
from conducting two ground-based missile defense tests per year 
to one test every 9 months.
    What is your view of this new, slower rate of testing, and 
do you assess that the Missile Defense Agency has the ability 
to conduct at least two ground-based missile defense flight 
tests per year?
    Mr. Coyle. Senator, I am pleased to be able to say that 
General O'Reilly and I have--go back a long way and have worked 
very well together in the past. When I was in the Pentagon, he 
was running the THAAD program, and we worked together to 
improve that program, and it is much better today than it was 
back in the late 1990s.
    These tests, especially the tests to the ground-based 
system, are very expensive, very complex. It takes the analysts 
who have to look at all the data from these tests a long time. 
General O'Reilly has told me a year sometimes it takes to 
analyze all the data from a test. And so, for these reasons, 
cost and complexity and all, it is very difficult to do even 
two tests a year.
    Would I like to see two tests a year? Yes. And so, I think, 
would General O'Reilly. But as a practical matter, especially 
given all the other priorities, it is difficult to do.
    Senator Thune. One final question, Mr. Chairman, if I 
might? And that has to do with an agreement in May. We agreed, 
I should say, to a negotiating agenda at the U.N. conference on 
disarmament that commits the U.S. to a treaty on the prevention 
of an arms race in outer space. I think we need to understand 
the scope of the impact that that kind of a treaty could have 
on our defense and U.S. defense programs.
    And I would ask you--and you don't have to do this now, but 
if you could furnish this--to identify for the Committee those 
U.S. defense systems that currently are in the field or in 
development that might directly or indirectly be used to 
support an anti-satellite capability. Is that a list that we 
could----
    Mr. Coyle. Senator, yes. I believe--I don't have that at my 
fingertips, but I believe that is something that we could 
provide for the record. And as I mentioned in my opening 
statement, I see part of my job, if I were confirmed, to make 
sure that new treaties we enter into, that the country may 
enter into, have adequate verification provisions.
    Senator Thune. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Thune.
    I will just--unless there are other questions, I didn't ask 
two of you questions. So I want to do that, and then Senator 
Lautenberg is on his way back. And then he will handle the 
three additional nominees.
    Mr. Quehl, you say--you used the phrase ``an opportunity 
for transformation.'' And you used this in terms of over half 
of the Federal workforce eligible for retirement, is probably 
going to take that retirement.
    Now there is a conundrum here because, actually, people are 
looking to Government because they can't find work. People are 
looking to the armed forces because they can't find work. 
Applications for the Peace Corps and for the CIA, two ends of 
the spectrum one might say, have never been greater in 
amplitude or in quality than they are in these last couple of 
years.
    So people are clearly seeking something, certainly a job, 
but more importantly, something which is meaningful to them. 
Nevertheless, if you lose half of your workforce, the Federal 
workforce, and so I am just going to slop that over to include 
the Commerce Department, and you talk about an opportunity for 
transformation. I am inspired by that, but I am not clear as to 
what you mean by that.
    Mr. Quehl. Thank you, Chairman.
    Mr. Chairman, the challenges and opportunities are often, 
as the saying goes, are presented at the same time. We have--in 
my brief interactions with the staff, the career staff at the 
Department of Commerce, I am impressed by their commitment, by 
their professionalism, by their passion to achieve their 
missions and to help them affect people's lives for the better.
    As a matter of fact, when half of one's department's 
workforce, particularly at the scale we are discussing, are 
eligible to retire and one takes a view beyond just one year, a 
multi-year view, one looks at what can be done to find the 
best--the next generation of the best and the brightest with a 
similar passion for public service, particularly at this time 
where there are so many with such high qualifications seeking 
these positions.
    Beyond hiring people, there is a question of how can 
processes be fundamentally reinvented? How can technologies be 
used so that perhaps even better levels of service and results 
for the American people could be achieved with very different 
staffing configurations? And third, I believe that through the 
connection of mission to goals through program--through 
evaluation of programs and budgeting that the Secretary and 
Deputy Secretaries are committed do, I do believe that we will 
have an opportunity to take a fresh set of eyes and to look at 
transformation, both through the way we hire and motivate and 
work with our career employees, and through the ways we invest 
in technology and better processes to achieve better results.
    The Chairman. One of the reasons I asked that is because 
you can have changes at the top, as we are talking about here, 
but the people who have been in service for decades have 
developed a certain way of doing things. In the meantime, the 
world has changed. The way of interagency cooperations have, 
for the most part, not changed.
    So what you are saying is that, I guess, as you are able to 
bring in younger people and more seasoned professionals, who we 
desperately need because younger people don't have that 
experience yet, they will grow into their positions very 
quickly because they will have to learn a lot of policy very 
fast.
    Mr. Quehl. Yes, Mr. Chairman. I might add that there may be 
different ways of achieving the same ends. There may be the 
issue of how to motivate, change the psychology of people in 
rural areas, that question that you had raised earlier. How 
would we staff, and how would we use technology, and how we 
could manage our facilities in a way that would bridge that gap 
between hard-working people who want a chance to compete and 
succeed in the global economy and a Government program and 
staff and resources able to help bridge that gap to help them 
do it?
    That may be a question of managing the same people 
differently, training the same people differently. It may be a 
question of finding, of bringing in others who would handle 
that proactively and differently. It may be a question of using 
technologies to do it differently. But this is, it is a 
remarkable time with all the challenges we have to consider how 
to do things differently and better on behalf of the American 
people.
    And I look forward, if I am confirmed, to working with you 
and this Committee in achieving that.
    The Chairman. Thank you. I have one more quick question.
    Mr. Coyle, I have a question for you. We are very partial 
here in this Committee to the National Oceanic and Atmospheric 
Administration. They are very large. They are not very well 
known. They are extraordinarily important when it comes to 
their ordinary functions as well as the whole matter of climate 
change.
    Acquisitions and management of critical environmental 
satellites is an issue. My question of you is would you support 
independent cost estimates for the procurement of satellite 
systems?
    Mr. Coyle. Mr. Chairman, the question of the planning, the 
budgeting, the acquisition, the maintenance of the management 
of a large capital asset acquisition is essential I would say 
throughout the Federal Government and certainly within the 
Department of Commerce, be it in NOAA or other bureaus.
    The scale of these investments is so large that managing 
them right--getting it not right with respect to the numbers or 
the management could have huge implications in terms of the 
overall department budget and ability to achieve its mission 
and the impacts it may have on other programs.
    So the issue of having faith in cost estimates, faith in 
the order and method of planning and managing that position of 
these programs certainly would be, if I am confirmed, a top 
priority of mine. I know it is an essential priority of the 
Secretary and the Deputy Secretary. I had an opportunity to 
discuss this with the Deputy Secretary already at some length, 
and with respect to independent assessment and analysis of 
cost, I would beg the Committee's and your indulgence in terms 
of some time to consider that, how best to structure that.
    But if the essence of the question is how do we have faith 
in those numbers and the application of those numbers to sound 
financial management within the bureau and within the 
department as a whole, I am absolutely committed to that and 
would look forward to working with you and other Members of the 
Committee on that subject.
    The Chairman. That is good. I only asked that question 
because I serve on the Intelligence Committee, and it is 
absolutely mind-boggling the complete difference between the 
reality of the guesstimate or the official estimate of what 
something will cost and what it actually turns out to be 7 
years later.
    Mr. Coyle. Yes.
    The Chairman. When it finally isn't ready to take off. So 
there is a lot of heat behind that question.
    Mr. Coyle. Yes.
    The Chairman. And I hope you will take it seriously, and I 
am sure you will.
    Mr. Coyle, it is interesting to me. You are really the 
first person in almost a decade to be put up for the position 
that you have been nominated for because Mr. Holdren has a 
number of people who work with him, and some of those positions 
haven't been filled. There are four of you that are going to be 
nominated and hopefully approved for these positions in working 
with Mr. Holdren, Dr. Holdren.
    I am enormously interested, as is Olympia Snowe on this 
Committee and many others on this Committee and everybody who 
has their head properly placed, in cyber security. It is 
according to both President Bushes, the last President Bush's 
DNI and Obama's DNI, Director of National Intelligence, the 
greatest national security threat facing our Nation. This is 
quite extraordinary for something which was DARPA-invented some 
years ago. It was unfamiliar to people for a long time and now 
all of a sudden, it is the top national security threat because 
people can undo you gradually, dangerously, lethally, in so 
many ways so easily and never be detected in many case.
    So the question of how you do cyber security, how you go 
with that, and the question of climate change, there is so much 
that heaps itself on top of you, should you be confirmed, which 
I hope you will be, and it will be difficult for you because, 
again, there has not been a person in your position for a 
while.
    So if you could just make a brief comment on each, cyber 
security and climate change, I would be grateful.
    Mr. Coyle. Yes, sir. Senator, you raised two really 
important topics, and I appreciate your leadership in both of 
them. With respect to the cyber security issue, I am not yet 
privy to the intelligence information that you are, but if I am 
confirmed, I will be, and I believe that will help me 
understand better what to do.
    But one doesn't need to be privy to this intelligence 
information. Just last week, we all saw the news in the 
newspaper of where criminals were emptying out bank accounts, 
millions of dollars worth of bank accounts because of cyber 
security breakdowns. So, obviously, for national security 
purposes, we just cannot permit such a thing. We can't permit 
those kinds of breakdowns, and it is something that I expect I 
would have to devote a considerable amount of attention and 
effort to if I am confirmed.
    With respect to climate change, again, I very much 
appreciate your leadership in helping the Nation understand 
what an enormous asset coal is. I regard energy security and 
national security as one and the same. I don't think they are 
separable. And an important part of that, making the best use 
of America's coal resources, is going to be developing 
technologies to be able to use them cleanly.
    In that regard, I think carbon capture and--carbon 
sequestration and capture is going to be very important. There 
are demonstration projects moving forward, such as the 
Mountaineer Project in your state and other projects I am aware 
of in California. There are probably others I don't know about 
yet. Those kinds of projects, I think, are going to be really 
crucial in helping us make the best use of the wonderful coal 
resources we have.
    The Chairman. I thank you for that. One of my concerns, 
then I really promise to stop, is that we too often, sometimes 
in the Senate--or I should say even in the Senate--we legislate 
on things that we don't fully understand. And I think cyber 
security automatically qualifies for that because it is really, 
more or less, a new word to most people, not totally in this 
body, but to some extent in this body. But generally across the 
country, it is a mysterious word, even as it is very 
dangerous--and has dangerous potential.
    In the matter of climate change, everything seems to be 
based on--you say the word ``cap and trade.'' And if you are 
for ``cap and trade'' in a coal state that you are a bad guy. 
If you are for it, elsewhere you are a good guy.
    And yet I would wager you that more than 50 percent of the 
members of the U.S. Senate couldn't give you a decent 
explanation of what ``cap and trade'' meant and what it did and 
how it works, much less the people in the states who are going 
to be affected and especially the coal states, most 
importantly, by this. And that is an enormous challenge I think 
to all of this is to speak in language which is clear and 
direct to people who mine coal and who produce coal, et cetera, 
and burn it.
    The producers and the burners will probably understand it, 
but the folks who mine it may not. And therefore, they will be 
afraid of it. And there isn't actually always necessarily a 
reason for them to be afraid, because it can work for coal. But 
anyway, it is just part of the excitement, I think, of the 
challenge that faces you.
    I apologize to both of my colleagues and for going on for 
so long and now would ask Senator Lautenberg--do you have any 
more questions of this panel?--to come over here and introduce 
our three next nominees.
    Senator Lautenberg. I am honored, and I report for duty.
    The Chairman. All right.
    Yes, thank you all very, very much. Very much. Mark, you 
take good care of your father.
    Senator Lautenberg [presiding]. Welcome. I know when there 
is a good show people linger on, but now we have substantially 
reduced the size of the crowd. Don't take that as a personal 
thing. It is me, really, that is----
    And this is a position that this will be considered in the 
final analysis the coup d'etat. I have taken over. I have got 
the Chairman's seat. And by the way, this is a special seat. 
So, seriously, it is because Senator Rockefeller has had a 
problem with his leg, and so the chair is nice.
    [Laughter.]
    Senator Lautenberg. Anyway, on the serious side, I couldn't 
stay for the other panel, but I particularly was focused on 
this panel because it has so much relevance to the subject that 
sits right in front of us. Particularly coming from our 
Northeast corner with the crowding and the desperate need that 
we have for getting, finding ways to reduce the traffic 
congestion and better environmental condition, less dependence 
on foreign oil and giving people a chance to know that, for the 
most part, they can arrive at their destinations on time, 
regardless of weather, and not having to go to an airport where 
they are competing for space with people going to lots of 
different places.
    And we have seen some pretty good development at Amtrak 
over the years, and we are pleased to have the two of you who 
are seeking seats on the Amtrak board.
    And Mr. Rosekind, you come with a lot of experience, and we 
need the kind of skills that you have developed on the reviews 
of what is happening on our National Transportation Safety 
Board to make sure that if accidents do happen, we learn enough 
to try to prevent them from happening in the future.
    So let me just take 1 second, and we are ready now. Mr. 
Coscia, do you want to take your 5 minutes or 3 minutes? What 
do we--5? OK, that is because they knew I had the influence.

  STATEMENT OF ANTHONY R. COSCIA, DIRECTOR-DESIGNATE, AMTRAK 
                       BOARD OF DIRECTORS

    Mr. Coscia. Thank you, Senator.
    Senator Lautenberg. Please make your statement.
    Mr. Coscia. Let me begin by recognizing that Chairman 
Rockefeller admonished the earlier panel if they failed to 
introduce any family members that were in attendance. So not 
wanting to suffer the fate that Chairman Rockefeller suggested 
would happen, I do want to mention that my daughter, Christine, 
who is a senior at Georgetown, is here with us today. My son, 
Joseph, is also at Georgetown and tried to use this hearing as 
an excuse not to take an exam at 2:30 p.m., but I chose rather 
to have him stay in place. But Christine is representing our 
family.
    Senator Lautenberg. OK. She is welcome here, and you might 
see something around here that you would like to have more 
contact with on a regular and permanent basis. We always are 
looking for inspired young people who want to come to 
Government. So welcome.
    Mr. Coscia. Thank you, Senator.
    And I also wanted to thank you and Senator Menendez for 
your gracious introductory remarks and for providing me with 
the support and encouragement during this nomination process.
    I am deeply honored that President Obama has nominated me 
to serve on the Board of Amtrak. If confirmed, I commit to 
bringing my experience, both as a lawyer in the private sector 
and a long-standing public servant in my home State of New 
Jersey to the service of Amtrak's board.
    Today, I would like to briefly discuss my qualifications 
and explain what I believe are some of the principal issues 
facing the Amtrak Board, and I would like to use the remainder 
of the time, obviously, to answer your questions or any of your 
colleagues' questions on matters that are so critical to 
supporting our Nation's passenger rail transportation system.
    I received my undergraduate degree from Georgetown 
University School of Foreign Service and my law degree from 
Rutgers University School of Law. For the past 25 years, I have 
been affiliated with the firm of Windels Marx Lane & 
Mittendorf, one of New York City's oldest law firms. I have 
been a partner at Windels Marx since 1990 and a member of the 
firm's Executive Committee since 1994.
    My practice focuses on corporate, commercial, and real 
estate transactions, with a concentration on the financial 
elements of those transactions. I have considerable public 
sector experience relating to economic development and 
transportation and, in particular, the rail business.
    Since April 2003, I have served as Chairman of the Board of 
Commissioners of the Port Authority of New York and New Jersey. 
The Port Authority manages, as you know, some of the Nation's 
most critical transportation facilities, including three major 
commercial airports, four port facilities, and six interstate 
bridges and tunnels. As Chairman, I have had broad oversight 
responsibility in connection with the Port Authority's varied 
businesses and the implementation of its annual $6.5 billion 
capital and operating budget.
    One of my major initiatives has been to strengthen the 
agency's governance principles. In 2007, I led the first major 
effort at the Port Authority in 26 years to amend the agency's 
bylaws, and those amended and restated bylaws include a variety 
of measures intended to enhance the Port Authority's 
transparency and strengthen its management and accounting 
controls.
    Of particular relevance to my nomination, the Port 
Authority operates the PATH commuter rail system. PATH 
transports approximately 230,000 riders each weekday between 
New York and New Jersey. During my tenure as Chairman, the Port 
Authority has dedicated over $3 billion to overhauling the 100-
year-old PATH system. This includes replacing the entire fleet 
of PATH rail cars, replacing the signal system, and modernizing 
all 13 PATH rail stations, as well as enhancing the safety and 
security of the entire system.
    Beyond my current role at the Port Authority, I also have 
served as a director and audit committee member of other public 
agencies. From 1992 to 2003, I was the Chairman of the New 
Jersey Economic Development Authority, one of the largest 
State-sponsored development banks in the United States.
    I am excited about the possibility of serving as an Amtrak 
Director because I believe America's global competitiveness 
requires expanding overall transportation capacity and 
providing meaningful alternatives to the Nation's prevailing 
transportation modes. Based on my experience at the helm of a 
public agency that operates rail, airports, and bridges and 
tunnels, I strongly believe that a vibrant, competitive, and 
comprehensive passenger rail system is a critical component of 
a 21st Century multimodal transportation system.
    The benefits of such a system are numerous. It would 
improve the mobility of our Nation's congested highways and 
roadways, reduce energy consumption, and result in improved air 
quality and lower greenhouse gas emissions. Rail stations can 
also serve as magnets for higher-density and compact transit-
oriented development, resulting in further environmental 
benefits.
    I recognize that Amtrak faces a number of challenges in 
realizing this goal. Among the most significant challenges is 
securing a stable funding source. Maintaining sufficient levels 
of funding for Amtrak would enable it to develop a long-term 
capital investment plan and would ultimately result in better, 
more comprehensive passenger rail service.
    Another major challenge is maintaining the transparency and 
accountability of Amtrak's Board and its management staff. In 
order to gain the trust of the general public and the Congress, 
Amtrak's leadership, including its Board, must make every 
effort to conduct itself and its business in a transparent 
manner.
    If confirmed as an Amtrak Board Member, my principal 
responsibilities would include helping establish Amtrak's 
management and accounting controls and monitoring whether 
Amtrak staff's financial management and operational decisions 
are in compliance with those controls. I would discharge these 
responsibilities through my attendance at board meetings and 
through frequent interaction and consultation with the Amtrak 
executive staff.
    Should I have the privilege, Senator, of this Committee's 
endorsement and the confirmation of the full Senate, I pledge 
my best efforts to serve the public and the entire Amtrak team. 
I also pledge my full responsiveness to the members and staff 
of this Committee, the entire Senate, as well as the House of 
Representatives.
    Thank you for giving me an opportunity to speak, and I 
pleased to answer any questions.
    [The prepared statement and biographical information of Mr. 
Coscia follows:]

     Prepared Statement of Anthony R. Coscia, Director-Designate, 
                       Amtrak Board of Directors
    Chairman Rockefeller, Ranking Member Hutchison, and other members 
of the Committee, I appreciate this opportunity to appear before you 
today. Thank you, Senators Lautenberg and Menendez, for your gracious 
introductory remarks and for providing me with support and 
encouragement throughout the nomination process. I am deeply honored 
that the President has nominated me to serve on the Amtrak Board of 
Directors. If confirmed, I commit to bringing my experience, both as a 
lawyer in the private sector and as a longstanding public servant in my 
home state of New Jersey, in the service of Amtrak and its Board.
    Today I would like to briefly discuss my qualifications and explain 
what I believe are some of the principal issues facing the Amtrak 
Board. I would like to use the remainder of today's session to hear 
from you which issues and matters you believe are most critical for our 
Nation's passenger rail transportation system.
    I received my undergraduate degree from the Georgetown University 
School of Foreign Service and my law degree from the Rutgers University 
School of Law. For the past 25 years, I have been affiliated with 
Windels, Marx, Lane & Mittendorf, LLP, one of the New York region's 
oldest law firms. I have been a partner at Windels Marx since 1990 and 
a member of the Firm's Executive Committee since 1994. My practice 
focuses on corporate, commercial and real estate transactions, with a 
concentration on the financial elements of those transactions.
    I have considerable public sector experience relating to the travel 
and transportation industries, and the rail business in particular. 
Since April 2003, I have served as Chairman of the Board of 
Commissioners of the Port Authority of New York and New Jersey. The 
Port Authority manages some of the Nation's most critical 
transportation facilities--including three major commercial airports, 
four port facilities, and six interstate bridges and tunnels. As 
Chairman, I have broad oversight responsibility in connection with the 
Port Authority's varied businesses and implementation of its annual 
$6.5 billion capital and operating budget. One of my major initiatives 
has been to strengthen the agency's governance and ethics principles. 
In 2007, I led the first major effort at the Port Authority in 26 years 
to amend the agency's by-laws; the amended and restated by-laws include 
a variety of measures intended to enhance the Port Authority's 
transparency and strengthen its management and accounting controls.
    Of particular relevance to my nomination, the Port Authority 
operates the PATH commuter rail system. PATH transports approximately 
230,000 riders each weekday between New York and New Jersey. During my 
tenure as Chairman, the Port Authority has dedicated $3.3 billion to 
overhauling the 100-year-old PATH system. This includes replacing the 
entire fleet of PATH rail cars, replacing the signal system, 
modernizing all 13 PATH stations, and enhancing the safety and security 
of the entire system.
    Beyond my current role at the Port Authority, I also have served as 
a director and audit committee member of other public agencies. From 
1992 to 2003, I was Chairman of the New Jersey Economic Development 
Authority, one of the largest state-sponsored development banks in the 
United States.
    I am excited about the possibility of serving as an Amtrak director 
because I believe America's global competitiveness requires expanding 
overall transportation capacity and providing meaningful alternatives 
to the Nation's prevailing transportation modes. Based on my experience 
at the helm of a public agency that operates rail, airports, and 
bridges and tunnels, I strongly believe that a vibrant, competitive, 
and comprehensive passenger rail system is a critical component of a 
21st Century multi-modal transportation system. The benefits of such a 
system are numerous: it would improve mobility on our Nation's 
congested highways and roadways; reduce energy consumption; and result 
in improved air quality and lower greenhouse gas emissions. Rail 
stations can also serve as magnets for higher-density and compact 
transit-oriented development, resulting in further environmental 
benefits.
    I recognize that Amtrak faces a number of challenges in realizing 
this goal. Among the most significant challenges is securing a stable 
funding source. Maintaining sufficient levels of funding for Amtrak 
would enable it to develop a long-term capital investment plan that 
would ultimately result in better, more comprehensive passenger rail 
service. Another major challenge is improving the transparency and 
accountability of Amtrak's board and management staff. In order to gain 
the trust of the general public and Congress, Amtrak's leadership, 
including its Board, must make every effort to conduct itself and the 
business of the agency as transparently as possible.
    If confirmed as an Amtrak Board member, my principal 
responsibilities would include helping to establish Amtrak's management 
and accounting controls and monitoring whether Amtrak staff's 
financial, management and operational decisions are in compliance with 
those controls. I would discharge these responsibilities through 
attendance at Amtrak board meetings and through regular interaction, 
consultation and dialogue with Amtrak executive staff.
    Should I have the privilege of this Committee's endorsement and 
confirmation by the full Senate, I pledge my best efforts to serve the 
President and his Administration, and the entire Amtrak team. I also 
pledge my full responsiveness to the members and staff of this 
Committee, and to the entire Senate as well as House of 
Representatives.
    Thank you again for inviting me to speak with you today. I would be 
pleased to answer any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Anthony R. 
Coscia.
    2. Position to which nominated: Director, National Railroad 
Passenger Corporation (Amtrak).
    3. Date of Nomination: November 10, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 156 West 56th Street, New York, NY 10019.

        120 Albany Street Plaza, New Brunswick, NJ 08901.

    5. Date and Place of Birth: 09/09/59; Paterson, NJ.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Alice Coscia, Substitute School Nurse, North Caldwell 
        and West Essex Schools, New Jersey; children: Christine Coscia, 
        21; Joseph Coscia, 19; Stephen Coscia, 17; Elizabeth Coscia, 
        15; Marissa Coscia, 13.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Rutgers University School of Law (J.D., 1984).

        Georgetown University School of Foreign Service (B.S.F.S., 
        International Economics, 1981).

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Associate Attorney, Windels Marx Davies & Ives, 156 West 56th 
        Street, New York, New York 10019. General corporate, commercial 
        and real estate practice. 1984-1990.

        Partner, Windels Marx Lane & Mittendorf, LLP, 156 West 56th 
        Street, New York, New York, 10019. Member of the firm as a 
        partner in the general corporate, commercial and real estate 
        groups. 1990-1991 and 1992-Present.

        Executive Director, New Jersey Economic Development 
        Corporation, 36 West State Street, Trenton, NJ 08625. Chief 
        Executive Officer. 1991-1992.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        Governor's International Trade Commission, Commissioner, 1990-
        1994.

        New Jersey Economic Development Authority, Chairman, 1992-2003.

        New Capital Sources Partnership Board, Director, 1996-1997.

        NJ Governor's Export Advisory Council, Director, 1996-1997.

        NJ Schools Construction Corporation, Chairman, 2002-2003.

        Camden Economic Recovery Board, Director, 2002-2003.

        Budget Efficiency Savings Team, Chairman, 2002.

        Essex County Government Review Task Force, 2005-2007.

        Port Authority of New York and New Jersey, Chairman, Board of 
        Commissioners, 2003-Present.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Regent, Georgetown University.

        Trustee, NJN Foundation.

        Trustee, Cerebral Palsy of North Jersey.

        Trustee, Liberty Science Center.

        Council of Trustees, New Jersey Performing Arts Center.

        Director, Marcal Paper Mills, Inc.

        Director, Motor Coach Industries International, Inc.

        Director, Interchange Financial Services Corporation and 
        Interchange Bank.

        Advisory Board, Advance Realty Group.

        Advisory Board, PNC Bank, NJ.

        General Counsel, NJ World Trade Council.

        Director, Ryan Beck & Co.

        Trustee, New Jersey Community Development Corporation.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.


        Member, National Association of Industrial and Office 
        Properties. 03/04 to present.

        Member, Partnership for New York City, 04/07 to present.

        Member, New Jersey Alliance for Action, 1998 to present.

        Member, Economic Club of New York, 2008 to present.

        Member, Georgetown University Board of Regents, 2007 to 
        present.

        Member, Rutgers University Business Council, 2005 to present.

        Member, Fannie Mae Regional Partnership, 2000 to present.

        Trustee, Cerebral Palsy of North Jersey, 2004 to present.

        Director, New Jersey Community Development Corporation, 2007 to 
        present.

        Member, New Jersey Performing Arts Center Council of Trustees, 
        2006 to present.

        Director, Liberty Science Center, 2006-2008.

        Trustee, New Jersey Network Foundation, 2001 to present.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

------------------------------------------------------------------------------------------------------------------------------------------------
2/2/99                      $2,000   Senate Democratic Majority
2/25/99                     $1,000   Torricelli for U.S. Senate
5/11/99                     $1,000   Menendez for Senate
7/9/99                      $1,000   Whitman for U.S. Senate
10/4/99                     $1,500   Middlesex County Democratic
                                      Organization
12/27/99                    $1,000   Florio for Senate
3/24/00                     $1,000   Corzine 2000 Inc.
3/30/00                     $1,000   Florio for Senate
4/18/00                     $1,000   The Senator Kyrillos Committee
6/12/00                       $500   New Jersey Democratic State
                                      Committee
7/14/00                       $600   Senate Democratic Majority
                                      Committee
9/6/00                      $5,000   New Millennium PAC
11/16/00                    $1,000   McGreevey for Governor 2001
4/2/01                      $2,000   Menendez for Congress, Inc.
4/5/01                      $2,000   2001 Victory Fund for James
                                      McGreevey
4/20/01                     $1,000   Menendez for Senate
6/19/01                       $600   Senate Democratic Majority
                                      Committee
7/19/01                     $2,000   The Middlesex County Democratic
                                      Organization
7/23/01                       $500   The Senator Kyrillos Committee
8/20/01                     $1,000   Menendez for Congress
9/26/01                     $5,000   New Millennium PAC
10/19/01                      $500   Hunterdon County Democratic
                                      Committee
11/29/01                    $1,000   Corzine Committee
4/18/02                     $2,500   New Millennium PAC
5/13/02                     $1,000   Torricelli for Senate
5/28/02                     $2,500   HCDL Leadership Fund
7/22/02                       $500   The Senator Kyrillos Committee
7/26/02                     $2,000   Committee to Elect Reiman
9/10/02                     $5,000   New Millennium PAC
4/9/03                      $2,000   Congressman Menendez
5/9/03                      $2,500   Senate Democratic Majority
5/21/03                     $2,000   Congressman Menendez
9/24/03                     $5,000   New Millennium PAC
11/5/03                       $500   The Election Fund of John S.
                                      Wisniewski
12/9/03                     $1,000   Senate Democratic Majority
3/22/04                     $1,000   Steve Rothman for Congress, Inc.
4/5/04                      $1,250   Senate Democratic Majority
4/7/04                      $2,000   New Millennium PAC
5/12/04                     $3,000   New Millennium PAC
6/2/04                      $2,000   Hoboken Democratic Party
6/29/04                     $3,000   NJ Democratic State Committee
10/1/04                     $3,000   New Millennium PAC
10/11/04                    $1,500   Election Fund of Richard J. Codey
10/12/04                    $3,000   Middlesex County Democratic
                                      Organization
10/14/04                    $5,000   Bergen County Democratic
                                      Organization
11/29/04                      $750   Senate Democratic Majority
3/28/05                     $1,000   Lautenberg 20 Years Committee
4/5/05                      $3,000   Menendez for Congress
6/14/05                     $1,000   Quinn for Council 2005
9/22/05                       $500   Sires for Congress
9/27/05                     $2,500   Democratic National Committee
12/9/05                       $750   Senate Democratic Majority
------------------------------------------------------------------------


    These contributions include partnership contributions, when 
appropriate, by my firm Windels Marx Lane & Mittendorf, LLP.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Honorary doctorate of humane letters from the New Jersey 
        Institute of Technology.

        2008 Jewish National Fund's Tree of Life Award.

        2008 Rutgers University School of Law--Distinguished Alumnus 
        Award.

        2008 March of Dimes 32nd Annual Transportation and Construction 
        Awards--Service to Humanity Award.

        2007 Newark Regional Business Partnership Transportation Leader 
        of the Year Award.

        2007 Institute for Social Justice Corporate Leadership Award.

        2006 Building Trades Employers Association Annual Leadership 
        Award.

        2004 New Jersey Alliance for Action Eagle Award.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        Speech, New Jersey Alliance for Action--Annual Governor's 
        Transportation Conference, April 13, 2009.

        Speech, Princeton University Woodrow Wilson School of 
        Government, ``Transportation and Infrastructure Issues for the 
        Next Decade,'' March 6, 2009.

        Infrastructure Unworthy of a Superpower, The Star Ledger, 
        (Newark, New Jersey), November 10, 2008, Editorial.

        Speech, Saint Peter's College Board of Regents 37th Annual 
        Business Symposium, ``Leadership and Accountability in 
        Challenging Times,'' November 7, 2008.

        Speech, Crain's New York Business Breakfast Forum, April 15, 
        2008 Speech, National Association of Industrial Office Parks 
        Industrial Conference, April 2, 2008.

        It Will Take Teamwork to Ease Flight-delay Epidemic, The Star-
        Ledger (Newark, New Jersey), June 19, 2007, Editorial.

        Commencement Speech, New Jersey Institute of Technology, May 
        17, 2007.

        Lower Manhattan on the Rebound, The Record (Bergen County, NJ), 
        September 10, 2006, Opinion.

        We Won't Be Able to Get There from Here, The Star-Ledger 
        (Newark, New Jersey), July 16, 2006, Perspective.

        Speech, Crain's New York Business Breakfast, June 13, 2006.

        Concrete Partners, The New York Times, June 4, 2006, Section 
        14; Column 4; The City Weekly Desk.

        Speech, New Jersey Alliance for Action, May 10, 2006.

        Speech, Urban Land Institute, September 15, 2005.

        Be Sure of What Comes to Our Shores, The Star-Ledger (Newark, 
        New Jersey), December 22, 2004, Editorial.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    Provided oral testimony and submitted written statement for hearing 
on ``The SAFE Port Act: One Year Later,'' The U.S. Senate Committee on 
Commerce, Science and Transportation, Washington, D.C., October 4, 
2007.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have considerable public sector experience relating to the travel 
and transportation industries generally and the rail business in 
particular. As Chairman of the Port Authority of New York and New 
Jersey, I have broad policy oversight responsibility in connection with 
the agency's varied transportation businesses and $6.5 billion annual 
capital and operating budget. The Port Authority's transportation 
businesses include the busiest airport system in the world (including 
John F. Kennedy, Newark Liberty International, and LaGuardia Airports), 
four port facilities, and six interstate bridges and tunnels. Of 
particular relevance to the position for which I've been nominated, the 
Port Authority also operates the Port Authority Trans Hudson (``PATH'') 
commuter rail system. The PATH system transports approximately 230,000 
riders each weekday, and almost 75 million riders annually, between New 
York and New Jersey. During my tenure as Chairman, the Port Authority 
has dedicated significant agency resources to overhauling the 100-year-
old PATH system. The Port Authority's ten-year capital plan includes 
$3.3 billion for replacing the entire fleet of rail cars, replacing 
PATH's signal system; modernizing all 13 PATH stations in New York and 
New Jersey; and maintaining the PATH system in a state of good repair.
    The Port Authority, in partnership with New Jersey Transit, is also 
building the Access to the Region's Core project (``ARC'')--a new $8.7 
billion rail tunnel under the Hudson River and new rail station in 
midtown Manhattan. Once completed, ARC will double the commuter and 
intercity trains traveling to and from Manhattan to points westward; 
reduce congestion on local roads; result in improved air quality; and 
prompt transit-oriented development in the surrounding neighborhoods in 
New York and New Jersey.
    In addition to my specific transportation-related experience, I 
also have served as a director and audit committee member of public 
agencies other than the Port Authority, as well as closely held 
corporations in the financial services, investment banking, real estate 
and manufacturing sectors. See answer to #19 below.
    I wish to serve as an Amtrak director because I genuinely believe 
there America's global competitiveness in the years ahead requires the 
financing and development of an effective nationwide rail system. In 
the twenty-first century, the most successful economies feature 
expansive, efficient transportation systems. A national transportation 
plan requires making investments in new capital projects that expand 
overall transportation capacity and provide meaningful transportation 
alternatives to road and air travel. At a regional level, these 
alternatives include, above all, investing in a vibrant intercity rail 
system. The benefits of such a system are numerous: it would help 
relieve congestion and improve mobility on America's highways and 
airways, reduce energy consumption and result in improved air quality 
and lower greenhouse gas emissions. Rail stations also serve as magnets 
for higher-density and compact transit-oriented development, resulting 
in further environmental benefits. In short, I wish to serve on 
Amtrak's board of directors because a vibrant intercity rail system is 
critical to America's economic future, and I believe I have the 
requisite qualifications to help Amtrak achieve that goal.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    If confirmed as an Amtrak board member, my responsibilities would 
include helping to establish Amtrak's management and accounting 
controls and monitoring whether Amtrak's procedures and regulations and 
executive staffs financial, management and operational decisions are in 
compliance with such controls. I would keep apprised of best practices 
relating to management and accounting controls in the rail industry and 
advance incorporation of such controls by Amtrak. I would discharge 
these responsibilities through attendance at meetings of the Amtrak 
board of directors and regular interaction, consultation and dialogue 
with Amtrak executive staff.
    I presently serve as Chairman of the Port Authority of New York & 
New Jersey (``Port Authority''), the Nation's largest and oldest bi-
state authority. The Port Authority builds and operates some of the 
most critical transportation and infrastructure facilities in the New 
York/New Jersey region--including the PATH commuter railroad system, 
five airports, four port facilities, and six interstate bridges and 
tunnels--and promoting the region's economic vitality. it is also the 
lead public agency in rebuilding the World Trade Center after the 
September 11 terrorist attacks and, in partnership with New Jersey 
Transit, the builder of a new commuter rail tunnel under the Hudson 
River. The agency currently employs more than 7,000 individuals across 
its different lines of business and its dedicated police force. As 
Chairman, I have broad policy oversight responsibility in connection 
with the agency's varied businesses and $6.5 billion annual capital and 
operating budget. I am also responsible for advancing the mission and 
promoting the objectives of the Port Authority to the general public. I 
spearheaded the adoption of the agency's 10-year capital plan; the 
updated plan includes $29.5 billion for substantial investment in and 
expansion of the region's transportation facilities. I also led the 
first major effort at the Port Authority in 26 years to amend the 
agency's by-laws; the amended and restated by-laws include a variety of 
measures intended to enhance the Port Authority's transparency and 
strengthen its management and accounting controls. Those measures 
include the establishment of a new board-level committee dedicated to 
enhancing the governance and ethics principles of the agency.
    I am also a Partner and Executive Committee member of Windels Marx 
Lane & Mittendorf, LLP, one of the New York region's oldest law firms. 
I am also a member of the Firm's Corporate and Securities, Financial 
Transactions and Real Estate Practice Groups. My practice focuses 
primarily on corporate, commercial and real estate matters, with a 
concentration on the financial elements of these transactions. I 
represent financial institutions, investors and major corporations on a 
broad variety of matters, including corporate and real estate finance 
transactions, asset restructure and recovery, regulatory compliance, 
mergers and acquisitions and general litigation. In addition, I 
regularly advise real estate developers, private equity firms, 
technology companies, not-forprofit organizations and utilities. I also 
have specific experience in the area of redevelopment finance and have 
worked extensively on corporate governance issues.
    From February 1992 to March 2003, I served as Chairman of the New 
Jersey Economic Development Authority (``NJEDA''), one of the largest 
state-sponsored development banks in the United States. The NJEDA, with 
more than $2 billion in assets and $14 billion in financing, is charged 
with strengthening the state's economic base and renewing communities 
through business expansion and attraction, job creation and retention 
and revitalization of underutilized properties.
    I have also served as a director and audit committee member of 
several public and closely held corporations in the financial services, 
investment banking, real estate and manufacturing sectors.
    20.What do you believe to be the top three challenges facing the 
department/agency, and why?
    The top three challenges are:

        1. Securing sufficient funding for Amtrak over the long term. 
        Compared with other modes of travel like highways and aviation, 
        rail has historically been underfunded in the Federal budget 
        process and thus Amtrak has not been able to make the necessary 
        capital improvements that would result in more effective and 
        on-time service. The provision of Federal funds for Amtrak in 
        the 2008 Passenger Rail Investment and Improvement Act of 2008 
        and the 2009 American Recovery and Reinvestment Act are 
        significant advancements in developing a competitive passenger 
        rail business in the United States. Maintaining sufficient 
        levels of funding for Amtrak over the long term would enable it 
        to develop a long-term capital investment plan that would 
        ultimately result in better, more comprehensive passenger rail 
        service throughout the country.

        2. Persuading the public-at-large that commutation by rail is a 
        meaningful alternative to driving or flying for short- or 
        middle-distance travel. With the exception of the Northeast 
        Corridor and limited areas on the West Coast, intercity 
        passenger rail in the United States is not a viable option 
        because it is non-existent, unreliable, and/or inefficient. As 
        a result, commuters understandably choose to travel by road or 
        air, leading to increasing congestion on those existing 
        intercity corridors. A vibrant intercity rail system would help 
        relieve congestion on the roads and in the air, resulting in 
        higher economic productivity, fewer greenhouse gases, and less 
        reliance on foreign sources of oil. The strongest evident for 
        this is that on the few intercity routes where air travel is 
        available and Amtrak provides reliable service--e.g., between 
        New York and Washington, D.C. and between Los Angeles and San 
        Diego--rail has captured the majority of the traveling 
        population.

        3. Improve transparency and accountability of Amtrak's board 
        and management staff. In order to gain the trust of the general 
        public and Congress, Amtrak's leadership must make every effort 
        to conduct itself and the business of the agency as 
        transparently as possible. The Passenger Rail Investment and 
        Improvement Act of 2008 includes various measures that bolster 
        regulatory oversight of Amtrak. However, Amtrak's leadership 
        could undertake additional efforts to engender the public 
        trust, e.g., by advertise board meetings and making them open 
        to the public; identifying the bases for making board-level 
        decisions in public or executive session; and making board 
        members and senior staff regularly available to answer 
        inquiries from the general public and Congress.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    In accordance with the terms of the ethics agreement that I have 
entered into with Amtrak's designated ethics official and that has been 
provided to this Committee, I will continue to be a partner in the law 
firm of Windels Marx Lane & Mittendorf, LLP and a signatory to its 
Partnership Agreement under which I will be compensated based upon the 
Firm's legal practice and my contributions to it.
    I am currently the beneficiary of retirement plans through the 
Windels Marx Lane & Mittendorf, LLP 401K Profit Sharing Plan and the 
Windels Marx Lane & Mittendorf, LLP Money Purchase Retirement Plan and 
Trust.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    Yes. In accordance with the terms of the ethics agreement that I 
have entered into with Amtrak's designated ethics official and that has 
been provided to this Committee, I will continue to be a Partner and 
Executive Committee member of the law firm of Windels Marx Lane & 
Mittendorf, LLP. Under the terms of the ethics agreement I will also 
continue in my position as Chairman of the Board of Commissioners of 
the Port Authority of New York and New Jersey, which term expires July 
2011.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and Amtrak's ethics official to 
identify potential conflicts of interest. Any potential conflicts of 
interest will be resolved in accordance with the terms of an ethics 
agreement that I have entered into with the Department's designated 
agency ethics official and that has been provided to this Committee. I 
am not aware of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and Amtrak's ethics official to 
identify potential conflicts of interest. Any potential conflicts of 
interest will be resolved in accordance with the terms of an ethics 
agreement that I have entered into with the Department's designated 
agency ethics official and that has been provided to this Committee. I 
am not aware of any other potential conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    Support adoption of comprehensive port security legislation 
(pending): testified before Senate Committee on Commerce, Science and 
Transportation regarding implementation of SAFE Port Act and maritime 
security generally; communicated with Members of Congress and spoke 
publicly in support of ``Port Authority of New York/New Jersey Port 
Security Task Force Implementation Act of 2008''; led creation and 
convened meetings of Port Authority Port Security Task Force and issued 
Task Force report recommending various port security initiatives.
    Support increased Federal funding of harbor deepening program: sent 
letters to Members of Congress in support of increased Federal funding 
for New York/New Jersey harbor deepening program.
    Argue in opposition to airport slot auctions: made public 
statements in opposition to proposed FAA rule implementing slot 
auctions at New York area airports; met with members of prior 
Administration to express opposition to slot auctions; published Flight 
Delay Task Force report that, among other things, described Port 
Authority opposition to slot auctions.
    Support increased Federal funding of a Next Generation air traffic 
control system: issued Flight Delay Task Force report that, among other 
things, described support for Next Generation technologies (``Next 
Gen''); spoke publicly at Port Authority-sponsored forum regarding Next 
Gen; made videotaped appeal for prospective members to join the Port 
Authority-led ``National Alliance for Next Gen'' advocacy group.
    Support increased Federal funding for rail security: sent letters 
in support of Port Authority applications for Federal grants for 
various PATH security initiatives; spoke publicly about the need to 
focus more attention on rail security generally.
    Support a national infrastructure bank: spoke at academic 
conference in favor of creation of national infrastructure bank.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Any potential conflicts of interest will be resolved in accordance 
with the terms of an ethics agreement that I have entered into with 
Amtrak's designated ethics official and that has been provided to this 
Committee. I am not aware of any other potential conflicts of interest.
    I also note that both organizations where I am currently employed, 
Windels Marx Lane & Mittendorf, LLP and the Port Authority of New York 
and New Jersey, have robust ethics and recusal policies to avoid 
potential conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    Since 1990 I have been a partner of Windels Marx Lane & Mittendorf, 
LLP a law firm of more than 100 attorneys. While not an officer of the 
Firm, I am a member of its Executive Committee. WMLM is periodically a 
party to civil litigation in the ordinary course of its business, but I 
have not been personally involved in any such litigation.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                      resume of anthony r. coscia
Professional Experience
    Port Authority of New York and New Jersey--Chairman, Board of 
Commissioners--April 2003 to Present, New York, New York.

    Mr. Coscia has broad oversight responsibility in connection with 
the agency's transportation businesses and $6.5 billion annual budget. 
He spearheaded adoption of the agency's 10-year $29.5 billion capital 
plan, which provides for substantial expansion of the region's 
transportation facilities, including an historic investment of more 
than $8 billion in mass transit rail initiatives. Mr. Coscia's 
principal aims include ensuring the safety and security of the Port 
Authority's facilities, improving the critical transportation networks 
between New York and New Jersey, increasing the transparency of the 
Board of Commissioners' decision-making process, promoting 
environmental sustainability as an agency goal, rebuilding the World 
Trade Center as a driving force for the region's economic recovery, and 
establishing a memorial to those lost in the September 11, 2001 
terrorist attacks.

    Windels Marx Lane & Mittendorf, LLP--Partner and Member of 
Executive Committee--1984 to Present--New York, New York.

    Mr. Coscia's practice focuses on corporate, commercial and real 
estate matters, with a concentration on the financial elements of these 
transactions. He represents financial institutions, investors and major 
corporations for whom he has handled a broad variety of matters, 
including corporate and real estate finance transactions, asset 
restructure and recovery, regulatory compliance, mergers and 
acquisitions and general litigation. In addition, Mr. Coscia advises 
real estate developers, private equity firms, technology companies, 
not-for-profit organizations and utilities. He has specific experience 
in the area of redevelopment finance and has worked extensively on 
corporate governance issues. Mr. Coscia is admitted to the state bars 
of New York and New Jersey.

    New Jersey Economic Development Authority--Chairman, Board of 
Commissioners--February 1992 to March 2003--Trenton, New Jersey.

    Mr. Coscia served four different Governors in overseeing one of the 
largest state-sponsored development banks in the United States. The 
NJEDA, with more than $2 billion in assets and $14 billion in 
financing, is charged with strengthening the state's economic base and 
renewing communities through business expansion and attraction, job 
creation and retention and revitalization of underutilized properties. 
From January 1991 to February 1992, Mr. Coscia served as Executive 
Director of the NJEDA.
Education
    Rutgers University School of Law (J.D., 1984).

    Editor-in-Chief, Rutgers Computer and Technology Law Journal.

    Georgetown University School of Foreign Service (B.S.F.S., 
International Economics, 1981)--Phi Beta Kappa.
Honors and Awards
    Honorary doctorate of humane letters from the New Jersey Institute 
of Technology; 2008 Jewish National Fund's Tree of Life Award; 2008 
Rutgers Law School--Newark Honoree; 2008 March of Dimes 32nd Annual 
Transportation and Construction Awards--Service to Humanity Award; 2007 
Newark Regional Business Partnership Transportation Leader of the Year 
Award; 2007 Institute for Social Justice Corporate Leadership Award; 
2006 Building Trades Employers Association Annual Leadership Award; 
2004 New Jersey Alliance for Action Eagle Award.
Affiliations
    Mr. Coscia is a member of The Partnership for New York City, The 
Economic Club of New York, and the New Jersey Performing Arts Center 
Council of Trustees, and serves as a trustee of the New Jersey Network 
Foundation and the New Jersey Community Development Corporation. He has 
also served as a director and audit committee member of several public 
and closely held corporations in the financial services, investment 
banking, real estate and manufacturing sectors.
                                 ______
                                 
                           Anthony R. Coscia
    Anthony R. Coscia was appointed Chairman of the Board of 
Commissioners of the Port Authority of New York and New Jersey in April 
2003. The Port Authority, founded in 1921, manages some of the most 
critical transportation and infrastructure facilities in the New York/
New Jersey region--including the PATH commuter railroad, five airports, 
four port facilities, six interstate bridges and tunnels, two bus 
terminals, and the World Trade Center. As Chairman, Mr. Coscia has 
broad oversight responsibility in connection with the agency's varied 
transportation businesses and $6.7 billion annual budget. He 
spearheaded adoption of the agency's 10-year capital plan, which 
provides for substantial expansion of the region's transportation 
facilities, including an historic investment of more than $8 billion in 
mass transit rail initiatives. Mr. Coscia's principal aims as Chairman 
include ensuring the safety and security of the Port Authority's 
facilities, improving the critical transportation networks between New 
York and New Jersey, increasing the transparency of the Board of 
Commissioners' decision-making process, promoting environmental 
sustainability as an agency goal, rebuilding the World Trade Center as 
a driving force for the region's economic recovery, and establishing a 
memorial to those lost in the September 11, 2001 terrorist attacks.
    From February 1992 to March 2003, Mr. Coscia served as Chairman of 
the New Jersey Economic Development Authority (``NJEDA''), one of the 
largest state-sponsored development banks in the United States. The 
NJEDA, with more than $2 billion in assets and nearly $20 billion in 
financing, is charged with strengthening the state's economic base and 
renewing communities through business expansion and attraction, job 
creation and retention and revitalization of underutilized properties.
    Mr. Coscia is a Partner of Windels Marx Lane & Mittendorf, LLP, one 
of the New York region's oldest law firms, and is a member of the 
Firm's Executive Committee and Corporate and Securities, Financial 
Transactions and Real Estate Practice Groups. He has specific 
experience in the area of redevelopment finance and has worked 
extensively on corporate governance issues.
    Mr. Coscia has served as a director and audit committee member of 
several public and closely held corporations in the financial services, 
investment banking, real estate and manufacturing sectors. He serves as 
a trustee of the New Jersey Network Foundation and the New Jersey 
Community Development Corporation and is a member of the New Jersey 
Performing Arts Center Council of Trustees, The Partnership for New 
York City and The Economic Club of New York.
    Mr. Coscia is admitted to the state bars of New Jersey and New 
York. He is a Phi Beta Kappa graduate of the Georgetown University 
School of Foreign Service (B.S.F.S., 1981). He received his law degree 
from Rutgers University School of Law (J.D., 1984), where he served as 
Editor-in-Chief of the Rutgers Computer and Technology Law Journal. In 
2007 he was awarded an honorary doctorate of humane letters from the 
New Jersey Institute of Technology.

    Senator Lautenberg. Thank you.
    Mr. DiClemente?

 STATEMENT OF ALBERT A. DiCLEMENTE, DIRECTOR-DESIGNATE, AMTRAK 
                       BOARD OF DIRECTORS

    Mr. DiClemente. Mr. Chairman, I wish to thank the 
distinguished Senators from Delaware, Senator Carper for 
stopping by and Senator Kaufman for his kind and generous words 
and for his friendship all these many years.
    Mr. Chairman, this nomination represents an enormous honor 
to me, and I am very appreciative and grateful for the 
opportunity to be considered to serve on the Amtrak Board.
    I want to thank the President; my friend and former boss, 
Vice President Biden; Chairman Rockefeller; Ranking Member 
Hutchison; the distinguished Members of this Committee; and, of 
course, my family for their support and encouragement 
throughout the process.
    Mr. Chairman, I am a believer in the critical role that 
Amtrak plays in the national transportation fabric of our 
country, and I am also fully aware of the importance of Amtrak 
in my home State of Delaware, where a number of key Amtrak 
facilities currently reside. I am hoping for and looking 
forward to the opportunity to work with the 19,000 men and 
women who are currently part of the Amtrak family.
    Over the years, I have had the pleasure of meeting a number 
of those employees. I met them while working for then-Senator 
Biden, during our regular trips to the Amtrak shops in 
Wilmington, Delaware. And I also recall, as a small boy, 
meeting many of them when I would go to the Wilmington shops to 
meet with my dad.
    Mr. Chairman, my father worked for the railroads his whole 
life and retired from Amtrak in 1976. He was a master 
blacksmith and welder and took great pride in his work, as did 
the other craft members in the Wilmington shops. I was always 
struck by their camaraderie and their commitment to the very 
difficult and demanding work at hand.
    It was not just because of the money or the working 
conditions, which were spartan at best, but rather the 
commitment they had to the mission of safe and reliable travel 
for their fellow Americans and a commitment to one another. 
They were family, Mr. Chairman, part of the Amtrak family. They 
looked after one another from a safety perspective and believed 
in each other from a mission standpoint.
    Mr. Chairman, I would welcome the opportunity to work with 
these dedicated women and men of Amtrak. And I believe, to the 
core of my being, that Amtrak's best days lie ahead of us. 
There is much work that needs to be done to meet the many 
challenges, and I am honored to have the opportunity to be part 
of the team that hopefully will face those challenges and help 
lead Amtrak as a world-class transportation system.
    Mr. Chairman, Amtrak has always held a special place in my 
heart and, indeed, is part of my DNA. I am looking forward to 
being of service to the mission of Amtrak, and if confirmed, I 
would welcome the opportunity to serve on the Board.
    Thank you, Mr. Chairman, for the time and consideration of 
my nomination, and I look forward to answering any questions 
you and the Committee may have.
    Thank you.
    [The prepared statement and biographical information of Mr. 
DiClemente follows:]

    Prepared Statement of Albert A. DiClemente, Director-Designate, 
                       Amtrak Board of Directors
    Thank you, Mr. Chairman.
    This nomination represents an enormous honor to me, and I am very 
appreciative and grateful for the opportunity to be considered to serve 
on the Amtrak board. I want to thank the President--my friend and 
former boss, Vice President Biden--Chairman Rockefeller, Ranking Member 
Hutchison, the distinguished members of this committee--and of course 
my family for all their support and encouragement throughout this 
process.
    Mr. Chairman, I am a believer in the critical role that Amtrak 
plays in the national transportation fabric of our country. I am also 
fully aware of the importance of Amtrak in my home state of Delaware, 
where a number of key Amtrak facilities currently reside. I am hoping 
for and looking forward to the opportunity to work with the 19,000 men 
and women who are currently part of the Amtrak family.
    Over the years, I have had the pleasure of meeting a number of 
those employees. I met them while working for then, Senator Biden, 
during our regular trips to the Amtrak shops in Wilmington, Delaware. I 
also recall as a small boy, meeting many of them, when I would go to 
the Wilmington shops to meet my dad. My father worked for railroads his 
whole life, and retired from Amtrak in 1976. He was a master blacksmith 
and welder, and took great pride in his work--as did the other craft 
members in the Wilmington shops. I was always struck by their 
camaraderie and their commitment to the very difficult and demanding 
work at hand. It was not just because of the money or the working 
conditions, which were spartan at best, but rather the commitment they 
had to the mission of safe and reliable travel for their fellow 
Americans--and a commitment to one another. They were a family, Mr. 
Chairman--part of the Amtrak family. They looked after one another from 
a safety perspective, and believed in each other from a mission 
standpoint.
    Mr. Chairman, I would welcome the opportunity to work with these 
dedicated women and men of Amtrak. I believe to the core of my being 
that Amtrak's best days lie ahead of us. There is much work that needs 
to be done to meet these challenges and I am honored to have the 
opportunity to be part of the team that will face those challenges and 
help lead Amtrak as a world class transportation system.
    Mr. Chairman, Amtrak has always held a special place in my heart, 
and indeed, is part of my DNA. I am looking forward to being of service 
to the mission of Amtrak, and, if confirmed, I would welcome the 
opportunity to serve on the Board.
    Thank you, Mr. Chairman, for your time and consideration of my 
nomination and I look forward to answering any questions you and the 
Committee may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Albert A. DiClemente.

        Nickname--Bert.

    2. Position to which nominated: Director, National Railroad 
Passenger Corporation.
    3. Date of Nomination: November 10, 2009.
    4. Address (list current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 1007 N. Orange Street, Suite 100, Wilmington, DE 19801.

    5. Date and Place of Birth: July 12, 1944; Philadelphia, PA.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Elizabeth J. DiClemente--spouse--retired, RN.

        Children: Matthew R. DiClemente--39 years old; Brett A. 
        DiClemente--37 years old; Ryan L. DiClemente--32 years old.

    7. List all college and graduate degrees. Provide year and school 
attended.

        University of Delaware--1967--BA in Political Science.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        1967-1970--Reliance Insurance Company--Management Trainee 
        Program.

        1970-1977--Patterson Schwartz & Associates--opened and managed 
        a new real estate brokerage office in Newark, DE.

        1977-1997--United States Senator Joseph R. Biden Jr.--State 
        Director. Managed the Delaware operations which consisted of 3 
        offices throughout the state. Responsible for both the issues 
        and the politics of concern to the state of Delaware.

        1997-1998--Jackson Cross & Associates--Associate Director--
        Commercial Real Estate, brokerage division (Acquired by 
        Insignia/ESG).

        1998-2003--Insignia/ESG--Director--Commercial Real Estate, 
        brokerage division (Acquired by CB Richard Ellis, Inc.).

        2003-Present--Vice President CB Richard Ellis, Inc.--Commercial 
        Real Estate, brokerage division. Work with major corporations 
        in the tri-state region to help solve their commercial real 
        estate needs.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.
    N/A.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years: Vice-
President, CB Richard Ellis.
    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Please note whether any such club or organization restricts membership 
on the basis of Sex, race, color, religion, national origin, age, or 
handicap.

        Former member of the United Way--cabinet member.

        Former member of the Wilmington Rotary.

        Former National Committeeman for the Democratic Party of 
        Delaware.

        Former member of Salesianum School Development Committee.

        Former member of the Board of Directors of Community Housing 
        Inc.

        Member of the Board of Directors of Cavaliers Country Club

        Member of the Board of Directors of the Commercial Industrial 
        Realty Council (CIRC).

        Member of the Board of Directors of the Bethel Temple Community 
        Development Fund.

        Member of the Board of Directors of the Columbus Day Breakfast.

        Member of the Society of Industrial and Office Realtors (SIOR).

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    I was elected by the Delaware Democratic Party to serve as their 
National Committeeman for the State of Delaware. There was neither a 
campaign, nor funds raised. I served in that capacity from 2000-2004.
    14. Itemize all political contributions to any individual, campaign 
organization, political Party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.
    I served as the Delaware National Committeeman from 2000-2004.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements: N/A.
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed: N/A.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony: N/A.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    Amtrak is an important component in the state of Delaware's work 
force, and as such, while serving as Senator Biden's State Director, we 
were very responsive to the needs and growth of this entity. Amtrak is 
an under utilized resource that needs to be expanded and modernized to 
meet the demands of the new century. I have met with and worked with 
the local Amtrak leadership in Delaware, and I would welcome that 
opportunity to do so on a national basis.
    Additionally, my father spent his entire career working for the 
railroads, so I feel like I have grown up with the railroad, and have 
great respect and appreciation for their mission.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    Long-range strategic direction and oversight should be the mission 
of the Board. While working for 20 years with then Senator Joseph R. 
Biden, Jr., we would regularly meet with and assist major corporations 
throughout our state. Additionally, in my current assignment as vice 
president with the real estate corporation CB Richard Ellis, I work 
with major corporations on a regular basis and assist them in solving 
problems.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        (1) Continue modernization of the Amtrak fleet requiring a 21st 
        century rail service throughout the United States.

        (2) expand the rail service that is presently in the northeast 
        corridor to other Major metropolitan areas from the mid West to 
        the far West.

        (3) Bring quality service within budget throughout the system 
        while ensuring environmental safeguards.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.

        IRA account through CB Richard Ellis.

        IRA account through Christiana Care--(spouse).

        Assorted investment opportunities through Waveland Venture 
        Capital Civil Service Retirement.

    2. Do you have any commitments or agreements, formal or informal, 
to maintain Employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    In accordance with the terms of the ethics agreement that I have 
entered into with Amtrak's designated agency ethics official and that 
has been provided to this Committee, I will continue to be employed 
with CB Richard Ellis, in the commercial brokerage division, where I 
currently have the title of Vice President.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and Amtrak's ethics official to 
identify potential conflicts of interest. Any potential conflicts of 
interest will be resolved in accordance with the terms of an ethics 
agreement that I have entered into with the Department's designated 
agency ethics official and that has been provided to this Committee. I 
am not aware of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and Amtrak's ethics official to 
identify potential conflicts of interest. Any potential conflicts of 
interest will be resolved in accordance with the terms of an ethics 
agreement that I have entered into with the Department's designated 
agency ethics official and that has been provided to this Committee. I 
am not aware of any other potential conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: N/A.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may Be disclosed by your responses to the above 
items.
    Any potential conflicts of interest will be resolved in accordance 
with the terms of an ethics agreement that I have entered into with the 
Amtrak's designated ethics official and that has been provided to this 
Committee. I am not aware of any other potential conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain.
    I was a named party in a suit between Synthes USA and CB Richard 
Ellis, Inc. that was resolved in January of 2009, with a Stipulation of 
Dismissal of Claims. An out of court settlement was agreed to, on a 
matter involving the Coastal Zone Act in Delaware. I was named in this 
suit in my official capacity only. I had no personal involvement in the 
litigation, which was handled by CB Richard Ellis.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    No--other than noted above in C-1.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) or any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    N/A.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                 resume of albert (bert) a. diclemente
Professional Experience
    CB Richard Ellis, Inc., Wilmington, DE 19801--Vice President, 
Commercial Real Estate Broker--2003-Present.

    Insignia/ESG, Wilmington, DE 19801--Director--1998-2003. (Acquired 
by CB Richard Ellis, Inc.).

    Jackson Cross & Associates, Wilm., DE 19801--Associate Director--
1997-1998. (Acquired by Insignia/ESG).

    Responsible for leasing and selling of commercial real estate; 
Society of Industrial and Office Realtors (SIOR) dual designation 
Industrial and Office Real Estate; represents a number of national 
Fortune 500 Companies as well as prominent regional and local 
institutions.

    Former United States Senator Joseph R. Biden, Jr.,--Wilmington, DE 
19801--State Director--1977-1997.

    Responsible for three statewide senate offices; senior staff 
advisor on all issues and policies related to Delaware's interests; 
represented Senator Biden at numerous political, civic, and social 
functions; worked on behalf of Delaware citizens and corporations to 
resolve problems or disputes with Federal, state, county, and city 
agencies.

    Patterson Schwartz & Associates, Newark, DE 19711--Manager, Real 
Estate Broker--1970-1977.

    Responsible for establishing a new office in Newark, DE and 
managing sales force.
Education
    University of Delaware, Newark, DE.

    Bachelor of Arts Degree in Political Science.

    Society of Industrial and Office Realtors (SIOR) Commercial Real 
Estate Certification.

    Graduate of the Real Estate Institute, (G.R.I.) Residential Real 
Estate Certification.
Professional/Community Affiliations
    Licensed Real Estate Broker in Delaware, Pennsylvania, and 
Maryland.

    United Way of Delaware, former Cabinet Member.

    National Committeeman for Democratic Party of Delaware, former 
Member.

    Wilmington Rotary, former Member.

    Board of Directors Member of Commercial Industrial Realty Council.

    Board of Directors Cavaliers Country Club.

    Board of Directors Bethel Temple Community Development Corp.

    Board of Directors Salesianum Development Fund, former Member.
    Board of Directors Community Housing, Inc., former Member.

    Senator Lautenberg. Thank you.
    And Dr. Rosekind?

   STATEMENT OF MARK R. ROSEKIND, MEMBER-DESIGNATE, NATIONAL 
                  TRANSPORTATION SAFETY BOARD

    Dr. Rosekind. Thank you.
    Senator Lautenberg, Chairman Rockefeller, Ranking Member 
Hutchison, and members of the Committee, I am honored to speak 
with you today and appreciate the opportunity to make a few 
comments about the NTSB and to address any questions that you 
may have.
    First, I would like to thank President Obama for nominating 
me to be a Member of the National Transportation Safety Board. 
Before I begin, please let me introduce some special people 
that are joining us today--my wife, Dr. Debra Babcock, who is a 
Pediatrician in the San Francisco Bay area, is joining us. And 
viewing in California are my son, Aaron; my daughter, Eve; my 
mother, Marilyn Rosekind; and my mother-in-law, Lila Babcock.
    I also would like to thank the other colleagues and friends 
who have joined us today, especially those from the NTSB, 
including Chairman Hersman.
    The primary mission of the NTSB is to enhance 
transportation safety, which touches everyone's life in some 
way and provides an invaluable contribution to the American 
people. Today, the NTSB is challenged by an ever-changing 
world. Global, around-the-clock transportation demands continue 
to increase, operations change to meet these demands, and 
technology rapidly advances.
    Given these ongoing changes in the transportation system, 
it is critical that the NTSB continually evolves and enhances 
its knowledge, capabilities, and expertise. Chairman Hersman 
has already provided a vision and initiated actions that 
acknowledge these issues. She has challenged the men and women 
of the NTSB to ``raise the bar'' and specifically has 
identified transparency, accountability, and integrity as 
initial areas for action.
    It is important to all Americans that the NTSB remains a 
leading edge resource in its never-ending responsibility to 
enhance transportation safety. If confirmed, I look forward to 
collaboration with the NTSB's outstanding professionals to 
pursue every avenue possible to improve the agency's 
effectiveness and value.
    The classic description of the NTSB is that it is the 
premier accident investigation and recommendation agency in the 
world. For more than 40 years, this world-class reputation has 
been built upon the NTSB's hard work to reach meaningful 
outcomes and consistently exceed its mission objectives.
    In my interactions with the NTSB over the past 15 years, it 
is clear that like any great institution, the men and women who 
comprise the agency's extraordinary staff are the core of its 
success. Every day, these 400 professionals pursue their work 
and their passion to enhance transportation safety. They are 
truly the heart and soul of the agency.
    They understand the unique role of the NTSB as an 
independent agency. They understand the unique role of the NTSB 
as an independent and nonregulatory agency tasked with 
enhancing transportation safety through meticulous 
investigations, fact-based and thoughtful recommendations, and 
the strategic use of its other available tools.
    The NTSB's success in achieving its mission is meaningful 
far beyond its findings and recommendations. Its efforts 
translate into highly critical and personal terms, the 
opportunity to prevent injuries and save lives. It is this 
objective that drives the men and women of the NTSB to pursue 
and achieve their mission.
    Recently, the Board's professionals voted it as one of the 
best places in Government to work. Obviously, for many, 
contributing to the NTSB's mission is their dream job. If 
allowed to serve as a member on the NTSB, I, too, will have 
achieved my dream job.
    My own passion has been to study human fatigue and apply 
scientific knowledge to improve performance and safety in 
diverse settings, including all modes of transportation. 
Fatigue has been on the NTSB's Most Wanted List since the list 
was created in 1990. Clearly, over the years, the NTSB's 
findings and my professional endeavors have led us to the same 
conclusion--that effectively managing fatigue is a critical 
factor in human performance and transportation safety.
    If confirmed, I pledge to President Obama, this Senate 
committee, Congress, the men and women of the NTSB, and, most 
importantly, the American people that I will contribute all of 
my energy, knowledge, and expertise to further enhance 
transportation safety. If permitted to serve as a Member of the 
National Transportation Safety Board, it would be a tremendous 
professional and personal honor to contribute in any way 
possible to the vital mission of this invaluable agency.
    Thank you, and I would be pleased to address any questions.
    [The prepared statement and biographical information of Dr. 
Rosekind follows:]

       Prepared Statement by Mark R. Rosekind, Member-Designate, 
                  National Transportation Safety Board
    Chairman Rockefeller, Ranking Member Hutchison, and members of the 
Committee, I am honored to speak with you today and appreciate the 
opportunity to make a few comments about the NTSB and to address any 
questions that you may have. First, I would like to thank President 
Obama for nominating me to be a Member of the National Transportation 
Safety Board (NTSB).
    Before I begin, please let me introduce some special people joining 
us today: my wife, Dr. Debra Babcock, and viewing in California are my 
son, Aaron; my daughter, Eve; my mother, Marilyn Rosekind; and my 
mother-in-law, Lila Babcock. I also would like to thank the other 
colleagues and friends who have joined us today, including those from 
the NTSB.
    The primary mission of the NTSB is to enhance transportation 
safety, which touches everyone's life in some way and provides an 
invaluable contribution to the American people. Today, the NTSB is 
challenged by an ever-changing world: global, around-the-clock 
transportation demands continue to increase, operations change to meet 
these demands, and technology rapidly advances. Given these ongoing 
changes in the transportation system, it is critical that the NTSB 
continually evolves and enhances its knowledge, capabilities, and 
expertise. Chairman Hersman has already provided a vision and initiated 
actions that acknowledge these issues. She has challenged the men and 
women of the NTSB to ``raise the bar'' and has specifically identified 
transparency, accountability, and integrity as initial areas for 
action. It is important to all Americans that the NTSB remains a 
leading-edge resource in its never-ending responsibility to enhance 
transportation safety. If confirmed, I look forward to collaboration 
with the NTSB's outstanding professionals to pursue every avenue 
possible to improve the Agency's effectiveness and value.
    The classic description of the NTSB is that it is `the premier 
accident investigation and recommendation agency in the world.' For 
more than 40 years, this world-class reputation has been built upon the 
NTSB's hard work, to reach meaningful outcomes and consistently exceed 
its mission objectives. In my interactions with the NTSB over the past 
15 years, it is clear that like any great institution, the men and 
women who comprise the agency's extraordinary staff are the core of its 
success. Every day, these 400 professionals pursue their work and their 
passion to enhance transportation safety; they are truly the heart and 
soul of the agency. They understand the unique role of the NTSB as an 
independent and non-regulatory agency tasked with enhancing 
transportation safety through meticulous investigations, fact-based and 
thoughtful recommendations, and the strategic use of its other 
available tools. The NTSB's success in achieving its mission is 
meaningful far beyond its findings and recommendations; its efforts 
translate into highly critical and personal terms: the opportunity to 
prevent injuries and save lives. It is this objective that drives the 
men and women of the NTSB to pursue and achieve their mission. 
Recently, the Board's professionals voted it as one of the best places 
in government to work; obviously, for many, contributing to the NTSB's 
mission is their ``dream job.''
    If allowed to serve as a Member on the NTSB, I too will have 
achieved my ``dream job.'' My own passion has been to study human 
fatigue and apply scientific knowledge to improve performance and 
safety in diverse settings, including all modes of transportation. 
Fatigue has been on the NTSB's Most Wanted List since its inception in 
1990. Clearly, over the years the NTSB's findings and my professional 
endeavors have led us to the same conclusion: that effectively managing 
fatigue is a critical factor in human performance and transportation 
safety.
    If confirmed, I pledge to President Obama, this Senate Committee, 
Congress, the men and women of the NTSB, and, most importantly, the 
American people that I will contribute all of my energy, knowledge, and 
expertise to further enhance transportation safety. If permitted to 
serve as a Member of the National Transportation Safety Board, it will 
be a tremendous professional and personal honor to contribute in any 
way possible to the vital mission of this invaluable agency.
    Thank you and I would be pleased to address any questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Mark Ralph 
Rosekind.
    2. Position to which nominated: Member, National Transportation 
Safety Board.
    3. Date of Nomination: October 1, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: Alertness Solutions, 1601 S. De Anza Blvd., Ste. 200 
        Cupertino, CA 95014.

    5. Date and Place of Birth: February 1, 1955; San Francisco, CA.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Debra A. Babcock, M.D. (pediatrician), Altos 
        Pediatrics, Los Altos, CA; children: son--Aaron A. Rosekind (22 
        years old); daughter: Eve M. Rosekind (15 years old).

    7. List all college and graduate degrees. Provide year and school 
attended.

        A.B., Stanford University, Stanford, CA, 1977.

        M.S., Yale University, New Haven, CT, 1982.

        M.Phil., Yale University, New Haven, CT, 1983.

        Ph.D., Yale University, New Haven, CT, 1987.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.
    All previous employment relevant to nominated position.

        Research Director, Sleep Research Facility and Chief, Drug 
        Evaluation Program, Stanford Sleep Disorders Clinic and 
        Research Center, Department of Psychiatry, Stanford University 
        School of Medicine, 1977--1979.

        Research Coordinator, Yale Psychophysiology Center, Department 
        of Psychology, Yale University, 1982-1984.

        Director, Sleep Laboratory, Yale Psychophysiology Center, 
        Department of Psychology, Yale University, 1982-1987.

        Director, Center for Human Sleep Research, Stanford Sleep 
        Disorders Center and Research Associate, Department of 
        Psychiatry, Stanford University School of Medicine, 1989--1990.

        Research Scientist and Team Leader, Fatigue Countermeasures 
        Program, Aviation Safety Research Branch, Flight Management and 
        Human Factors Division, NASA Ames Research Center, Moffett 
        Field, CA. December 1990-November 1997.

        Chief, Aviation Operations Branch, Flight Management and Human 
        Factors Division, NASA Ames Research Center, Moffett Field, CA. 
        January, 1996--April, 1997.

        President and Chief Scientist, Alertness Solutions, Cupertino, 
        CA, 1997-present.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        Provide consultation on fatigue factors in accident 
        investigations and resource for current fatigue-related 
        scientific research to National Transportation Safety Board 
        (NTSB) staff. 1998-present.

        Co-developed and co-teach a two-day NTSB Training Center course 
        on examining fatigue factors in an accident investigation. 
        2004-present.

        Board Member, National Scientific Advisory Board, Patient 
        Safety Center of Inquiry, Palo Alto Veterans Administration 
        Health Center, Palo Alto, CA, 1998-present.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Board Member, National Sleep Foundation, 2000-2007.

        Member, Executive Council, Harvard Division of Sleep Medicine, 
        2001-2006.

        Scientific Advisory Board Member, Air Force Office of 
        Scientific Research, PRET Center on Countermeasures for Jet Lag 
        and Sleep Deprivation. Principal Scientific Investigators: Dr. 
        David Dinges, University of Pennsylvania, Dr. Charles Czeisler, 
        Harvard University, and Dr. Dale Edgar, Stanford University, 
        1998-2005.

        Advisory Board, School of Sleep Medicine, Palo Alto, CA. 1990-
        present.

        Member, Flight Safety Foundation Corporate Advisory Committee, 
        1996-2006.

        Member, American Transportation Research Institute Research 
        Advisory Committee, 2001-2004.

        Chairman, Alertness Management Initiative Scientific Advisory 
        Board, Air Transport Association, 2000-2005.

        Board Member, Los Altos Educational Foundation, Los Altos, CA, 
        1997-2004.

        Board of Trustees, Menlo School, Atherton, CA, 2007-present.

        President/Owner, Alertness Solutions, 1997-present.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Member, Sleep Research Society, 1977-present (no restrictions).

        Member, Aerospace Medical Association, 1992-present (no 
        restrictions).

        Member, Aerospace Medical Association, Aerospace Human Factors 
        Association, 1993-present (no restrictions).

        Member, International Brotherhood of Magicians, 1974-present 
        (no restrictions).

        Honorary Life Member, The Magic Castle, 1993-present (no 
        restrictions).

        Member, Fremont Hills Country Club, 1999-2007 (no 
        restrictions).

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period: None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Sigma Xi (The Scientific Research Society).

        A.B., Honors in Psychology, Stanford University, 1977.

        Yale University Fellowship, 1980-1983.

        Prize Teaching Fellowship, Yale University, 1983-1984.

        NASA Ames Honor Award for Excellence in the category of Group, 
        1992.

        NASA Group Achievement Award, 1993.

        Honorary Life Member, Academy of Magical Arts, Magic Castle, 
        1993.

        NASA Exceptional Service Medal, 1995.

        Flight Safety Foundation Presidential Citation for Outstanding 
        Safety Leadership, 1997.

        Flight Safety Foundation Business Aviation Meritorious Award, 
        1999.

        Fellow, World Economic Forum, Annual Meeting, Davos, 
        Switzerland, 1999, 2000.

        NASA Ames Honor Award for Excellence in the category of Group/
        Team, 2003.

        NASA Turning Goals into Reality (TGIR), Exceptional Progress 
        Toward Support of MER Ups, Office of Aerospace Technology, 
        2003.

        NASA Headquarters Award for Group Achievement for the Mars 
        Exploration Rover Mission System Development Team, 2004.

        William E. Collins Award, Outstanding Human Factors Publication 
        of the Year, Aerospace Human Factors Association, 2007.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    [These lists are retained in the Committee's files.]
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    Hearing on: Federal Railroad Administration Reauthorization: Human 
Factors Issues. Testimony provided to Committee on Transportation and 
Infrastructure, Committee on Transportation, U.S. House of 
Representatives, Subcommittee on Railroads, Washington, D.C., April 29, 
1998.
    Managing Fatigue in Transportation: No Magic Bullet. Hearing on: 
Fatigue and Its Safety Effects on the Commercial Motor Vehicle and 
Railroad Industries, U.S. Senate, Committee on Commerce, Science, and 
Transportation, Subcommittee on Surface Transportation and Merchant 
Marine, Washington, D.C., September 16, 1998.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?

    Fatigue and human factors expertise--Fatigue has been on the NTSB 
Most Wanted List since its inception and will remain a complex and 
challenging transportation issue in all modes. My internationally 
recognized expertise in human fatigue spans diverse scientific, 
investigation, policy, education, countermeasures, and applied areas. 
For 15 years, my collaborations with the NTSB have included Co-chairing 
the first multi-modal symposium on fatigue in transportation, 
developing a scientifically-based structured approach to examining 
fatigue factors in accident investigations, co-teaching an NTSB course 
on determining the role of fatigue in accidents, and providing ongoing 
support and input to fatigue related issues. Current accidents continue 
to highlight the ongoing and dangerous role that fatigue plays in 
transportation accidents. There is the opportunity for me to contribute 
my expertise directly, immediately, and substantially to NTSB efforts 
related to fatigue.

    Human factors remain a cause of transportation accidents and will 
continue to contribute significantly in all modes. Beginning at NASA, 
my interests and expertise have expanded to include diverse human 
factors issues, including performance, automation and technology, 
education and training, human-machine interactions, and operational 
systems. As Chief of a human factors branch at NASA, there was the 
opportunity to guide and advance basic and applied efforts to 
understand the role of human factors in transportation operations. This 
is another area where my expertise can contribute immediately and in a 
substantial manner to the well-established and excellent human 
performance efforts already ongoing at the NTSB.

    Scientific training and experience--Conducting excellent science 
parallels an accident investigation (the core of the NTSB's mission and 
activities): generate hypotheses, collect and analyze data, interpret 
findings, and apply the results. With 30 years of scientific 
experience, my proven skills and expertise fit directly into the NTSB's 
objectives and can contribute immediately to the Board's efforts. My 
academic/scientific experience also provides a complementary 
perspective, network, and approach that can add to the current 
engineering and investigation strengths already well established at the 
NTSB. My scientific experience and specific fatigue/human factors 
expertise can provide significant and meaningful contributions to a 
broad range of NTSB activities.

    Another parallel between my scientific expertise and the Board's 
activities is that they both require, and are based on, using a 
neutral, objective, and independent approach. This approach is a 
critical foundation to ensure the most accurate and useful findings 
will become the basis of subsequent recommendations.

    Academic/NASA/real-world application experience--My career has 
benefited tremendously from conducting scientific research in premier 
academic institutions, leading an internationally recognized NASA 
program that integrated research and application, and providing real-
world solutions to challenging fatigue issues in diverse 24/7 
operational settings all over the world. These diverse experiences have 
provided a unique opportunity to hone an integrated scientifically 
based expertise that has been informed and challenged by addressing 
complex real-world issues. The combination of experience and knowledge 
gained through these different perspectives and activities has provided 
a unique set of skills and expertise that can contribute to many 
diverse NTSB efforts.

    Multi-modal experience--Fatigue and human factors issues cross all 
modes of transportation. Therefore, my expertise has been relevant and 
applied in diverse 24/7 operational settings all over the world and in 
all modes of transportation. This has provided an opportunity for me to 
learn about, and work in, all transportation modes with exposure to the 
similarities and significant differences across modes. While there is a 
significant NTSB emphasis on aviation (a specific area of expertise 
initiated during my NASA years), the Safety Board is charged with 
accident investigations in all modes of transportation. My experiences 
in highway/trucking, rail, marine, pipeline and aviation provide a 
broad multi-modal perspective that will add further to the 
contributions that I can make to NTSB activities.

    Greatest opportunity to enhance transportation safety--The classic 
statement used to describe the NTSB is: `The NTSB is the premier 
accident investigation and recommendation organization in the world'. 
The NTSB has earned this reputation through extremely hard work and the 
expertise of a dedicated, outstanding staff that maintains its 
independence and addresses the most complex challenges in 
transportation safety. The NTSB operates in a unique situation allowing 
it to confront highly technical and very human issues all in the 
pursuit of the most valuable objective: to enhance transportation 
safety, which translates into saving lives and reducing injuries. There 
is no greater opportunity to benefit and enhance transportation safety 
than through the efforts of the NTSB. My entire career has been focused 
on human performance and safety and the ultimate opportunity to 
contribute my knowledge and expertise to improve transportation safety 
is as a Member of the NTSB. It would be a tremendous honor and 
privilege to serve President Obama, the Senate Commerce, Science, and 
Transportation Committee, the Congress and, most importantly, the 
American people to ensure that the U.S. transportation system maintains 
the highest level of safety.

    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    If confirmed, I will fully support the Chairman and others to 
ensure that the NTSB has proper management and accounting controls in 
place and functioning effectively. My experience portrayed in Question 
#8 will be contributed however needed.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        1. Maintain and enhance excellence--Transportation operations 
        will continue to evolve and will require a parallel evolution 
        in the approach, expertise, and outcomes of the NTSB. Societal 
        demand and transportation needs will continually change to meet 
        the varied requirements of our 24/7 global society. Operations 
        will evolve to meet the changing transportation demands and 
        there will be continuing technological advancements. Together, 
        changing demand, operations, and technology, will require that 
        the NTSB evolve to maintain its established excellence in 
        accident investigation and providing recommendations. This will 
        involve an ongoing effort to maintain knowledge, expertise, and 
        resources to address these changes and their role in 
        transportation safety and accidents. Clearly, the critical work 
        of the NTSB will never be done: there always will be the need 
        to determine the causes of accidents in an evolving 
        transportation system and to provide recommendations to reduce 
        or eliminate future occurrences. Therefore, beyond just 
        ``maintaining'' its established excellence, the NTSB will be 
        challenged to evolve and enhance its expertise to match and 
        exceed the complexities of an ever-changing transportation 
        system.

        2. Recommendations must lead to action--There are two 
        complementary and critical elements of the NTSB's most basic 
        mission: (1) to investigate the causes of transportation 
        accidents and (2) to provide recommendations to address the 
        probable cause and contributing factors. Over 80 percent of 
        NTSB recommendations have been enacted and represent tangible, 
        meaningful changes that enhance transportation safety. However, 
        almost 20 percent of NTSB recommendations remain open or with 
        unsatisfactory actions. In real terms, the NTSB has made over 
        12,000 safety recommendations since its creation and therefore, 
        about 2,400 recommendations have not been satisfactorily 
        addressed.

        Therefore, an ongoing challenge for the NTSB is to see that 
        safety recommendations lead to action. Given the NTSB's role in 
        investigation and making recommendations, it is the 
        responsibility of other parties to enact its recommendations. 
        The NTSB ``Most Wanted'' List, providing visibility for ongoing 
        safety issues, and tracking open actions are some examples of 
        strategies and tools that emphasize the importance of action. 
        However, building on these efforts and expanding into new, 
        innovative approaches that encourage the enactment of NTSB 
        recommendations will further enhance transportation safety and 
        the value of NTSB investigations and recommendations.

        3. Prevention--An important outcome of NTSB investigations is 
        to identify the probable cause and contributing factors in an 
        accident with the objective to provide recommendations that can 
        prevent the event from reoccurring. While understanding the 
        causal and contributing factors is important, the 
        recommendations are critical for actions to be undertaken. 
        Prevention is the intended outcome of making recommendations 
        and enacting changes that will improve transportation safety.

        An interesting challenge for the NTSB identified previously is 
        to enhance efforts that encourage enactment of NTSB 
        recommendations. However, the NTSB also conducts safety 
        studies, holds hearings, and issues safety warnings as other 
        mechanisms to identify and recommend changes to improve 
        transportation safety. Building on current NTSB activities and 
        approaches, new efforts that promote prevention can be explored 
        and tested to evaluate their effectiveness. Based on the NTSB's 
        strong foundation of current and successful efforts on 
        prevention, there may be opportunities to expand activities 
        that will enhance the use and value of NTSB findings (from all 
        of its activities). An expanded focus and effort on prevention 
        activities could significantly multiply the implementation of 
        recommendations and actions, all with the intent of reducing 
        accidents and enhancing transportation safety.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I have no financial arrangements, deferred compensation agreements 
or other continuing dealings with business associates, clients or 
customers. The 401(k) retirement program that I have established 
through my consulting business, Alertness Solutions, Inc., consists of 
my own investments in bond funds and mutual funds that are listed on my 
SF-278.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the NTSB's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with the NTSB `s 
designated agency ethics official and that has been provided to this 
Committee. I am not aware of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the NTSB's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with the NTSB's designated 
agency ethics official and that has been provided to this Committee. I 
am not aware of any other potential conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Any potential conflicts of interest will be resolved in accordance 
with the terms of an ethics agreement that I have entered into with the 
NTSB's designated agency ethics official and that has been provided to 
this Committee. I am not aware of any other potential conflicts of 
interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    In 2001, I was named as a defendant in a patent lawsuit against the 
Stanford sleep center, where I worked. There was no complaint of 
personal wrongdoing on my part. I had no involvement in the litigation, 
which was handled by Stanford University, and I am not aware of the 
disposition of the suit.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                   resume of mark r. rosekind, ph.d.
Education
    A.B., Psychology, Stanford University, Stanford, CA, 1977.

    M.S., Psychology (Psychophysiology/Clinical), Yale University, New 
Haven, CT, 1982.

    MPhil., Psychology (Psychophysiology/Clinical), Yale University, 
New Haven, CT, 1983.

    Ph.D., Psychology (Psychophysiology/Clinical), Yale University, New 
Haven, CT, 1987.
Current Position
    President and Chief Scientist, Alertness Solutions, Cupertino, CA, 
1997-present.
Previous Nasa Positions
    Research Scientist and Team Leader, Fatigue Countermeasures 
Program, Aviation Safety.

    Research Branch, Flight Management and Human Factors Division, NASA 
Ames.

    Research Center, Moffett Field, CA. December, 1990 November, 1997.

    Chief, Aviation Operations Branch, Flight Management and Human 
Factors Division, NASA Ames Research Center, Moffett Field, CA. 
January, 1996-April, 1997.
Honors and Awards
    Sigma Xi.

    A.B., Honors in Psychology, Stanford University, 1977.

    Yale University Fellowship, 1980-1983.

    Prize Teaching Fellowship, Yale University, 1983-1984.

    NASA Ames Honor Award for Excellence in the category of Group, 
1992.

    NASA Group Achievement Award, 1993.

    Honorary Life Member, Academy of Magical Arts, Magic Castle, 1993.

    NASA Exceptional Service Medal, 1995.

    Flight Safety Foundation Presidential Citation for Outstanding 
Safety Leadership, 1997.

    Flight Safety Foundation Business Aviation Meritorious Award, 1999.

    Fellow, World Economic Forum Annual Meeting, Davos, Switzerland, 
1999, 2000.

    NASA Ames Honor Award for Excellence in the category of Group/Team, 
2003.

    NASA Turning Goals into Reality (TGIR) Exceptional Progress Toward 
Support of MER Ops, Office of Aerospace Technology, 2003.

    NASA Headquarters Award for Group Achievement for the Mars 
Exploration Rover Mission System Development Team, 2004.

    William E. Collins Award, Outstanding Human Factors Publication of 
the Year, Aerospace Human Factors Association, 2007.
Academic Appointments
    Lecturer, Departments of Psychology and Psychiatry, Yale University 
and Yale University School of Medicine, 1986-1987.

    Research Associate, Department of Psychiatry, Stanford University 
School of Medicine, 1989-1990.

    Research Associate, Stanford Center of Excellence, Department of 
Psychology, Stanford University, 1990.

    Acting Assistant Professor, Department of Human Biology, Stanford 
University, January-March, 1993-1995.
Professional Training
    Predoctoral Clinical Fellowship, Department of Psychiatry, Yale 
University School of Medicine and Yale-New Haven Hospital, July, 1984-
June, 1985.

    Research Fellowship in Sleep and Chronobiology, E.P. Bradley 
Hospital, Department of Psychiatry and Human Behavior, Brown University 
Program in Medicine, 1987-1989.
Editorial Activities
    Ad Hoc Reviewer: Psychophysiology; Health Psychology; American 
Journal of Diseases of Children; Psychiatric Research; Pediatrics; EEG 
Journal; Plenum Press; Sleep; Sleep Research; Journal of the American 
Geriatrics Society; Psychological Bulletin; Aviation Space and 
Environmental Medicine.

    Editorial Board, Journal of Sleep and Sleep Disorders Research, 
January, 2004-present.
Professional Affiliations
    Sleep Research Society

    Aerospace Medical Association (AsMA)

    AsMA Human Factors Association

    Senator Lautenberg. Thank you, every one of you, for your 
excellent testimony and your wish to make a contribution.
    Knowing what I do about the Amtrak nominees, I am convinced 
that you have the desire to make a difference. I assume, Dr. 
Rosekind, with you, that as you described the value of the 
agency, that you are all committed to making a welcome 
contribution to how we function.
    To Mr. Coscia and Mr. DiClemente, I ask you each the same 
question for the moment. A recent report that studied high-
speed rail in France and Japan and Spain, the GAO found that 
these countries committed significant Government support for 
their high-speed rail system. But we are different in this 
country, and every year, we have got a routine where you have 
to fight for just enough funds to keep Amtrak afloat.
    And it has been tough over the years. This has been an area 
of great interest to me because of the deficiencies that exist 
for not having done it for so many years. I think it is fairly 
easy to say that there would be a lot of difference in the 
congestion that we see in the other modes of travel if we had 
made the investments at a reasonable time and level.
    I was struck by the fact that Germany at one point 
committed $70 billion over a 10-year period to build their 
high-speed system, and they got on with it and did it. And year 
after year, since the 1970s, when this became a quasi-
Government corporation, we had to beg and borrow, and I am not 
sure what the total commitment that has been made, but I think 
that over the years, it hasn't equaled $1 billion a year.
    So because of this, we look at how we can get to the high-
speed passenger rail system. Now I don't want you to be put in 
a position at your introduction to the Senate that you are 
going to be asking for more money, but apart from your specific 
suggestion, your specific role in finding how we get these 
systems up and running that come close to matching those that 
are some of the most efficient high-speed systems in other 
countries?
    Tony?
    Mr. Coscia. Well, let me say at the outset that there is no 
question that the role of a national passenger rail service is 
clearly a fundamental part of any plan for a 21st century 
transportation system. There are many historic reasons why in 
the past decades resources may not have been put into building 
a national rail system that is comparable to the systems that 
you referenced in Europe. But I think there is a recognition 
that that kind of an integrated national rail system that 
throughout the country provides rail options for passengers for 
those distances traveled where rail makes the most sense is 
clearly something that is important.
    And even in a time of strained resources, I think people 
will recognize that investment in rail is, in fact, an 
investment in a modern transportation system that will pay 
dividends in the form of a more efficient economy for sure. I 
think our role as directors will clearly have to be taking the 
resources that we are given and ensuring that they are spent as 
wisely as possible. Because in order to build a national 
consensus around putting more resources into this, one of the 
challenges that I think Amtrak will need to face is the ability 
to demonstrate that the resources it is provided are invested 
efficiently and invested wisely.
    And in that kind of a context, I am hopeful that there will 
be a broader national consensus around the notion of investing 
more heavily in building transportation systems that are, in 
fact, truly national in coverage and that provide the kind of 
services of some of the systems you have mentioned in other 
parts of the world.
    Senator Lautenberg. Thanks. The question asked really is 
kind of tongue-in-cheek because we have seen the things that 
can be done where the investments are made. And if you look at 
what we spend on rail and look at what we spend to subsidize 
aviation, they are good investments. But it tells you what can 
happen.
    Even with that, we are overwhelmed by the traffic needs in 
aviation, on highways, and rail is the most laggard of them 
all. I was handed a note, and my rough calculation was almost 
accurate. That is, since 1971, we have spent $33 billion on 
Amtrak, which is less, far less than a billion a year. And 
thus, we have paid the price for it.
    We have equipment that definitely needs upgrade. We have 
track that needs upgrade. We have signals that need upgrades. 
We have bridges that need upgrades. And we have got to be 
realistic about, unfortunately, how we are always competing for 
other needs in the country. The size of the investment that we 
have to make is significant. The returns would be enormous.
    As you each know, the economy recovery law included $8 
billion for high-speed rail. Foreign-owned manufacturers of 
passenger cars and high-speed rail equipment are very 
interested in competing for this new funding. I wonder what we 
can do to encourage American companies to get into this high-
speed rail manufacturing market? The revenues derived could be 
enormous and the opportunity for us to build and learn what to 
do to satisfy the interests that lie around the country for 
corridors that could so effectively use the equivalent of the 
Northeast Corridor, whether it is places out of Chicago that 
connect with St. Louis and Detroit or other cities around 
those, around Texas.
    I talked to Senator Hutchison about that for a moment. She 
knows the value. If you go out West, you know that California 
has been getting going on some high-speed corridors there. So 
what do you think we can do, Tony?
    Mr. Coscia. Well, I think that there is an enormous 
opportunity around a renewed level of investment in passenger 
rail, initially in high-speed rail as a new form of 
transportation. The manufacturing sector in the United States 
that services the rail equipment industry has, for the most 
part, atrophied in the past 20 or 30 years. This gives us an 
opportunity to create a whole new business around the 
technology in developing new and modern rail equipment for a 
new system to be built in this country, which would provide an 
enormous economic development benefit in terms of those jobs 
and those opportunities that are created around supporting that 
business.
    I think the thing that we can do to hasten the likelihood 
of that happening is provide some level of assuredness and 
stability to the fact that this program will, in fact, see its 
way through. The foreign manufacturers that you refer to, and 
there are many of them, rely on programs in other parts of the 
world where there is an expectation that there will be 
continual year-after-year investment. If we replicate that kind 
of an atmosphere in this country, chances are that a 
manufacturing sector would develop.
    I know many of your colleagues in the Senate have spoken 
about this. I know Senator Durbin has been a big advocate of 
trying to develop around the rail industry, where manufacturing 
jobs can be brought back into the United States through that 
mechanism. That would clearly be something that Amtrak should 
be very supportive of and be part of creating that kind of 
stability.
    Senator Lautenberg. I hope that we are going to demonstrate 
our seriousness by moving the projects that we have underway 
that relate directly not just to the Northeast Corridor, but 
any of the corridors that we might be able to encourage 
development. And I would love to see it happen.
    Mr. DiClemente, do you have any particular views on what we 
might do to stimulate the American investor, the business 
people, to step up and say, hey, you know, if we do this and we 
do a good job, there are all kinds of opportunities that 
accompanies that. What do you think?
    Mr. DiClemente. I agree with you, Senator. I think it is an 
opportune time for us to take advantage with the diminishing 
manufacturing base that we have and try and pump some life back 
into that sector. I think there is a number of automobile 
industry facilities that have gone down that would be ideal 
scenarios for them to be utilized and taken advantage of from a 
manufacturing perspective.
    Maybe there are some set-asides for American companies. 
Maybe there are some America-first opportunities. I think there 
is a whole gamut of things that this board should be looking at 
to try and ensure jobs and manufacturing opportunities to go 
along with the improved rail system.
    Senator Lautenberg. Dr. Rosekind, about 5,000 people a year 
die from crashes involving large trucks. The NTSB estimates 
that between 30 and 40 percent of these crashes involve 
fatigue.
    Now I know that you have experience in the understanding of 
fatigue and what erratic sleep does. I almost invited you to 
come over to my house, but the fact is that it is a serious 
problem. How about the use of electronic onboard recorders? 
Should they be mandated on all commercial vehicles, motor 
vehicles, do you think, to keep fatigued drivers, tired drivers 
off the road?
    Dr. Rosekind. Advances in technology have made very 
significant contributions to transportation safety. You can 
think about cockpit voice recorders and positive train control, 
but there are also many unintended consequences: think 
distracted driving, for example.
    I am very familiar with the issue not electronic onboard 
recorders. I know that the NTSB has a recommendation that 
advocates that, and I would look forward, if confirmed, to 
learning all the factual information to form a more complete 
opinion.
    Senator Lautenberg. Thank you.
    Earlier this year, Dr. Rosekind, Colgan Air Flight 3407 
crashed in Buffalo and resulted in 50 fatalities. The captain 
and first officer of the aircraft both commuted long distances 
from their homes to their operating base in Newark, sleeping 
very little before their scheduled shift.
    Now has the airline industry done enough to ensure that 
commercial air pilots are well rested, not flying under fatigue 
conditions?
    Dr. Rosekind. There is certainly more that needs to be 
done, starting with the fact that the hours of service laws 
were written in the 1930s and do not reflect the current 
science. That is really the reason the NTSB's Most Wanted List 
has identified fatigue as a critical element since 1990. So 
there is no question that from policies to training to 
scheduling practices, there is a a lot more that the entire 
industry should be doing to address fatigue.
    Senator Lautenberg. Yes, we also know that trainees are 
often--and this is not something that you can help with 
directly, except in your research when the occasion, 
unfortunately, requires it. And there are very modest salaries 
in the early years, and as a consequence, their people are 
forced to take a second job. Second job, and travelling long 
distances is a recipe for problems, and we don't want to see 
that happen.
    I will conclude with one question more, Senator Hutchison, 
and that is to Mr. Coscia and Mr. DiClemente, about passenger 
rail being more energy efficient, and having fewer emissions 
than driving or flying. But passenger rail still lags behind 
other modes in passenger miles, and Amtrak is operating at half 
its capacity. What do you think we can do?
    Maybe this would be redundant because we have already 
discussed how can Amtrak increase its ridership? Have you had a 
chance to think about that and get people attracted to going by 
train and out of their cars, and I say this hesitatingly, but 
out of the planes. Because one of the things that will relieve 
congestion in the sky is making room for passengers who will 
take the train and thereby permit us to operate more 
efficiently with air schedules.
    What do you think we might do, Tony?
    Mr. Coscia. Well, I think it clearly is an issue, and I 
think there has been a great deal of study to show that 
Americans, for trips that are 500 miles or less, do still rely 
on aviation and surface road transportation using their cars in 
levels that clearly are not the most efficient.
    And so, I guess there is a lot that I think I need to 
understand about Amtrak operationally and clearly. That is not 
a point I am at yet, but it would seem to me that a suggested 
approach that would make a difference would be efforts that 
Amtrak would take that would, in fact, create reliable service 
that is offered in areas where it encompasses a sufficient 
number of people who would use it as an alternative because it 
is available. It is available with regular intervals, with 
consistency, with reliability and, in fact, even having Amtrak 
explore those routes that might have a better application for 
rail that now are not serviced.
    The system truly, if it is perceived to be national and 
truly perceived to cover areas throughout the United States 
where it could officially--efficiently gap those areas that are 
in the 500-mile or less range, I think it would, in fact, 
increase ridership substantially.
    Senator Lautenberg. Do you want to comment?
    Mr. DiClemente. Senator, I think we are on the cusp of 
becoming a green society, and I think folks around the country 
are going to be looking at Amtrak, and Amtrak should be making 
a commitment to lead the way not only in terms of our service, 
but everything in terms of how we dispose of products on our 
trains and everything we do should be analyzed through the 
green technology that is available.
    Senator Lautenberg. Thank you very much.
    We will turn to Senator Hutchison now.
    Senator Hutchison. Well, thank you, Mr. Chairman.
    I have certainly worked with Senator Lautenberg on Amtrak 
issues. I have been a strong supporter of Amtrak, and it is a 
partnership that is based on the national concept. And I want 
to ask the two nominees for Amtrak if you are committed to 
keeping the national system besides the Northeast Corridor, 
which is the system that has gotten the most of the resources, 
and the track is owned by Amtrak. So that makes it easier.
    But the rest of the country I think also must keep this 
infrastructure if we are going to have a truly national system, 
which I think is important for us. And I think now that more 
states are looking at options for rail, that it would provide 
us the opportunity to have rail that comes into and out of the 
Amtrak stations and providing better ridership and better 
service.
    My question is to each of you, are you committed to the 
national system?
    Mr. Coscia. Senator, yes. In a word. And it makes 
incredible levels of sense that for the system to be truly 
effective, it would, in fact, need to be national. The areas 
where passenger rail service could make an enormous difference 
in terms of the mobility of Americans and the contribution to a 
more efficient and environmentally friendly transportation 
system clearly go well beyond only the Northeast Corridor of 
the United States.
    There are many metropolitan areas in major cities in the 
State which, if connected by a reliable, efficient rail 
service, would, in fact, do a great deal for the national 
economy. And I don't think that the system is really 
supportable in terms of building the kind of national consensus 
necessary in order to make the kind of investments that will be 
necessary not for a year or two, but for many years unless, in 
fact, you can develop a system that is, in fact, truly national 
and brings together people's legitimate, appropriate interests 
from a national standpoint.
    Senator Hutchison. Thank you.
    Mr. DiClemente. Senator, when Amtrak was founded, the 
charge was for it to be a national rail system. I agree with 
that charge, I agree with that mission statement, and I will do 
everything I can to make sure it remains that way.
    Senator Hutchison. Thank you very much.
    Those were the questions that I wanted to ask. I know Mr. 
Rosekind's area of expertise is fatigue, and I know that you 
asked questions about that area. So I won't ask questions of 
Mr. Rosekind, but appreciate very much your nomination and look 
forward to working with all of you.
    Thank you very much.
    Senator Lautenberg. Thank you very much, Senator Hutchison. 
I know your interest in this work over these years, and you 
will continue doing that whatever your capacity is.
    And for those members of the panel, thank you very much for 
your testimony and good luck. And if confirmed, you will be 
terrific.
    With that, I take the gavel and I say the meeting is 
adjourned.
    [Whereupon, at 4:28 p.m., the hearing was adjourned.]
                            A P P E N D I X

Prepared Statement of Hon. Barbara Boxer, U.S. Senator from California 
 on the Nomination of Mark Rosekind, to be a Member and Reappointed to 
                the National Transportation Safety Board
    Mr. Chairman, I am pleased to support Dr. Mark Rosekind to be a 
Member of the National Transportation Safety Board (NTSB). I would like 
to congratulate Dr. Rosekind and his family on his nomination.
    Dr. Rosekind is a graduate of Stanford and Yale University. His 
research has been important to our state of California, where he served 
as the Director of the Center for Human Sleep Research at Stanford.
    Dr. Rosekind is internationally recognized for his work examining 
the impact of fatigue on aviation, having served as the Director of 
NASA's Fatigue Countermeasures Program at NASA Ames, and also as the 
Chief of the Aviation Operations Branch in the NASA Ames Flight 
Management and Human Factors Division.
    His knowledge is not simply limited to aviation fatigue; Dr. 
Rosekind has advised other Federal transportation agencies on fatigue 
issues affecting other types of transportation.
    Dr. Rosekind's education and expertise will be a welcome addition 
to the NTSB. NTSB handles investigations of our Nation's most serious 
transportation accidents, and makes valuable safety recommendations to 
prevent similar tragedies.
    Dr. Rosekind is well qualified to fill the role of Board Member at 
NTSB. His selection affirms a commitment to ensure that NTSB continues 
to play a key role in working to improve the safety of our Nation's 
transportation systems.
    I look forward to working with Dr. Rosekind and NTSB to address 
some of our Nation's most pressing transportation safety deficiencies, 
including efforts to improve rail safety in the wake of the Chatsworth 
rail tragedy and addressing NTSB's Most Wanted aviation safety 
recommendations.
    These are serious challenges that need expert attention and I 
believe Dr. Rosekind will be a valuable addition to NTSB.
    Thank you, Mr. Chairman.
                                 ______
                                 
Prepared Statement of Hon. Barbara Boxer, U.S. Senator from California 
on the Nomination of Philip Coyle III, to be the Associate Director at 
 the Office of Science and Technology Policy, Executive Office of the 
                               President
    Mr. Chairman, I am pleased to support Philip Coyle to be the 
Associate Director for National Security and International Affairs in 
the Office of Science and Technology Policy (OSTP) in the Executive 
Office of the President. I would like to congratulate Mr. Coyle and his 
family on his nomination.
    Mr. Coyle hails from Sacramento, CA and has served our country and 
California in several capacities that support our national security.
    In his new role at the Office of Science and Technology, Mr. Coyle 
will work to tackle many critical issues including climate change, 
nuclear proliferation, bio-chemical warfare, and transportation 
security. We need strong leadership and experience to address these 
challenges facing our country and future generations.
    Mr. Coyle brings valuable experience to the OSTP and a commitment 
to working to solve some of our Nation's most complex problems. He has 
over 40 years experience in national security research, having worked 
over 33 years at the Lawrence Livermore National Laboratory in 
Livermore, California on nuclear weapons programs.
    During his tenure at the Department of Defense (DOD), Mr. Coyle was 
the longest serving Director of the Office Operational Test and 
Evaluation.
    For his work, Secretary of Defense William Perry awarded Mr. Coyle 
both the Defense Distinguished Service Medal and the Bronze Palm of the 
Defense Distinguished Service Medal.
    Mr. Coyle's expertise in security and military related fields 
combined with the recognitions he has received for his work make him a 
well qualified candidate for this position. I believe he will be a 
valuable asset to the OSTP.
    I look forward to working with Mr. Coyle and the Administration to 
address climate change, nuclear proliferation and the many other 
serious challenges facing our Nation.
    Thank you, Mr. Chairman.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                         Hon. Philip Coyle III
    Question 1. As Associate Director, part of your responsibility will 
be finding ways to utilize scientific advances within the larger goal 
of addressing national security concerns. Both Sandia National 
Laboratories and Los Alamos National Laboratory in New Mexico have 
decades of experience in bringing science research to national 
security, not only in their core mission of Stockpile Stewardship but 
also in matters of energy research, infrastructure simulation, cyber 
security and supercomputing. At OSTP, how would you employ the diverse 
knowledge and work of the national labs?
    Answer. The stewardship of the Nation's nuclear weapons stockpile 
is an essential mission which requires talented, insightful and 
knowledgeable people and modern, relevant research facilities. The DOE 
Nuclear Weapons Laboratories play a critical role in stockpile 
stewardship, a role for which we have no substitute. These Laboratories 
also have formidable scientific capabilities to contribute to our 
national security in other ways, such as in energy security, climate 
change, and intelligence. It was an important part of my career for 
many years to work with these Laboratories where I saw first-hand the 
capabilities they have. Drawing upon my many years of work in the 
national laboratories and my knowledge of their capabilities, if 
confirmed I will work with all the Laboratories and their sponsoring 
agencies to maximize the value they bring to all the relevant missions.

    Question 2. Cybersecurity is clearly a major national security 
concern that must be addressed. The U.S. continues to look at both 
offensive and defensive options, all while the technology itself 
advances and progresses on an almost daily basis. In your position at 
OSTP, what will be your cyber security goals?
    Answer. If confirmed, cybersecurity will be one of my highest 
priories. Though a primary driver of our economy for decades, our 
reliance on cyberspace also presents significant vulnerabilities. I 
fully support the recommendations in the President's Cyberspace Policy 
Review and if confirmed, I will work closely with the OSTP Director, 
the Chief Technology Officer, the Chief Information Officer, the Cyber 
Coordinator and other senior officials to ensure the Nation has robust 
capability to secure cyberspace. In addition, I will work to promote 
innovation along the full research, development, adoption, and 
operations pipeline to create a cyberspace for tomorrow that is safe 
for learning, sharing, discovering, working, shopping, and all of the 
other activities of a vibrant and prosperous society.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                         Hon. Philip Coyle III
    Question 1. Please provide for the record your views regarding the 
national security implications of the maintenance of a strong, viable 
U.S. civil human spaceflight program.
    Answer. Throughout its history the U.S. civil human spaceflight 
program has been a contributing element to our national security. In 
early years it served as a demonstration of technological leadership, 
as NASA accomplished the first human lunar landing through the Apollo 
program. That leadership position is still important, as is the respect 
it engenders amongst our current and future allies. The civil human 
spaceflight program offers opportunities to reach out to new 
international partners (and thereby improve international relations and 
understanding), as it did in the early 1990s when the U.S. and Russia 
agreed to work together on the International Space Station. Indeed the 
International Space Station has become a shining beacon of what can be 
accomplished when countries come together to forge working 
relationships with one another. And of course, our civil human 
spaceflight program, through both its potential challenges and rewards, 
attracts some of the greatest engineers and technical minds, forming a 
core element of the American technological industrial base and 
contributing to America's broad innovative edge. If confirmed I look 
forward to exploring continued national security and international 
affairs opportunities to strengthen our space programs, and offering my 
counsel to Dr. Holdren in this area.

    Question 2. Please provide your views on whether the Nation's human 
spaceflight capability is placed at risk by relying exclusively on the 
availability--and successful flight--of Russian Soyuz vehicles, over 
which we have no operational control, for access to the International 
Space Station for a period of as many as five to 7 years? Include in 
your response the impacts of subjecting not only the U.S. civil space 
program, but those of Europe, Japan, and Canada, for whom the U.S. is 
committed to provide transportation of crew to the ISS for the life of 
the ISS program, by international agreements.
    Answer. How we access the space station after retirement of the 
space shuttle is a critically important question. Although Russia 
proved to be a very reliable partner to not only the United States and 
NASA but to all of the ISS partners following the tragic loss of the 
Space Shuttle Columbia, we need new options for getting humans to Low 
Earth Orbit and the ISS. Today, Russia is a key partner, providing a 
range of important services for the entire ISS team in concert with the 
critical services and operations provided by NASA. The ISS partnership 
was designed specifically in this way, so that each partner is critical 
to the success of all the partners.
    However the ``gap'' in human spaceflight access to low-Earth orbit 
is a policy concern, and not an optimal situation for several reasons, 
including its impact on our dependence on Russia for crew 
transportation. This concern, coupled with some of the challenges 
involved in the current human space flight development effort was one 
of the drivers for the recently completed independent review of NASA's 
human spaceflight plans. If confirmed, I look forward to helping our 
space program find alternative access to low-Earth orbit as an 
important means of mitigating the risk of being dependent on any single 
access provider, regardless of origin.

    Question 3. What are the national security implications of the 
degradation or loss of the industrial capability for the production of 
solid rocket motors currently provided by ATK, Inc.?
    Answer. Solid rocket technology plays an important role in our 
Nation's strategic defense capabilities, and therefore the industrial 
base associated with that technology is a critical national asset. I 
understand that Congress has recently directed the Department of 
Defense (DoD) to assess the health and future prospects of this 
industry. If confirmed, I will certainly monitor this situation closely 
and interact with the DoD regarding the appropriate way forward in this 
area.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Ensign to 
                         Hon. Philip Coyle III
    Question 1. In your prepared testimony before the House Armed 
Services Committee on February 25, 2009, you wrote that ``it is clear 
that the GMD system and the U.S. missile defense system proposed for 
Europe require challenging and realistic testing before Congress and 
the administration can determine if those systems can be operationally 
effective . . .'' Yet Admiral Mullen, Chairman of the Joint Staff, 
testified before the Senate Armed Services Committee in July 2007 that 
``I believe the United States has a viable initial operational 
capability and we are maturing the system toward a full operational 
capability.'' And on March 19, 2009, in a hearing before the Senate 
Armed Services Committee, Admiral Keating, the PACOM combatant 
commander, testified that he believed the United States had a ``high 
probability'' of intercepting an intercontinental ballistic missile 
aimed at the United States by North Korea. How do you reconcile your 
pessimistic assessment of the operational effectiveness of the GMD 
system with the above statements by Admiral Mullen and Admiral Keating?
    Answer. Admiral Mullen stated that the United States has a viable 
``initial'' operational capability, by which I do not believe that he 
was indicating that the capability is so far along that it no longer 
requires challenging or realistic testing. In the same hearing in which 
I gave the remarks quoted above, Lt. Gen. Patrick O'Reilly, Director of 
the Missile Defense Agency, described the three-phase process he is 
using to identify needed tests to address ``Critical Engagement 
Conditions (CECs),'' which are engagement conditions that require 
challenging and realistic flight intercept tests, and tests needed to 
gather basic phenomenological data, called ``Empirical Measurement 
Events (EMEs).'' General O'Reilly stated that he had identified a total 
of 53 CECs and 22 EMEs of concern for the various ballistic missile 
defense system elements, including such issues as solar and lunar 
backgrounds, high closing velocities, salvo launches, and 
countermeasures. I also noted these issues in my testimony. Those 
numbers have since grown. On May 21, 2009, General O'Reilly testified 
that a total of 101 CECs and EMEs were needed.
    Admiral Keating's comment was made in the context of intercepting a 
single ICBM aimed at the United States, not several enemy missiles at 
once. The goal of being able to handle multiple simultaneous enemy 
missiles will require challenging testing.

    Question 2. In your prepared testimony before the House Armed 
Services Committee on February 25, 2009, you wrote of the need to 
increase testing for the ballistic missile defense system, including 
the Ground-based midcourse defense system. Yet Missile Defense Agency 
Director, General O'Reilly, testified this year before Congress that 
the MDA was moving away from conducting two GMD tests per year to one 
GMD test every 9 months. What is your view of this new, slower rate of 
testing? Do you assess that MDA was the ability to conduct at least GMD 
flight tests per year?
    Answer. All else being equal, considering the substantial number of 
GMD tests still needed, it would be helpful if they could be conducted 
at the rate of two per year, rather than one per year. In 2000, 2001, 
2002, and 2007, the Missile Defense Agency conducted two or more GMD 
flight intercept tests per year. However, these tests are expensive, 
require considerable scientific development, engineering analysis, and 
planning, and afterwards require lengthy data analyses. It is my 
understanding that given these realities, even though there may be 
certain years in which two GMD tests will be conducted, an average of 
closer to one GMD test per year will be the likely pace overall.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                         Hon. Philip Coyle III
    Question. One final question that has to do with an agreement in 
May. We agree, I should say to--the U.S. did to a negotiating agenda at 
the U.N. Conference on Disarmament to commit to the U.S. on a treaty 
for the prevention of an arms race in outer space. I think we need to 
understand the scope of the impact that that kind of a treaty could 
have on our defense and U.S. Defense programs, and I would ask you, and 
you don't have to do this now, but furnish it to us to identify for the 
committee those U.S. defense systems that currently are in the field or 
in development that might directly or indirectly be used to support an 
anti-satellite capability.
    Answer. It is critically important for the U.S. to continue to 
operate in space for both economic and defense reasons and to engage 
the international community in ways that further this goal. I am fully 
committed to ensuring that our capabilities in space continue to 
improve. Furthermore, any proposed international agreements in this 
general area must be considered with great care to ensure that they 
would be in the best interest of the US. If confirmed I will work with 
the Congress and with others in the government to address these 
challenges.
    I am aware of a successful U.S. anti-satellite test in the mid-
1980s that has been widely reported in the press and I of course 
followed very closely the Navy's successful shoot-down of the 
malfunctioning U.S. satellite last year. Since work in national 
security space related areas is often highly classified and my recent 
activities and employment have been outside the government (and not 
directly related to this area), I currently don't have access to much 
of the information that may exist relevant to your request. If 
confirmed, I will work with you and other members of the Committee to 
understand U.S. capabilities that might be relevant to this issue.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. David Vitter to 
                         Hon. Philip Coyle III
    Question 1. Mr. Coyle, I have serious concerns about several of 
your previous statements that indicate uncertainty regarding the future 
of U.S. ballistic missile defense systems. Given the increasing threat 
posed by Iran, North Korea, and other rogue states, I believe it is 
imperative that we fully support the development and deployment of 
missile defense systems that can protect the United States and our 
allies.
    In testimony before the House Armed Services Committee earlier this 
year, you compared America's missile defense program to ``a program in 
which I was going to prove that I could flap my arms and fly.'' In 
fact, you have testified repeatedly over the past decade that you do 
not have any faith in the Ballistic Missile Defense System (BMDS) 
currently being fielded by MDA. Do you continue to take such a dim view 
of America's missile defense system? Why or why not? If you are 
confirmed and the President asks for your assessment of the 
effectiveness of existing defensive systems, and the advisability of 
pursuing the recently announced ``Phased Adaptive Architecture,'' what 
will you tell him?
    Answer. I support the President's approach for a phased, adaptive 
approach to missile defense in Europe and believe it is based on an 
assessment of the missile threat, and a commitment to deploy technology 
that is proven, cost-effective, and adaptable to an evolving security 
environment. As the President has pointed out, this new system offers 
more effective defenses against more near-term ballistic missile 
threats, and provides for the defense of U.S. deployed forces, their 
families, and our Allies in Europe sooner and more comprehensively than 
the previous program. I also fully support the testing program that 
General O'Reilly has laid out for the Phased Adaptive Approach.
    My analogy to unaided human flight was intended to illustrate that 
difficult technical programs can focus too long on necessary but 
insufficient increments while not confronting the most challenging 
aspects of the missions they face. Under the leadership of Lt. Gen. 
Patrick O'Reilly, the Missile Defense Agency is now addressing the 
types of issues I raised For example, In the same hearing in which I 
gave the remarks quoted above, General O'Reilly identified some of the 
same test issues that I described in my testimony, including such 
issues as solar and lunar backgrounds, high closing velocities, salvo 
launches, and countermeasures. I fully support the new approach that 
General O'Reilly has spearheaded
    If I am confirmed, I will work to ensure that the Director of OSTP, 
and the President have access to the best available scientific and 
technological information on any issue for which my advice is sought.

    Question 2. Administration witnesses have repeatedly emphasized the 
importance of the Ground-Based Midcourse Defense System (GMD) as a 
``hedge'' against attack by Iran or North Korea. General Cartwright 
testified before the House and Senate Armed Services Committees earlier 
this year that: ``We currently have the ability to defend the United 
States (including the East Coast) against any Iranian ICBM, and with 
the TPY-2 deployment planned in Phase I and continued improvement of 
the GBIs, this defense will grow even stronger in the next several 
years.'' Do you believe that GMD is an effective hedge against the 
existing and likely future rogue nation ICBM threat? If not, what 
improvements need to be made before you will join the Administration in 
considering it an effective hedge?
    Answer. I fully support the Administration's approach to missile 
defense and applaud the advances that have been made in this extremely 
challenging area. It is my understanding that the new Phased Adaptive 
Approach could contribute to our defense as General Cartwright 
indicated In order to improve its effectiveness against future rogue 
nation ICBM threats, our missile defense system will need to continue 
to incorporate improvements from the results of the testing program 
that Lt. Gen. O'Reilly has initiated, and address the effects of 
possible nuclear detonations on missile defense radars, satellites, and 
command and control systems.

    Question 3. In a speech sponsored by the Global Security Institute 
in New York in 2005 you criticized the U.S. Military's approach to 
space, stating: ``[But] when the U.S. military talks about space 
dominance, space superiority, and space control, as they do regularly, 
they are behaving as if they think we do own space, and that we don't 
need to consult with anyone else about how space should be used.'' You 
also criticized U.S. spending on Space Situational Awareness (SSA), 
citing the Space Based Surveillance System (SBSS) as unnecessary. If 
confirmed, will you encourage President Obama to reduce spending for, 
or cancel outright, programs that provide SSA or space control options 
for our military?
    Answer. No. My point in that speech was that the United States 
should work with the international community to improve the security of 
its space systems. It is very difficult to protect space assets through 
national measures only. The threat of space debris, for example, can be 
addressed effectively only through international cooperation to 
minimize the production of debris.
    I fully support the need for improved space situational awareness. 
If confirmed, I would seek out the latest information on the current 
state of the SBSS program and do my best to assure the science and 
technology needed for a successful SBSS program was made available.

    Question 4. In the same 2005 speech, you went on to argue that: 
``New funding and priority for space weapons and for missile defense in 
the United States is creating a pressing need for arms control in 
space.'' If confirmed, will you encourage President Obama to seek to 
negotiate a multilateral space arms control agreement? What types of 
limitations would you propose as part of such an agreement? How would 
adherence to those limitations be verified?
    Answer. If confirmed, it would not be my role to encourage 
President Obama to seek to negotiate a multilateral space arms control 
agreement. If confirmed, I would work to assure that the best of 
America's science and technology was available for the U.S. national 
security and space activities that the President and the Congress 
decided to pursue.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                             Scott B. Quehl
    Question 1. If confirmed, what steps will you take to ensure proper 
oversight of all of the stimulus-related programs the Department of 
Commerce oversees, in particular the Broadband Technology Opportunities 
Program?
    Answer. The Department of Commerce (Department) has existing 
accountability mechanisms in place which are being used to review 
plans, progress and performance results for American Recovery and 
Reinvestment Act (ARRA) funded activities. Additionally, the Department 
has put in place ARRA-specific mechanisms for oversight of ARRA 
implementation activities.

        1. Senior Management Council (SMC)--provides leadership and 
        oversight for internal control assessments under OMB Circular 
        A-123, Management's Responsibility for Internal Control. The 
        Department also has a Senior Assessment Team (SAT) which is 
        responsible for conducting day-to-day A-123 activities, 
        including review, documentation, and testing of internal 
        controls. The SAT determined that existing controls will be 
        sufficient to handle the new ARRA projects.

        2. Department level program risk oversight--The Investment 
        Review Board (IRB) is responsible for conducting investment 
        reviews and assisting Department management by identifying 
        programs and projects that merit review; and providing findings 
        and recommendations from investment reviews to the Department 
        for resolution.

        3. ARRA Working Group--The Department formed several cross-
        bureau, cross-function work teams to plan and implement ARRA 
        across the Department. The Departmental Work Team structure is 
        as follows:

        The Senior Accountable Official and associated staff are 
        responsible for overall coordination and management at the 
        Department level of ARRA implementation, including timely 
        delivery of information on Recovery Act projects. The Senior 
        Accountable Official oversees the ARRA Working Group which 
        provides senior oversight and management to all sub-groups. The 
        ARRA Working Group consists of the Recovery Implementation 
        Steering Committee, the Bureau Points of Contact Group, and the 
        team leads for the work groups for reporting, transparency and 
        the National Environmental Policy Act (NEPA).

        The Bureau Points of Contact (POC) Group consists of a single 
        senior manager from each of the bureaus receiving funding (the 
        Census Bureau, the Economic Development Agency (EDA), the 
        National Institute of Standards and Technology (NIST), the 
        National Oceanic and Atmospheric Administration (NOAA), and 
        National Telecommunications and Information Administration 
        (NTIA)). These bureau POCs are responsible for coordinating and 
        managing bureau efforts with Departmental efforts. Each bureau 
        has its own internal team working on bureau-specific activities 
        and oversight, and the bureau POC is the communication and 
        management liaison to the Department.

    The Broadband Technology Opportunities Program (BTOP) has regular 
reviews conducted by the Department concerning milestones and 
decisions, including reviews of the program's project schedule, 
contract schedule and grant making process. NTIA is committed to 
ensuring that BTOP funds are spent wisely and efficiently. Since the 
inception of BTOP, NTIA has worked with the Department's Inspector 
General to design the program in a manner that minimizes the risk of 
waste, fraud, and abuse.
    NTIA has taken a number of steps to ensure that the BTOP program 
complies with all relevant environmental and historic preservation 
requirements. As project construction begins, NTIA will enhance its 
auditing and monitoring capabilities, including site visits to 
grantees. NTIA is currently developing program-specific post-award 
compliance and monitoring processes and guidelines that will include 
ARRA and BTOP reporting requirements.

    Question 2. You mention in your testimony that you will ensure that 
the Department's mission, goals, and budgets are connected to 
measurable results that matter. How do you anticipate doing that, and 
what government-wide reforms would you recommend to create clear, 
measurable results for all Federal programs and agencies?
    Answer. The Administration is still developing its performance 
agenda to meet mission requirements and improve efficiency and 
effectiveness. It will seek performance information that is used to set 
priorities and diagnose problems, and that tracks progress on goals 
across agencies. It will consider approaches used successfully by state 
and local government, as well as other countries, to come up with the 
best of what works in both the Federal Government and elsewhere. It 
will also identify those existing measurement efforts that are 
unsuccessful or burdensome, to streamline or eliminate them.
    Senior leaders need to be involved in setting goals, and held 
responsible for achieving them. Goals should be outcome-oriented and 
linked to program level and individual targets. Progress against 
targets should be communicated clearly, and reviews of planned vs. 
actual performance should be conducted at all levels. Finally, results 
should be transparent to Congress, the public, and the Federal work 
force.
    I understand that the development of the FY 2011 President's Budget 
has been informed by performance information, and budget justifications 
will continue to be integrated with annual performance plans. In 
addition, this year's budget will identify a small number of high-
priority performance goals for the next one to 2 years that will be 
tracked quarterly and reported publicly.
    In calendar year 2010, the Department will develop an updated 
Strategic Plan for 2010 through 2015, providing a framework for 
articulating and integrating the Department's mission, vision, goals, 
and measures into its annual budget, as well as its employee 
performance evaluations. This initiative calls for close coordination 
between the Office of the Secretary, Financial Management, Human 
Resources, and bureau leadership within the Department, as well as 
consultation with the Committee on the Strategic Plan.
    Department management intends to work closely with the Office of 
Management and Budget, and consider the views of the Government 
Accountability Office, the Office of the Inspector General, and 
appropriate inter-agency councils in the formulation of program 
performance metrics. The Department also intends to make more effective 
use of management information systems to support performance assessment 
and reporting.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Tom Udall to 
                           Anthony R. Coscia
    Question. Mr. Coscia, studies have shown that rail transportation 
is cleaner and more efficient than passenger car transportation. In New 
Mexico, the Rail Runner Express has demonstrated that New Mexicans are 
willing to leave their cars behind to travel in an environmental 
friendly way if more rail options were available. Yet the Amtrak 
service map shows that intercity passenger service is primarily focused 
in the Northeast and along the coasts. What are your thoughts for 
improving passenger rail service in the southwest and intermountain 
west?
    Answer. There are many metropolitan areas in the southwest and 
intermountain west that are experiencing large increases in population 
where expanded Amtrak service could provide significant benefits, 
particularly on routes of 500 miles or less where airlines and 
automobiles are the only alternative today. The Northeast Corridor 
demonstrates that sustained investment in improved intercity passenger 
rail service can produce significant benefits, and that intercity 
passenger trains and commuter train services, such as the Rail Runner 
Express, can complement each other in meeting regional transportation 
needs. If confirmed I will work with the Board and management to 
explore the opportunities for expanded intercity passenger rail service 
in these areas of the country.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Tom Udall to 
                          Albert A. DiClemente
    Question. Mr. DiClemente, studies have shown that rail 
transportation is cleaner and more efficient than passenger car 
transportation. In New Mexico, the Rail Runner Express has demonstrated 
that New Mexicans are willing to leave their cars behind to travel in 
an environmental friendly way if more rail options were available. Yet 
the Amtrak service map shows that intercity passenger service is 
primarily focused in the Northeast and along the coasts. What are your 
thoughts for improving passenger rail service in the southwest and 
intermountain west?
    Answer. As I stated at my hearing, I am strongly committed to a 
national passenger rail system that serves all regions of the United 
States, including the southwest and intermountain west. This will 
require investments and support by both the Federal and state 
governments to enhance and expand Amtrak services on routes outside of 
the Northeast Corridor. The investments in passenger rail service in 
the Northeast Corridor have produced enormous benefits, in terms of 
mobility, job creation, and commercial development around Amtrak 
stations. We need to replicate that model in the rest of the country.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                            Mark R. Rosekind
    Question 1. In the wake of the collapse of the I-35W bridge in 
Minneapolis that claimed 13 lives, I experienced first-hand the 
professionalism, dedication and knowledge of the staff and leadership 
of the NTSB. In your testimony, you note strengths of the NTSB work 
force, but also praise NTSB Chairman Hersman for challenging the staff 
to increase transparency and accountability. I agree, and worked with 
NTSB to seek a report on the policies and guidelines used in the 
expedited release of factual accident-related information. My amendment 
to the S. 2768, the bill to reauthorize the NTSB, would not only 
increase transparency, but provide the NTSB with a tool to use when 
faced with criticism about the rate in which they release such 
information. In what other ways could transparency and accountability 
be improved at the NTSB?
    Answer. In Chairman Hersman's challenge to the men and women of the 
NTSB to ``raise the bar'' she identified transparency, accountability, 
and integrity as initial areas for action. Each of these areas involves 
complex and delicate issues that must be thoroughly explored and 
specific actions determined before embarking on change. Clearly, 
Chairman Hersman strongly believes that NTSB personnel are up to this 
challenge and that these significant actions will enhance the Board's 
effectiveness and value. Senator Klobuchar, your efforts to further 
increase transparency and provide a tool related to timing of 
information release will further strengthen the NTSB's abilities to 
meet its vital mission objectives. While I don't yet have suggestions 
concerning legislative or statutory changes that would enhance 
transparency and accountability, if confirmed, I look forward to 
working with NTSB colleagues to fully implement the Chairman's 
initiatives to increase transparency in a variety of avenues, including 
issuing clear procedures and guidelines for releasing accident 
investigation information, and providing helpful information to the 
Congress.

    Question 2. How would you balance the public's right to learn 
information about an on-going NTSB investigation with the NTSB's charge 
to get to the bottom of the facts--and get it right?
    Answer. In the context of transparency raised in #1 above, this 
question goes directly to the central issue of the appropriate balance 
needed to maintain transparency without jeopardizing the integrity of 
an on-going accident investigation. If confirmed, I will learn about 
current NTSB policies and procedures that govern information release 
and timing, the controversies surrounding the issue, examples of 
effective and problematic applications, and proposed changes to current 
methods. After learning the details and nuances of this issue, I will 
work with Chairman Hersman, my fellow Board Members, and the senior 
leadership at the NTSB to develop a more informed and effective 
approach to address this important matter. The key, of course, will be 
enhancing transparency while continuing to develop timely, complete, 
and effective accident investigations and safety recommendations.

    Question 3. As an expert, beyond implementing NTSB recommendations, 
what more could be done by government at all levels to prevent fatigue-
related transportation accidents?
    Answer. Fatigue is a complex and contentious issue that requires a 
comprehensive and programmatic approach to effectively reduce fatigue-
related risks and accidents. This requires addressing fatigue from an 
overall systems perspective, at the organizational (corporate) level, 
and at the individual level. First, the government can address the 
systems perspective through Federal policies and regulations (e.g., 
hours of service, education and training requirements, diagnosis and 
treatment of sleep disorders, fatigue policies, role of technologies 
including fatigue models). Second, the government can address the 
organizational (corporate) level by mandating specific fatigue 
management activities, establishing requirements, and providing 
mechanisms for flexibility and oversight (in all areas identified 
above). Third, the government can address the individual level by 
requiring specific fatigue management elements in licensing (e.g., an 
education and training and recurrent requirements) and medical 
certification (e.g., diagnosis and treatment of sleep disorders). 
Finally, it is critical that the latest and most relevant scientific 
knowledge is used to guide these policies, requirements and activities; 
and where appropriate, establish explicit policies. Ongoing and timely 
reviews should provide mechanisms to change and evolve policies, 
requirements, and activities that reflect new operational demands, 
technology, and science.

    Question 4. You note in your testimony that one of your priorities 
at the National Transportation Safety Board will be to address fatigue. 
Will your role as a member of the Board diminish your ability to be 
proactive on your stated goal of applying scientific knowledge to 
improve performance and safety in diverse settings?
    Answer. If confirmed, I will be presented with a new and 
challenging arena within which to apply the skills and abilities that I 
have developed in my professional life. Essentially, being a Member of 
the Board represents the ultimate opportunity to apply scientific 
knowledge to improve performance and safety in diverse settings. Over 
the past 25 years, I have addressed fatigue in academic settings, while 
leading an internationally recognized NASA Program, and in the business 
sector providing effective strategies to manage fatigue in complex, 
real-world situations. Each of these environments provides a different 
mechanism to address fatigue: academic research provides controlled 
scientific data (typically published in scientific journals); NASA 
provides an applied, technical setting with the opportunity to collect 
data in real-world, relevant operations (results usually distributed 
through technical and operational venues), and the business sector is 
focused on effectiveness, cost, and value (due to confidentiality and 
competitive advantages, some outcomes may only be applied internally). 
There have been significant outcomes from these efforts that have made 
acknowledged contributions to reducing fatigue-related risks and 
accidents (e.g., NASA's nap study showing the effectiveness of short 
naps to enhance performance and alertness, a real-world test of an 
Alertness Management Program to improve sleep and operational 
performance). If confirmed as a Member of the Board, I will have the 
opportunity to see the outcomes of meticulous investigations and fact-
based, thoughtful recommendations that can affect the broadest range of 
settings, far beyond those touched by academics, NASA or the business 
sector. The transportation industry represents multiple modes and is 
the model for many other industries. The NTSB's findings and 
recommendations are cited and implemented far beyond the transportation 
industry, enhancing the safety of the American public in many areas.

                                  <all>

</pre></body></html>
